<html>
<title> - SECOND DISCUSSION DRAFT OF LEGISLATION REGARDING OFF-RESERVATION INDIAN GAMING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   SECOND DISCUSSION DRAFT OF LEGISLATION REGARDING OFF-RESERVATION 
                             INDIAN GAMING

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, November 9, 2005

                               __________

                           Serial No. 109-34

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-545                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, November 9, 2005......................     1

Statement of Members:
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     5

Statement of Witnesses:
    Barnett, John R., Chairman, The Cowlitz Indian Tribe of 
      Washington.................................................    30
        Prepared statement of....................................    32
    Jacob, Hon. Dianne, Supervisor, San Diego County Board of 
      Supervisors................................................    69
        Prepared statement of....................................    72
    Kennedy, Cheryle A., Tribal Council Chairwoman, Confederated 
      Tribes of the Grand Ronde Indian Community of Oregon.......    25
        Prepared statement of....................................    27
    Kromm, Hon. Duane, Supervisor, Solano County Board of 
      Supervisors, and Member, California State Association of 
      Counties...................................................    57
        Prepared statement of....................................    59
    Marquez, Deron, Chairman, San Manuel Band of Mission Indians, 
      California.................................................    22
        Prepared statement of....................................    24
    Papen, Hon. Mary Kay, Senator, New Mexico State Senate.......    53
        Prepared statement of....................................    55
    Rauschenberger, Hon. Steven J., Senator, Illinois State 
      Senate, National Conference of State Legislatures..........    51
        Prepared statement of....................................    52
    Stevens, Ernest L., Jr., Chairman, National Indian Gaming 
      Association................................................     6
        Prepared statement of....................................     8
    Suppah, Ron, Chairman, Confederated Tribes of the Warm 
      Springs Reservation of Oregon..............................    15
        Prepared statement of....................................    17


   OVERSIGHT HEARING ON ``THE SECOND DISCUSSION DRAFT OF LEGISLATION 
               REGARDING OFF-RESERVATION INDIAN GAMING.''

                              ----------                              


                      Wednesday, November 9, 2005

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:09 a.m. in Room 
1324, Longworth House Office Building. Hon. Richard W. Pombo 
[Chairman of the Committee] presiding.
    Present: Representatives Pombo, Hayworth, Walden, Gibbons, 
Cubin, Gallegly, Tom Udall, DeFazio, Kind, Inslee, Napolitano, 
Pearce, Costa, Herseth, and Cardoza.

 STATEMENT OF THE HONORABLE RICHARD W. POMBO, A REPRESENTATIVE 
                  FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order. The Committee is meeting today to hear testimony on the 
second version of a discussion draft bill regarding off-
reservation Indian gaming.
    Under Rule 4[g] of the Committee Rules, any oral opening 
statements at hearings are limited to the Chairman and Ranking 
Minority Member. This will allow us to hear from our witnesses 
sooner and help members keep to their schedules. Therefore, if 
other members have statements, they can be included in the 
hearing record under unanimous consent.
    Today the Committee is seeking testimony regarding the 
second draft of legislation that I authored to amend Section 20 
of the Indian Gaming Regulatory Act regarding off-reservation 
gaming. My intention in this public process is to ensure that 
Indian gaming is conducted on Indian lands consistent with the 
original intent of IGRA.
    The vast majority of tribes that conduct Indian gaming do 
so on Indian lands that are not involved in any off-reservation 
gaming controversies whatsoever. However, IGRA makes several 
exceptions for the possibility of off-reservation gaming.
    While only a small handful of these have been approved 
since 1988, the mere existence of these exceptions has proven 
to be a great incentive for the proliferation of off-
reservation gaming proposals. Lured by the potential profits of 
an off-reservation facility and the ambiguity about what may or 
may not be allowed under Section 20 of IGRA, there has been an 
ever-increasing ground swell of new proposals for off-
reservation gaming facilities.
    This great increase in new proposals has led to new 
problems for tribal gaming. Tribes seeking to go off 
reservation, and their development backers, have been all too 
willing to trade away sovereign tribal rights in exchange for 
an off-reservation gaming location. It has increased conflict 
between Indian tribes. It has led to the frustration in local 
communities who feel powerless to affect whether or not a 
casino is located in their community, and it has severely 
damaged the public image of Indian gaming, causing the public 
focus to shift away from the good things that gaming has done 
for tribal self-governance and self-sufficiency, and instead 
focus on the perceived negatives of tribal gaming.
    These conflicts and controversies over off-reservation 
gaming proposals are not a matter of perception. They are real 
and have very real consequences.
    Colleagues of mine who do not often have to deal with 
tribal issues all of a sudden are exposed to them in a very 
negative way when an Indian casino is proposed in their 
district where a tribe does not reside. Off-reservation gaming 
is not just bad publicity for the tribes, it is all too often 
the only publicity they are getting, and this bad publicity 
definitely affects how members look at all bills affecting 
Indian tribes.
    I distributed my initial discussion draft bill in March, 
and since then the Committee has conducted several hearings, 
held hundreds of meetings, and taken countless comments from 
Indian tribes, state and local officials, and local citizens 
groups on that draft.
    After careful consideration of that input, I have revised 
the draft legislation with a number of improvements to clarify 
the law and empower local communities and tribes. This 
discussion draft bill clarifies where Indian casinos can be 
located while increasing the role and power of local community 
state legislatures and nearby Indian tribes in the process of 
considering an off-reservation gaming proposal.
    The vast majority of tribes that conduct gaming have done 
so on their own lands regardless of location rather than 
seeking the most commercially lucrative off-reservation site. 
This draft ensures that those tribes who have faithfully 
adhered to the spirit and intent of IGRA will not be harmed by 
off-reservation facilities.
    I have also included language that will make it easier for 
tribes to work together in cooperative gaming development 
proposals on current reservation land. This gives tribes a new 
economic development option without having to resort to 
introducing gaming in areas where it is does not already exist.
    Additionally, it will empower local communities to be a 
part of the process in determining whether or not land is taken 
into trust in their community for Indian gaming, giving them a 
voice in the final determination.
    I know that the inclusion of local communities in the 
process has been cause of concern to the Indian country who 
have pointed out repeatedly that it is against current 
precedent and Federal Indian policy to allow local communities 
any power over affairs on tribal lands.
    While I hear and understand the concerns, I respectfully 
submit to the tribes that this situation with off-reservation 
gaming covered in my draft is different and deserves to be 
handled differently. No one is suggesting that local 
communities in Arizona should be able to tell the San Carlos 
Apache how much timber they should harvest from their lands or 
the communities in South Dakota should be able to dictate the 
Cheyenne River Sioux how to run their tribal housing program.
    What I am saying in this draft is that in the circumstances 
of off-reservation gaming proposals, we are not talking about 
existing reservation lands. Instead, we are talking about a 
land within a community that a tribe wishes to purchase, and 
then have the government designate that land as an Indian 
reservation and eligible for Indian casino gaming.
    This is an entirely different situation where the tribe is 
asking to join and become part of a new community and it is 
entirely proper for the community to have a say in that matter.
    In any other situation where an entity wants to come into a 
community and develop property, whether for a house, hospital, 
factory, garbage dump, nuclear power plant or even a Federal 
facility like a military base, the local community has the 
ability to determine whether or not they want that type of 
development in their midst. Even a homeowner wanting to put an 
addition on their house or other improvements to their own 
property has to get local approval through the zoning process.
    Why should a proposal for an off-reservation Indian casino 
be treated any different? Put another way, why should off-
reservation casinos be the only type of development in the 
country where the local community has no say?
    This is an important concept that I look forward to having 
a very thorough dialogue on. In distributing the second draft 
bill, I want to emphasize my continued commitment to 
consultation with the tribes on this topic on a government-to-
government basis.
    Once again, I emphasize that this is a work in progress. I 
welcome the continued valuable input from tribes and other 
interested parties, and will use this input constructively to 
craft quality legislation that lays the off-reservation gaming 
controversy to rest.
    With that in mind, I want to hear from today's witnesses 
about their experiences with off-reservation gaming and what 
they think of the current discussion draft.
    At this time I would like to recognize Mr. Udall.
    [The prepared statement of Chairman Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    Today the Committee is seeking testimony regarding the second draft 
of legislation I authored to amend Section 20 of the Indian Gaming 
Regulatory Act regarding off-reservation gaming. My intention in this 
public process is to ensure that Indian gaming is conducted on Indian 
lands, consistent with the original intent of IGRA.
    The vast majority of tribes that conduct Indian gaming do so on 
Indian lands and are not involved in any off-reservation gaming 
controversies whatsoever. However, IGRA makes several exceptions for 
the possibility of off-reservation gaming. While only a small handful 
of these have been approved since 1988, the mere existence of these 
exceptions and has proven to be a great incentive for the proliferation 
of off reservation gaming proposals. Lured by the potential profits of 
an off-reservation facility, and the ambiguity about what may or may 
not be allowed under Section 20 of IGRA, there has been an ever-
increasing groundswell of new proposals for off-reservation gaming 
facilities.
    This great increase in new proposals has led to new problems for 
tribal gaming. Tribes seeking to go off reservation, and their 
development backers, have been all too willing to trade away sovereign 
tribal rights in exchange for an off reservation gaming location. It 
has increased conflict between Indian tribes. It has led to frustration 
in local communities who feel powerless to affect whether or not a 
casino is located in their community. And it has severely damaged the 
public image of Indian gaming, causing the public focus to shift away 
from the good things gaming has done for tribal self-governance and 
self-sufficiency, and instead focus on the perceived negatives of 
tribal gaming.
    These conflicts and controversies over off-reservation gaming 
proposals are not a matter of perception; they are real, and have very 
real consequences. Colleagues of mine who do not often have to deal 
with tribal issues all of a sudden are exposed to them in a very 
negative way when an Indian casino is proposed in their district where 
a tribe does not reside. Off-reservation gaming is not just bad 
publicity for tribes; it is all too often the only publicity they are 
getting. And this bad publicity definitely affects how Members look at 
all bills affecting Indian tribes.
    I distributed my initial discussion draft bill in March and since 
then the Committee has conducted several hearings, held hundreds of 
meetings, and taken countless comments from Indian tribes, State and 
local officials, and local citizens' groups on that draft. After 
careful consideration of their input, I have revised this draft 
legislation with a number of improvements that clarify the law and 
empower local communities and Tribes.
    This discussion draft bill clarifies where Indian casinos can be 
located while increasing the role and power of local communities, state 
legislatures, and nearby Indian tribes in the process of considering an 
off-reservation gaming proposal.
    The vast majority of tribes that conduct gaming have done so on 
their own reservation lands, regardless of location, rather than 
seeking the most commercially lucrative off-reservation site. This 
draft ensures that these tribes, who have faithfully adhered to the 
spirit and intent of IGRA, will not be harmed by off-reservation 
facilities.
    I have also included language that will make it easier for Indian 
tribes to work together in cooperative gaming development proposals on 
current reservation land. This give tribes a new economic development 
option without having to resort to introducing gaming in areas where it 
does not already exist.
    Additionally, it will empower local communities to be a part of 
process in determining whether or not land is taken into trust in their 
community for Indian gaming, giving them a voice in the final 
determination.
    I know that the inclusion of local communities in the process has 
been a cause of concern to Indian Country, who have pointed out 
repeatedly that it is against current precedent in federal Indian 
policy to allow local communities any power over affairs on tribal 
lands. While I hear and understand these concerns, I respectfully 
submit to the tribes that this situation with off reservation gaming 
covered in my draft is different and deserves to be handled 
differently.
    No one is suggesting that local communities in Arizona should be 
able to tell the San Carlos Apache how much timber they should harvest 
from their lands, or that communities in South Dakota should be able to 
dictate to the Cheyenne River Sioux how to run their tribal housing 
program. What I am saying in this draft is in the circumstance of off 
``reservation gaming proposals, we are not talking about existing 
reservation lands. Instead, we are talking about land within a 
community that a tribe wishes to purchase, and then have the government 
designate that land as Indian reservation land and eligible for Indian 
casino gaming. This is an entirely different situation--where the tribe 
is asking to join and become part of the community, and it is entirely 
proper for the community to have a say in the matter.
    In any other situation where an entity wants to come into a 
community and develop property, whether for a school, hospital, 
factory, garbage dump, nuclear power plant, or even a federal facility 
like a military base, the local community has the ability to determine 
whether or not they want that type of development in their midst. Even 
a homeowner wanting to put an addition on their house or other 
improvements to their property, has to get local approval through the 
zoning process. Why should a proposal for an off-reservation Indian 
casino be treated any differently? Put another way, why should off-
reservation casinos be the ONLY type of development in the country 
where the local community does not have the final say on whether or not 
it happens? This is an important concept that I look forward to having 
a very thorough dialogue on.
    In distributing a second draft bill, I want to emphasize my 
continued commitment to consultation with Indian tribes on this topic 
on a government-to-government basis. Once again, I emphasize that it is 
a work in progress. I welcome the continued valuable input from tribes 
and other interested parties, and will use this input constructively to 
craft quality legislation that lays the off-reservation gaming 
controversy to rest.
    With that in mind, I want to hear from today's witnesses about 
their experiences with off-reservation gaming and what they think of 
the discussion draft.
                                 ______
                                 

STATEMENT OF THE HONORABLE TOM UDALL, A REPRESENTATIVE FROM THE 
                      STATE OF NEW MEXICO

    Mr. Tom Udall. Thank you, Mr. Chairman, and we very much 
appreciate all the witnesses that are here today, and Mr. 
Chairman, we very much appreciate you having a number of 
hearings and getting input from the public and all the 
concerned parties. We appreciate that way of legislating, and 
we hope that it will continue on this issue.
    One of the panels today has a witness on it that will deal 
with a gaming issue in New Mexico. My constituent involving 
that issue is the Pueblo of Jemez, which is in the 3rd 
congressional district in New Mexico. At this time the Pueblo 
of Jemez is celebrating its religious feast day and was unable, 
Mr. Chairman, to be here.
    The Governor of the Pueblo has written Chairman Pombo a 
letter regarding the Jemez application before the Department of 
Interior. This is an application under Section 20. Included 
with the letter is the Dona Ana County resolution supporting 
the Pueblo's application before the Department of the Interior.
    At this time, Mr. Chairman, I would like to make that 
letter, the Governor's letter to you and the Dona Ana County 
resolution an official part of the record.
    The Chairman. Without objection.
    [NOTE: The letter and resolution have been retained in the 
Committee's official files.]
    Mr. Tom Udall. Thank you, Mr. Chairman.
    I also note that serving on one of these panels is one of 
our very able senators from the State of New Mexico, Senator 
Mary Kay Papen. She is a hard working and dedicated legislator, 
and I am sure she is going to be giving very valuable testimony 
today on this issue.
    I hope that I will be able to be here for most of her 
testimony, although commitments are going to have me going in 
and out this morning.
    So with that, Mr. Chairman, I would yield back, and 
appreciate very much the panelists being here today to offer 
their testimony on this piece of legislation.
    The Chairman. Thank you. And as I said earlier, any other 
opening statements will be included in the record. Our panels, 
most of those on our panels have traveled great distances to be 
here and to participate in this hearing, and I want to get to 
their testimony, and having the opportunity to have a 
discussion on the draft bill as quickly as we can.
    I would like to call up our first panel of witnesses: 
Chairman Ernest Stevens; Chairman Ron Suppah; Chairman Deron 
Marquez, Chairperson Cheryle Kennedy; and Chairman John 
Barnett. If you would join us at the witness stand, and just 
remain standing.
    As is the custom of the Committee, we swear in all of our 
witnesses.
    [Witnesses sworn.]
    The Chairman. Let the record show they have all answered in 
the affirmative.
    Thank you very much for being here. I have had an 
opportunity to discuss this with most of you individually in 
the past, but I do look forward to having the opportunity to 
have you testify at the hearing.
    Chairman Stevens, we are going to begin with you. I will 
tell you and all of our witnesses that your entire written 
statements will be included in the record. If you could try to 
summarize those statements and stay within the five minutes for 
your oral testimony, it would help to get to the questions and 
move on with the hearing.
    So Chairman Stevens, we are going to begin with you.

         STATEMENT OF CHAIRMAN ERNEST L. STEVENS, JR., 
               NATIONAL INDIAN GAMING ASSOCIATION

    Mr. Stevens. Thank you and good morning. It is a great 
honor to be here before you, Chairman Pombo, and the rest of 
the Committee members. I would like to also acknowledge the 
fellow tribal leaders that are here present today.
    As you know, my name is Ernie Stevens, Jr., and I have had 
the great honor of serving as Chairman of the National Indian 
Gaming Association for the past five years, and with me today 
is NIGA's executive director, Mr. Mark Van Norman.
    I want to thank you for inviting me to testify this morning 
and for the serious process that you have given this very 
important issue. We appreciate that you have issued the second 
version of the bill in draft form so the tribal leaders have a 
chance to comment on the legislation as the bill continues to 
develop.
    As you know, the issue of off-reservation gaming is a 
difficult one for all of Indian country. As NIGA promised the 
Committee last March, we convened a NIGA/NCAI tribal leaders 
task force to form a national position on off-reservation 
gaming.
    Over a period of four months, we held four hearings, the 
first in Washington, D.C., the second in San Diego, California, 
the third in Minneapolis, Minnesota, and the final meeting in 
Green Bay, Wisconsin, in conjunction with the National Congress 
for American Indians mid-year meeting. Over 150 tribal leaders 
and representatives attended each meeting.
    Many tribal leaders stated that IGRA is working, citing the 
fact that only four off-reservation gaming sites have been 
approved in 17 years. Others have voiced concern that off-
reservation gaming may infringe on the aboriginal lands of 
nearby tribes, and is generating controversy in the media.
    While tribal leaders were not unanimous in their views, the 
great majority of tribal leaders participating in the task 
force agreed that opening IGRA was not a way to address the 
issue. Instead, the leaders chose to support a regulatory 
process to clarify off-reservation gaming. NIGA and NCAI 
adopted a joint resolution to this effect. We have submitted 
that to the Committee.
    The Interior Department recently announced that it will 
soon issue a discussion draft of regulations to implement 
Section 20. We believe that this as rulemaking process will 
shed much needed light on the extensive process already in 
place for off-reservation gaming, and will bring clarity to the 
issue that will ease the concerns of Congress and the public.
    For the two-part process, Interior's rule will require:
    One, tribal state and local community input; the 
Secretary's approval for gaming benefits to the tribe and it is 
not detrimental to nearby tribes and local community; and 
third, the Governor's concurrence.
    In addition, Interior uses a sliding scale under its 151 
trust land regulations that gives more weight to the state and 
local concerns if the off-reservation site is located far from 
the tribe's current reservation.
    As a result of this extensive process, only three tribes 
used the two-part process in 17 years, and none have used it 
for gaming on lands outside their current state.
    Interior's rule will also include a significant hurdle in 
place for the Section 20's land claim exception, which is that 
Congress must pass legislation approving the land claim 
settlement before a tribe could conduct gaming on the land. 
This gives everyone that may have an interest in the process, 
including tribal, state, and local governments, an opportunity 
to voice their concerns. This exception has only been used once 
in 17 years.
    Interior's regulations will spell out all of these and 
other requirements to off-reservation gaming, and the 
establishment of initial reservations. In addition, these clear 
rules will discourage unrealistic proposals.
    NIGA supports the existing provisions in Section 20 that 
provide nearby tribes, state, and local governments with input 
on off-reservation process, and the general requirement that 
tribes must have a historical connection to lands that they 
seek for the purposes of gaming. These are important policy 
statements that NIGA and NCAI included in our joint resolution, 
and Interior has indicated that its proposal will include such 
requirements.
    We hope that the Resources Committee and the Senate 
Committee on Indian Affairs will give Interior's regulatory 
proposal an opportunity to move forward. NIGA appreciates the 
opportunity to be a part of this legislative process, yet we 
are concerned with several provisions in the second draft.
    First, it would delete the two-part process and the land 
claim exception. As I noted, in 17 years under IGRA only four 
tribes have met the strict requirements necessary to meet these 
exceptions.
    In addition, we are concerned that adding requirements for 
newly acknowledged, restored and landless tribes may infringe 
on vested property rights. Initial reservations are not of-
reservation. The Section 20 exception for these tribes seek to 
address the previous wrongs. Interior has indicated that its 
proposal will require these tribes to show that they have 
historic connection to these lands that they seek as their 
initial reservation.
    And finally, we are concerned that with the provisions that 
will require local community input for the establishment of 
initial reservations. Requiring local community approval for 
the exercise of tribal rights on their own lands would set a 
bad precedent for us. We believe that local governments are 
subdivisions of the state, not separate sovereigns. State 
governments have the power and authority to protect the 
interests of local government.
    NIGA will continue this dialogue, Mr. Chairman, with our 
tribal leaders task for next week in Seminole, Florida at our 
mid-year conference, and we will continue to discuss this 
matter and do its best to provide valuable feedback as you move 
through the process.
    In conclusion, Mr. Chairman, and Members of the Committee, 
I want to just assure that our concerns--we approach this, any 
attempt to amend IGRA with great caution. Indian gaming has 
provided our communities with a new hope because Indian gaming 
continues to rebuild our communities, and that is why we speak 
with great concern from our heart through this process.
    Again, I emphasize, Mr. Chairman, that we will continue to 
interact, and I have discussed this briefly with President Hall 
who now has stepped down as President of NCAI, and he will hand 
this process very firmly over to President, new President Joe 
Garcia of the National Congress for American Indians, and we 
will continue to be here to speak to any of the issues that you 
might have.
    So as the Committee moves forward in this process, we ask 
that Congress work to protect the integrity of the Act, and 
protect legislative process to prevent any unrelated 
amendments. With due respect, we also ask that you give 
Interior time to pursue its regulatory process.
    Once again, sir, we thank you for the opportunity to 
testify, and we are here to answer any questions. Thank you 
very much to the Members of the Committee as well.
    [The prepared statement of Mr. Stevens follows:]

            Statement of Ernest L. Stevens, Jr., Chairman, 
                   National Indian Gaming Association

    Good morning. Chairman Pombo, Congressman Rahall and Members of the 
House Resources Committee, thank you for the opportunity to testify on 
the second discussion draft of legislation regarding off-reservation 
Indian gaming.
    My name is Ernest L. Stevens, Jr. and I am the Chairman of the 
National Indian Gaming Association (``NIGA''). NIGA is an inter-tribal 
association of 184 Indian tribes that use Indian gaming to generate 
essential tribal government revenue.
Introduction
    At the outset, I should note that 98 to 99% of Indian Gaming is 
conducted ``on reservation.'' Indian tribes generally oppose amending 
the Indian Gaming Regulatory Act (``IGRA'') because we are concerned 
that amendments will diminish tribal rights and that once lost, we 
would have great difficulty restoring our rights.
    We ask the Committee to continue to consider any amendment to IGRA 
only through regular order, and if any amendments are marked out of 
Committee, we ask that they be considered under a closed rule. We also 
respectfully request that the Committee reject extraneous amendments 
that would undermine tribal rights to self-government. After all, for 
Indian nations tribal self-government is our original democracy. 
Finally, any amendment to IGRA should approve the Secretary's 
procedures in lieu of compact to address the Supreme Court's Seminole 
decision.

A. Indian Gaming: the Native American Success Story
    Indian gaming is the Native American success story. Where there 
were no jobs, now there are 553,000 jobs.
    Where our people had only an eighth grade education on average, 
tribal governments are building schools and funding college 
scholarships.
    Where the United States and boarding schools sought to suppress our 
languages, tribal schools are now teaching their native language.
    Where our people suffer epidemic diabetes, heart disease, and 
premature death, our tribes are building hospitals, health clinics, and 
wellness centers.
    Historically, the United States signed treaties guaranteeing Indian 
lands as permanent homes, and then a few years later, went to war to 
take our lands. This left our people to live in poverty, often on 
desolate lands, while others mine for gold or pumped oil from the lands 
that were taken from us.
    Throughout all of those long years, Indian tribes always fought to 
maintain our inherent right to self-government and Indian gaming is an 
exercise of that right.
    Today, for over 60% of Indian tribes in the lower 48 states, Indian 
gaming offers new hope and a chance for a better life for our children.
    Two-thirds of American voters support Indian gaming, and when they 
are informed that Indian gaming is rebuilding our communities, 74% of 
American voters support Indian gaming.

B. Government-to-Government Consultation
    The Commerce Clause of the Constitution recognizes Indian tribes as 
pre-existing governments. The Constitution also acknowledges the status 
of tribal governments as sovereigns and the sanctity of our treaties in 
the Treaty Clause. As a result, the historical relations between the 
United States and Indian nations are built on a foundation of 
government-to-government relations.
    Honoring the historical policy of government-to-government 
relations between the United States and Indian tribes, on September 23, 
2004, President Bush issued an Executive Memorandum to the Heads of 
Executive Departments and Agencies explaining:
        The United States has a unique legal and political relationship 
        with Indian tribes and a special relationship with American 
        Indian tribes and Alaska Native entities as provided in the 
        Constitution of the United States, treaties, and Federal 
        statutes. Presidents for decades have recognized this 
        relationship''. My Administration is committed to continuing to 
        work with federally recognized tribal governments on a 
        government-to-government basis and strongly supports and 
        respects tribal sovereignty and self-determination for tribal 
        governments in the United States.
The House Committee on Resources also has a strong tradition of respect 
for tribal self-government and government-to-government consultation.
    Chairman Pombo released the first discussion draft bill on off-
reservation gaming in March and since then the Committee has held four 
hearings to give tribal governments, state officials and members of the 
public an opportunity to present views. On October 31, Chairman Pombo 
released a second draft bill.
    We thank you, Chairman Pombo, Congressman Rahall, and the 
Committee, for working with tribal governments in a manner that 
respects the principle of government-to-government consultation.
NIGA/NCAI Tribal Leaders Task Force on Indian Gaming
    The National Indian Gaming Association and our sister organization, 
the National Congress of American Indians (``NCAI''), conducted several 
meetings around the country with tribal leaders to review the 
discussion draft: March 27 in Washington, D.C.; April 13 in San Diego, 
California; May 25 in Minneapolis, Minnesota; June 16 in Green Bay, 
Wisconsin; and October 30 in Tulsa, Oklahoma.
    Our meetings included mostly tribal governments that use Indian 
gaming on their reservation lands, tribal governments that have used 
the Section 20 process to engage in gaming on after acquired lands, a 
few tribal governments that now seek to use the Section 20 process, and 
tribal governments opposing Section 20 applications by neighboring 
tribes. While tribal governments were not unanimous in their views, 95% 
or more of the tribal governments that participated in our meetings 
opposed amendments to the Indian Gaming Regulatory Act concerning off-
reservation gaming.
    Accordingly, NIGA and NCAI worked on a joint set of principles 
regarding this issue. First, in regard to newly recognized or landless 
tribes, there is no existing reservation, so reacquired lands are by 
definition ``on reservation.''
    Only 3 Indian tribes have used the Section 20 two part secretarial 
consultation process for Indian gaming on lands acquired after 1988: 
Forest County Potawatomi in Milwaukee, Wisconsin; Kalispel Tribe near 
Spokane, Washington; and Keweenaw Bay Indian Community in Marquette, 
Michigan. Only 3 Indian tribes in 17 years. All three had a 
determination by the Secretary of the Interior that gaming was in the 
best interest of the tribe and not detrimental to the surrounding 
community and Governor's agreement. All three had local government 
support, and the Department of Interior staff explained that without 
local government support, an application under the two part process 
would not be approved by the Secretary.
    Only one Indian tribe in 17 years--the Seneca Nation of New York--
has been able to use land reacquired under a land claim settlement for 
gaming pursuant to Section 20. That is, in part, because the Secretary 
of the Interior requires that Congress approve any land claim 
settlement before an Indian tribe may use settlement lands for Indian 
gaming.
    Tribal governments generally do not believe that the actual record 
under Section 20 justifies amendments to the Indian Gaming Regulatory 
Act. Thus, the NIGA/NCAI Tribal Leaders Task Force on Indian Gaming 
opposed legislative amendments to Section 20.
    Tribal governments generally agree that in any Section 20 two-part 
process application for gaming on reacquired Indian lands:
    <bullet>  A tribal government should thoroughly consult with state 
and local officials;
    <bullet>  A tribal government should thoroughly consult with nearby 
Indian tribes; and
    <bullet>  The existing Section 20 process and the Tribal-State 
Compact process for Class III gaming provide important opportunities 
for consultation between tribal governments, Federal, state and local 
officials, and nearby Indian tribes about Indian Gaming.
The NIGA/NCAI Tribal Leaders Task force called upon the Secretary of 
the Interior to issue a new regulation under Section 20 that would 
clarify the existing process for reacquiring tribal lands for Indian 
gaming through negotiated rulemaking.

IGRA Section 20 and Chairman Pombo's Second Discussion Draft

A. Section 20: Existing Law
    Through Section 20, the Indian Gaming Regulatory Act establishes a 
general policy that Indian tribes should conduct Indian gaming on lands 
held on October 17, 1988. Congress provided several exceptions to this 
general rule to take account of the historical mistreatment of Indian 
tribes, including:
    <bullet>  The fact that too many lands were taken from Indian 
tribes, leaving some tribes landless or with no useful lands;
    <bullet>  The fact that many Indian lands were unlawfully taken 
from Indian tribes in violation of Federal law; and
    <bullet>  The fact that after it was no longer militarily necessary 
to treat with some Indian tribes, the United States neglected and 
ignored those tribes.
Accordingly, Section 20 provides exceptions to the general rule for 
several reasons, including:
    <bullet>  Land Claim Settlement: Land is taken into trust as a 
result of a land claim settlement;
    <bullet>  Initial Reservation: Land is acquired in trust status as 
the initial reservation of an Indian tribe acknowledged by the 
Secretary of the Interior under the Federal Acknowledgment process; or
    <bullet>  Restored Lands: Land is restored to an Indian tribe in 
trust status when the Tribe is restored to Federal recognition;
    <bullet>  Landless Tribes: Land is put into trust for federally 
recognized tribes that did not have reservation land on the date IGRA 
was enacted; or
    <bullet>  Two-Part Secretarial Process: More generally, Section 20 
provides for a two-part secretarial consultation process, whereby an 
Indian tribe may generally apply to the Secretary of the Interior for 
land to be taken into trust status for gaming purposes. Under the two-
part process, upon application by the Indian tribe the Secretary of the 
Interior consults with state and local officials and nearby Indian 
tribes to determine whether an acquisition of land in trust for gaming 
would be in the tribe's ``best interest'' and ``not detrimental to the 
surrounding community.''
25 U.S.C. sec. 2719(b)(1).

B. Pombo Second Discussion Draft
    The Second Discussion Draft would amend Section 20(b)(1) 
significantly. First, the second draft would strike the existing 
Section 20 Two-Part Secretarial Consultation Process and nullify 
pending applications under Section 20(b)(1)(A). Several tribes have 
invested millions of dollars to perform environmental assessments to 
apply to have land taken in trust under this provision. Some of them 
have the support of both the Governor and the local government where 
the land acquisition is proposed. Where the State, local governments, 
and nearby Indian tribes support an application under the Section 20 
Two-Part Secretarial Consultation Process, we do not believe that 
Congress should prohibit the trust land reacquisition. In sum, we do 
not believe that the actual record of Section 20's implementation 
justifies eliminating the Two-Part Secretarial Consultation Process.
    Second, the new discussion draft would eliminate the land claim 
settlement provision. Only one Indian tribe has successfully utilized 
this process to date, and the proposal to eliminate this provision is 
tantamount to a 5th Amendment taking of vested property rights and the 
frustration of justifiable expectations.
    Third, the second draft would require ``newly recognized, restored, 
or landless tribes'' to apply to have land taken in trust through a 
Five-Part Secretarial Consultation Process:
    <bullet>  Newly Recognized, Restored, and Landless Tribes would 
apply to the Secretary of the Interior to have land taken in trust for 
gaming;
    <bullet>  Secretarial Determination: The Secretary would consult 
with state, local officials, and nearby Indian tribes to determine that 
the reacquisition of land was in the best interest of the applicant 
tribe and not detrimental to the surrounding community;
    <bullet>  Governor concurs in the Secretary's Determination;
    <bullet>  State Legislature concurs;
    <bullet>  Nearby Indian tribes concur; and
    <bullet>  County Government concurs.
Subjecting ``newly recognized, restored, or landless tribes'' to this 
new and cumbersome process discounts the fact that the United States 
mistreated these tribes by ignoring and neglecting them, taking all of 
their lands or allowing their lands to be stolen by others. These 
Indian tribes had aboriginal and historical lands. We believe that 
Congress should restore these tribes to a portion of their aboriginal 
or historical lands and that these lands should be held on the same 
basis as other Indian lands.
    It is not necessary to add the State Legislature to Gubernatorial 
concurrence authority. The question of state law authority and 
decision-making is reserved to the States under the 10th Amendment. In 
addition, subjecting Indian lands to a veto by local governments is a 
bad precedent for Indian tribes. We believe that local governments are 
subdivisions of the state--not separate sovereigns. State governments 
have the power and authority to protect the interests of local 
governments.
    The second draft also provides for the cooperative use of existing 
reservation lands, whereby an Indian tribe may invite another Indian 
tribe to conduct gaming on its reservation lands. We support this 
provision, yet we believe that this could be enacted on a more specific 
basis without amending IGRA.
    The new draft again would prohibit Indian tribes from crossing 
state lines to engage in gaming. The reason why a few tribes are 
seeking to cross state lines has to do with the 19th Century Removal 
Policy, which was a historical wrong by the United States against 
Americans Indians. When an Indian tribe seeks to return to aboriginal 
lands, due consideration should be given to historical facts. Not all 
states reject a return by Indian tribes to ancestral lands. There are 
ways to promote respect for the interests of states and nearby tribes 
other than a prohibition. Colorado Governor Bill Owens, for example, 
told the Cheyenne-Arapaho Tribes that Colorado voters could approve 
their return from Oklahoma to Colorado.
Alternative to Legislation: A New Regulation Under Section 20
    Under Section 20 there are more proposals than actual gaming 
facilities. Only 3 new gaming facilities have gone forward under the 
Section 20 Two-Part Secretarial Consultation Process. Each facility had 
the support of the local government. A new regulation under Section 20 
could clarify the rights of states, local governments, and nearby 
Indian tribes to consult with the Secretary before her decision on the 
potential impacts of a new gaming facility in the surrounding 
community. The Secretary now gives great weight to local government 
comments thereby protecting local interests. The Secretary should give 
the same weight to interests of nearby Indian tribes. Through the 
Governor, states have a right to agree or disagree--which is sufficient 
to protect state rights.
    Concerning land claim settlement lands, a new regulation could 
simply spell out the fact that congressional ratification of a land 
claim settlement is necessary before such lands can be used for gaming. 
State, local governments, nearby Indian tribes and the public have an 
opportunity to fully participate in the legislative process for 
ratification. That should protect everyone's interest in ensuring a 
fair settlement process.
    With regards to ``newly recognized, restored, and landless 
tribes,'' we agree that these tribes should seek to reacquire lands in 
their aboriginal or historic land areas to avoid any infringement on 
the aboriginal land rights of nearby Indian tribes. The Secretary now 
requires ``significant historical, cultural, and geographic ties'' to 
the land sought for tribal reacquisition. We believe that the Secretary 
of the Interior has authority to require an aboriginal or historical 
connection to the lands and that issue should be dealt with in a new 
regulation under Section 20.
    We understand that the Department of the Interior is currently in 
the process of developing a new regulation under Section 20 that will 
clarify these issues.

Conclusion
    Chairman Pombo, Congressman Rahall, and Members of the Committee, 
we thank you for undertaking a process that is respectful of 
government-to-government relations. The underlying principle of 
government-to-government relations, similar to protection of states 
rights under the 10th Amendment, is idea that the least intrusive means 
to achieve a Federal goal is generally the best avenue to pursue. In 
this case, the least intrusive means of protecting the rights of state, 
local governments, and nearby Indian tribes is through a new regulation 
under Section 20 that will clarify the right to consult with the 
Secretary and the State's right to concur or not concur in the 
Secretary's determination. Accordingly, we respectfully request that 
the Committee give the Department of the Interior time to develop and 
promulgate its new regulation before amending Section 20 of the Indian 
Gaming Regulatory Act.
                                 ______
                                 
                              ATTACHMENTS

Chairman Pombo's Revised Proposed Amendments to 25 U.S.C. 2719 (Gaming 
               on Lands Acquired After October 17, 1988)

    (a) Prohibition on lands acquired in trust by Secretary--Except as 
provided in subsection (b) of this section, gaming regulated by this 
chapter shall not be conducted on lands acquired by the Secretary in 
trust for the benefit of an Indian tribe after October 17, 1988, 
unless----
        (1)  such lands are located within or contiguous to the 
        boundaries of the reservation of the Indian tribe on October 
        17, 1988; or
        (2)  the Indian tribe has no reservation on October 17, 1988, 
        and----
               (A)  such lands are located in Oklahoma and----
                  (i)  are within the boundaries of the Indian tribe's 
            former reservation, as defined by the Secretary, or
                  (ii)  are contiguous to other land held in trust or 
            restricted status by the United States for the Indian tribe 
            in Oklahoma; or
               (B)  such lands are located in a State other than 
            Oklahoma and are within the Indian tribe's last recognized 
            reservation within the State or States within which such 
            Indian tribe is presently located.
    (b)  Exceptions----
        (1)  Subsection (a) of this section will not apply when to any 
        Indian tribe that is newly recognized, restored, or landless as 
        of the date of enactment of this [bill] including those newly 
        recognized under the Federal Acknowledgment Process at the 
        Bureau of Indian Affairs, if--
               (A)  the Secretary , after consultation with the Indian 
            tribe and appropriate State, and local officials, including 
            officials of other nearby Indian tribes, determines that a 
            gaming establishment on newly acquired lands would be in 
            the best interest of the Indian tribe and its members, and 
            would not be detrimental to the surrounding community, but 
            only if the Governor of the State in which the gaming 
            activity is to be conducted concurs in the Secretary's 
            determination; or  determines that the lands, acquired in 
            trust for the benefit of the Indian tribe for the purposes 
            of gaming, are lands within the State of such tribe, and 
            are where the Indian tribe has its primary geographic, 
            social, and historical nexus to the land;
               (B)  lands are taken into trust as part of- The 
            Secretary determines that the proposed gaming activity is 
            in the best interest of the Indian tribe and its tribal 
            members, and would not be detrimental to the surrounding 
            community and nearby Indian tribes;
                  (i)  a settlement of a land claim,
                  (ii)  the initial reservation of an Indian tribe 
            acknowledged by the Secretary under the Federal 
            acknowledgment process, or
                  (iii)  the restoration of lands for an Indian tribe 
            that is restored to Federal recognition.
               (C)  the Governor and the State legislature of the State 
            in which the gaming activities will be conducted concur;
               (D)  the nearby Indian tribes concur; and
               (E)  the county or parish with authority over land that 
            is contiguous to the lands acquired in trust for the 
            benefit of theIndian tribe for the purposes of gaming 
            approve by a majority vote in a county or parish 
            referendum.
        (2)  Subsection (a) of this section shall not apply to----
               (A)  any lands involved in the trust petition of the St. 
            Croix Chippewa Indians of Wisconsin that is the subject of 
            the action filed in the United States District Court for 
            the District of Columbia entitled St. Croix Chippewa 
            Indians of Wisconsin v. United States, Civ. No. 86-2278, or
               (B)  the interests of the Miccosukee Tribe of Indians of 
            Florida in approximately 25 contiguous acres of land, more 
            or less, in Dade County, Florida, located within one mile 
            of the intersection of State Road Numbered 27 (also known 
            as Krome Avenue) and the Tamiami Trail.
        (3)  Upon request of the governing body of the Miccosukee Tribe 
        of Indians of Florida, the Secretary shall, notwithstanding any 
        other provision of law, accept the transfer by such Tribe to 
        the Secretary of the interests of such Tribe in the lands 
        described in paragraph (2)(B) and the Secretary shall declare 
        that such interests are held in trust by the Secretary for the 
        benefit of such Tribe and that such interests are part of the 
        reservation of such Tribe under sections 465 and 467 of this 
        title, subject to any encumbrances and rights that are held at 
        the time of such transfer by any person or entity other than 
        such Tribe. The Secretary shall publish in the Federal Register 
        the legal description of any lands that are declared held in 
        trust by the Secretary under this paragraph.
    (c) Authority of Secretary not affected--Nothing in this section 
shall affect or diminish the authority and responsibility of the 
Secretary to take land into trust.
    (d) Application of Internal Revenue Code of 1986
        (1)  The provisions of the Internal Revenue Code of 1986 
        (including sections 1441, 3402(q), 6041, and 6050 I, and 
        chapter 35 of such Code) concerning the reporting and 
        withholding of taxes with respect to the winnings from gaming 
        or wagering operations shall apply to Indian gaming operations 
        conducted pursuant to this chapter, or under a Tribal-State 
        compact entered into under section 2710(d)(3) of this title 
        that is in effect, in the same manner as such provisions apply 
        to State gaming and wagering operations.
        (2)  The provisions of this subsection shall apply 
        notwithstanding any other provision of law enacted before, on, 
        or after October 17, 1988, unless such other provision of law 
        specifically cites this subsection.
    (e) (1) In order to consolidate class II gaming and class III 
gaming development, an Indian tribe may invite one or more other Indian 
tribes to participate in or benefit from gaming conducted under this 
Act upon any portion of Indian land that was, as of October 18, 1988, 
located within the boundaries of the reservation of the inviting Indian 
tribe, so long as each invited Indian tribe has no ownership interest 
in any other gaming facility on any other Indian lands and has its 
primary geographic, social, and historical nexus to land within the 
State in which the Indian land of the inviting Indian tribe is located.
        (2)  Notwithstanding any other provision of law, an Indian 
        tribe invited to conduct class II gaming or class III gaming 
        under paragraph (1) may do so under authority of a lease with 
        the inviting Indian tribe, which lease shall be lawful without 
        the review or approval of the Secretary and which lease shall 
        be deemed by the Secretary to be sufficient evidence of the 
        existence of Indian land of the invited Indian tribe for the 
        purposes of secretarial approval of the Tribal-State compact 
        under this Act.
        (3)  Notwithstanding any other provision of law, the Indian 
        tribes identified in paragraph (1) may establish this terms and 
        conditions of their lease and other agreements between them in 
        their sole discretion, provided that in no case may the total 
        payments to the inviting Indian tribe under the lease and other 
        agreements exceed 40 percent of the net revenues (defined for 
        such purposes as the revenue available to the 2 Indian tribes 
        after deduction of costs of operating and financing the gaming 
        facility developed on the leased land and of fees due to be 
        paid under the Tribal-State compact) of the gaming activity 
        conducted by the invited Indian tribe.
        (4)  An invited Indian tribe under this subsection shall be 
        deemed by the Secretary and the Commission to have the sole 
        proprietary interest and responsibility for the conduct of any 
        gaming on lands leased from an inviting Indian tribe.
        (5)  Conduct of gaming by an invited Indian tribe on lands 
        leased from an inviting Indian tribe under this subsection 
        shall be deemed by the Secretary and the Commission to 
        conducted under the Act upon Indian lands--
               (A)  of the invited Indian tribe;
               (B)  within the jurisdiction of the invited Indian 
            tribe; and
               (C)  over which the invited Indian tribe has and 
            exercises governmental power.
    (f) Notwithstanding any other provision of this Act, an Indian 
tribe shall not conduct gaming regulated by this Act on Indian lands 
outside of a State in which the Indian tribe has a reservation on the 
date of the enactment of this subsection, unless such Indian lands are 
contiguous to such a reservation of that Indian tribe in the State.

Sec. 2 Statutory Construction

The amendment made by paragraph (1) of section 1 shall be applied 
prospectively. Compacts or other agreements that govern gaming 
regulated by this Act on Indian lands that were in effect on the date 
of the enactment of this Act shall not be affected by the amendments 
made by paragraph (1) of section 1 of this Act.
                                 ______
                                 

                        NIGA/NCAI Tribal Leader

                      Task Force on Indian Gaming

                        RESOLUTION # GBW-005-009
             by the national congress of american indians 
                   concerning off-reservation gaming

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, the United States has a government-to-government 
relationship with Indian Tribes which is carried out by the Department 
of Interior pursuant to its policy of government-to-government 
consultation on regulations and rules impacting Indian Tribes; and
    WHEREAS, the Bureau of Indian Affairs (BIA) has established an 
internal guideline titled ``Checklist For Gaming Acquisitions Gaming-
Related Acquisitions And IGRA Section 20 Determinations for 
implementation of the Indian Gaming Regulatory Act (IGRA) Section 20'', 
which was amended on March 7, 2005, without consulting Tribal 
Governments in violation of the government-to-government policy of the 
United States; and
    WHEREAS, IGRA was enacted to promote tribal economic development, 
self- sufficiency and strong tribal governments, and reflects a 
delicate balance of Tribal, Federal, and State Sovereign interests; and
    WHEREAS, Indian gaming is the Native American success story and 
through Indian gaming, Indian tribes have created more than 550,000 
jobs, fund essential government services including education, health 
care, police and fire services, water, sewer, and sanitation services, 
transportation, child care and elderly nutrition, and museums and 
cultural centers; and
    WHEREAS, Section 20 of the IGRA (25 U.S.C. Sec. 2719) establishes a 
general rule that Indian gaming shall be conducted only on Indian lands 
held prior to 1988, with exceptions for contiguous lands, landless 
Indian tribes, newly recognized Indian tribes, restored tribes, land 
claims settlements, and the Section 20 two-part determination for off-
reservation land; and
    WHEREAS, under the Section 20 two-part determination, the Secretary 
of the Interior must consult with state and local officials and nearby 
Indian tribes to determine that any proposed off-reservation gaming is 
in the best interests of the applicant tribe and not detrimental to the 
surrounding community which includes nearby Indian Tribes; then the 
Governor must concur in the Secretary's determination before the 
applicant tribe may conduct gaming on the off-reservation land;
    WHEREAS, through IGRA, Congress provided State and local 
governments a voice in Indian gaming policy through the Section 20 two-
part determination process and through the Tribal-State Compact 
process;
    WHEREAS, the reality of off-reservation gaming is far different 
than the media misrepresentations and in fact since the enactment of 
IGRA in 1988 only three Indian Tribes have ever successfully navigated 
the Section 20 two-part process: all three Tribes had the support of 
the local government and the concurrence of the Governor; and
    WHEREAS, Tribal Governments acknowledge the responsibility to speak 
on their own behalf regarding gaming locations under the Section 20 
two-part process, to promote positive media coverage and reduce public 
misunderstanding of the land into trust process; and
    WHEREAS, Tribal Governments have a long history of respect for and 
consultation with neighboring Tribes and local governments, which is 
reflected within the Section 20 two-part process; and
    WHEREAS, there have been recent efforts to bypass the Section 20 
two-part process through appropriation riders without the benefit of 
hearings and tribal input.
    NOW THEREFORE BE IT RESOLVED, the NCAI strongly opposes amending 
the Indian Gaming Regulatory Act.
    BE IT FURTHER RESOLVED, the NCAI opposes legislation that would 
diminish the sovereign rights of Tribal Governments and opposes any 
effort to subordinate Tribal Governments to local governments.
    BE IT FURTHER RESOLVED, the NCAI does hereby call upon tribal 
governments proposing off-reservation gaming locations to promote 
positive relationships with State and local governments and minimize 
impacts on the aboriginal rights of nearby Tribes; NCAI also supports 
the development of a joint subcommittee of the NIGA/NCAI Task Force on 
Gaming that will encourage cooperation and support for this policy 
similar to the Tribal Supreme Court Project.
    BE IT FURTHER RESOLVED, that the NCAI calls upon state and tribal 
governments to work together to ensure that local government concerns 
are addressed through the existing Tribal-State Compact process and the 
Section 20 two-part determination process.
    BE IT FURTHER RESOLVED, that the NCAI does hereby call upon 
Congress to adhere to the significant process set forth in IGRA's 
Section 20 and to refrain from appropriations riders that bypass 
Section 20 or otherwise amend IGRA.
    BE IT FURTHER RESOLVED, that the NCAI requests that the Department 
of Interior engage in a negotiated rulemaking process with Tribal 
Governments to adopt formal regulations governing the implementation of 
the Section 20 two-part determination process that respects the 
interests of tribal governments, including nearby Indian tribes, and 
state and local governments.
    BE IT FURTHER RESOLVED, that the NCAI supports the initial intent 
of IGRA to support the development of tribal economies.
    BE IT FINALLY RESOLVED, that the NCAI requests that Congress pass 
legislation that will encourage other forms of economic development in 
Indian country such as energy development incentives and equitable tax 
exempt bond authority.
                                 ______
                                 
    The Chairman. Thank you. At this time I am going to 
recognize Mr. Walden to introduce our next witness.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I am honored to introduce Mr. Ron Suppah from the 
Confederated Tribes of the Warm Springs. He is a gentleman I 
have worked with on numerous issues since coming to the 
Congress, and I am delighted that he has made the trip here, 
and I think you will find his testimony informative and 
enlightening.
    Ron, we want to welcome you, and your other tribal members 
here today.
    Thank you, Mr. Chairman.

               STATEMENT OF CHAIRMAN RON SUPPAH, 
          CONFEDERATED TRIBES OF WARM SPRINGS, OREGON

    Mr. Suppah. Good morning, Mr. Chairman, Members of the 
Committee.
    My name is Ron Suppah. I am Chairman of the Confederated 
Tribes of Warm Springs Reservation of Oregon, and I want to 
thank you for inviting me to testify today.
    Mr. Chairman, Warm Springs has been diligently pursuing a 
casino in our aboriginal and treaty reserved area near our 
reservation for the past seven years. While we are nearing the 
final stages of that long and difficult process, the second 
discussion draft, if enacted, would almost certainly kill our 
project.
    Consequently, we ask that when off-reservation gaming 
legislation is formally introduced it include a grandfather 
clause that would allow Warm Springs and any other tribes in 
similar circumstances to complete the process under the current 
rules.
    I would also like to submit for the record at this time the 
testimony of Hood River County, Oregon, also supporting the 
grandfather provisions.
    Warm Springs Reservation is in rural and remote area of 
north-central Oregon. Our tribal income which historically is 
based on timber has been declining steadily. We have a small 
casino, but its income is too modest to cover the growing gap 
in our budget, and we are now drawing on our emergency 
reserves. This is unsustainable, and to address this 
increasingly difficult financial circumstance we have been 
pursuing an off-reservation casino in the Columbia River Gorge 
since the mid-1990s.
    From time immemorial, Warm Springs people have lived and 
fished along the Columbia River. While our 1955 treaty with the 
U.S. located our reservation about 38 miles to the south, it 
preserved our fishing rights on the Columbia, and we continue 
to maintain very close ties to the river. In fact, we have 
trust allotments along the Columbia, including a pre-1988 
gaming eligible allotment just outside the City of Hood River, 
Oregon.
    We propose building a casino on that Hood River trust land, 
but the City of Hood River objected. Then in 1998, the nearby 
community of Cascade Locks 17 miles west asked if we would 
consider siting our project on their under-utilized industrial 
park. Although that land is not in trust, Cascade Locks offered 
a positive solution for all parties, and we approached Oregon's 
Governor.
    The ensuing years-long discussions culminated last April 6, 
2005, when Governor Kulongoski and I signed our compact, at the 
same time we also signed a participating agreement with Cascade 
Locks and Hood River County that addresses impacts on the local 
community.
    On April 8, 2005, we submitted our land-into-trust 
application for the Cascade Locks industrial park site. Also, 
on April 8, we submitted our compact to the Secretary of the 
Interior for the 45-day review provided under IGRA.
    Interior has previously approved several compacts before 
the land was in trust, but four days before our 45-day review 
ended Interior announced to us with no forewarning that they 
were changing their policy and would require the Cascade Locks' 
lands to be in trust before they would consider our compact.
    This eleventh hour change was a disappointment to us, but 
we are proceeding with our efforts to have the land taken into 
trust. On June 15th of this year, the BIA initiated the IGRA 
Section 20 secretarial two-part determination process.
    Additionally, pursuant to our April 8th land-into-trust 
application, the BIA has started a full NEPA environmental 
impact statement for the Cascade Locks' and. The public scoping 
period ended on October 15th, and the BIA and its contractor 
for whom we are paying are now moving into the draft EIS stage.
    So Mr. Chairman, you can see we are well along in the 
established off-reservation gaming process. We have worked 
diligently to make it a model process, and the Cascade Locks 
project has been endorsed by 32 state and local elected 
officials, including Representative Walden, who represents 
Cascade Locks and Water Springs.
    We have spent more than $10 million of our own funds. We 
have no financial backers, and expect to spend another $10 
million before construction.
    Our project is in our state, and it is within our exclusive 
aboriginal territory as recognized by the U.S. Indian Claims 
Commission.
    The government has signed our compact and Cascade Locks and 
Hood River County have also fully endorsed the project, and it 
is economically important to all of us. EIS has been started 
and Interior has already changed the rules on us once.
    Unfortunately, the second discussion draft would do that 
again by ending as of the date of enactment all off-reservation 
efforts by established tribes like Warm Springs who do not have 
a compact in effect.
    Given the long existing process, especially with NEPA, it 
is unlikely we could get secretarial approval before the 
legislation is enacted. It would pit us in a race against 
random events.
    Instead, we ask that when legislation is developed and 
introduced, it will allow the Warm Springs Tribe to complete 
the process under the existing rules. We believe that is the 
fair and honorable thing to do.
    Thank you.
    [The prepared statement of Mr. Suppah follows:]

    Statement of Ron Suppah, Chairman, Warm Springs Tribal Council, 
     Confederated Tribes of the Warm Springs Reservation of Oregon

    Good morning, Chairman Pombo and members of the Committee. My name 
is Ron Suppah and I am Chairman of the Tribal Council of the 
Confederated Tribes of the Warm Springs Reservation of Oregon (``Warm 
Springs'' or ``Warm Springs Tribe''). I am appearing today to express 
our Tribe's very serious concerns with the second discussion draft of 
legislation regarding off-reservation Indian gaming. As explained in 
further detail in our testimony, Warm Springs believes that the second 
discussion draft, if enacted into law, would unfairly terminate our 
Tribe's very costly and years-long effort to pursue vitally necessary 
financial self-sufficiency through a gaming facility on our aboriginal, 
Treaty-reserved lands in a small, rural community that shares our hope 
for future economic security.

INTRODUCTION
    The Warm Springs Tribe is now engaged in the process of seeking 
federal approval of a tribal gaming facility at a location within our 
Treaty ceded lands 38 miles from our Reservation and 17 miles from a 
parcel of Warm Springs trust land that is eligible for gaming. Our 
actions are based on unique circumstances, and we are well along in the 
process. In our efforts, all the parties have been diligent, open and 
fair, and have scrupulously abided by all established laws and 
guidelines. Although we do not know whether we will succeed in this 
effort, we believe we have been following a model process for pursuing 
gaming on after-acquired land and ask that, as the Resources Committee 
considers the second discussion draft, you make appropriate changes to 
the draft to allow us to complete the process as it is currently 
written.
    The process we are following is set out in Section 20(b)(1)(A) of 
the Indian Gaming Regulatory Act (IGRA). It is a demanding process 
successfully used only three times in the past 17 years. To establish 
gaming facilities on lands taken into trust after IGRA's enactment, 
Section 20(b)(1)(A) requires the state governor's concurrence in the 
Secretary of Interior's ``two part determination'' that the proposed 
tribal gaming operation would be in the best interest of the tribe and 
its members and would not be detrimental to the surrounding community.
    The second discussion draft would almost certainly deny our Tribe 
the opportunity to establish a gaming facility on new trust lands 
because it is very unlikely Warm Springs will be able to have our 
Compact ``in effect'' by the draft's date of enactment, nor will our 
Tribe, which has had a government-to-government relationship with the 
United States since our Treaty of June 25, 1855, qualify within the 
limited exception for ``newly recognized, restored, or landless'' 
tribes on that date.
    Not only does the second discussion draft eliminate this Sec. 
20(b)(1)(A) process, it makes no effort to allow a tribe like ours, 
which has spent millions of dollars of the tribe's own money and spent 
years diligently pursuing the Sec. 20(b)(1)(A) process, to complete the 
process. Instead, as we near the end of the process and move close to 
the Secretary's ``two-part determination'' and the Governor's 
concurrence, the second discussion draft would change the rules at the 
eleventh hour by almost certainly terminating our Tribe's efforts upon 
the date of the draft's enactment.
    Before examining the second discussion draft in more detail, I 
would like to provide some background on the dire financial 
circumstances that have led us to pursue this project, how we gained 
the support of Oregon's Governor and the local community for the 
project, and the costly and time-consuming efforts we have been making 
to pursue the project to this late stage in the existing IGRA process.

DECLINING TRIBAL ECONOMY
Warm Springs Background
    The Warm Springs Indian Reservation is a beautiful but remote 
expanse of 650,000 acres in north Central Oregon. The Warm Springs 
Reservation is almost entirely trust land and, as the only reservation 
in Oregon excluded from Public Law 280, 67 Stat. 588 (1953), the Tribe 
is the governmental entity primarily responsible for public safety and 
other essential governmental services on the reservation. For many 
years, the Warm Spring tribal government has relied on timber and 
hydroelectric revenues to support governmental services to our more 
than 4,400 enrolled members. But in recent years, these revenues have 
declined and have been insufficient to meet our governmental needs.

Declining Tribal Revenues
    The dramatic decline in our timber revenues illustrates the problem 
we are facing. In 1994, timber revenues contributed $23.8 million 
toward our total tribal revenues of $37.6 million. By 2002, timber 
revenue had plummeted to just $5.7 million, bringing total tribal 
revenues down to $25.3 million. Thus, over this recent eight-year 
period a 74% drop in tribal timber revenue resulted in a 33% decline in 
total tribal revenues.
    The long-term outlook for timber income continues to be pessimistic 
as our tribal forest resource adjusts to conservative sustained yield 
forest management practices and the national and global wood products 
markets continue to remain depressed. As a result, the decade-long 
decline in the Tribe's revenue picture is projected to only worsen in 
the years ahead. Tribal revenue projections show 2002 actual revenues 
of $25,594,000 declining steadily to 2011 forecasted revenues of just 
$19,404,000. The Tribe's cash flow forecasts show that, beginning next 
year in 2006, operational expenditures are likely to exceed revenues. 
This means the Tribe will be required to dip further into its Revenue 
Reserve (``Rainy Day'') Fund, just to try to provide minimum 
governmental services to the tribal members and reservation residents. 
Eventually, if this situation is not changed by significant new 
revenues, the reserve fund will be exhausted forcing the Tribe to make 
truly draconian cuts in services and employment. Indeed, such cuts are 
proposed for the 2006 tribal budget currently under review by the 
Tribal Council.

Consequences
    As tribal revenues decline over time, essential services and needs 
go unmet and additional needs accrue. In addition, while essential 
governmental needs go unmet, tribal enterprises are deprived of capital 
to grow their enterprises and provide on-reservation job and training 
opportunities. Because of the shrinking job base and high unemployment, 
a sizable portion of the reservation population depends entirely on 
federal and tribal social service programs, which have experienced 
budget cuts in each of the last ten years.
    As the Tribe's membership grows and its revenues decrease, needs 
continue to go unmet and increase in number and magnitude. This is an 
unsustainable cycle that the Tribe seeks to remedy with revenues from 
the Cascade Locks gaming facility. Increased tribal income is needed to 
provide services and infrastructure to help reverse this negative 
trend, especially in the areas of education, health care and economic 
opportunity programs.

CASCADE LOCKS GAMING PROJECT
Our Current Casino
    In an effort to address this growing financial crisis, in 1995 the 
Tribe opened a small Class III casino on the reservation as part of the 
Tribe's existing Kah-Nee-Ta Resort. However, the Kah-Nee-Ta casino is 
isolated from Oregon's major population centers, and its revenues have 
done little to span the growing gap between our Tribe's income and our 
governmental requirements. As a result, our tribal budgets have 
continued to decline and we have been forced to cut services as well as 
draw upon our limited emergency reserve funds.
    Under the terms of our Compact with Oregon's Governor, we are 
required to close the casino at Kah-Nee-Ta if we open a facility at 
Cascade Locks.

The Columbia River
    To address the Tribe's increasingly difficult financial 
circumstances, in the late 1990s we conducted a survey of potential 
alternative gaming sites, and in 1999 the tribal membership approved a 
referendum by a wide margin directing the Tribal Council to pursue 
development of a casino on our traditional lands along the Columbia 
River. We initially focused on a 40 acre parcel of pre-IGRA tribal 
trust land, which is eligible for gaming, on a wooded hillside 
overlooking the Columbia River just outside the City of Hood River, 
Oregon.
    Since time immemorial, the Columbia River has been the home of our 
people. Its salmon, eels and other foods have nourished untold 
generations, and when we agreed in our 1855 Treaty to move from our 
traditional homes along the Columbia River and its Oregon tributaries 
to our current reservation south of the Columbia, our forefathers were 
careful to reserve our rights to continue to fish on the river as well 
as hunt, graze and gather traditional foods throughout our Treaty ceded 
lands. Fishing on the Columbia River remains at the core of our 
culture, and many of our people continue to fish today for ceremonial, 
subsistence, and commercial purposes. Indeed, many of our tribal 
members live year-round on the Columbia's banks, and thousands of acres 
of individual Indian and tribal trust allotments are scattered along 
the Columbia.

Hood River and Cascade Locks
    As the Tribe moved forward with preparations to develop a casino on 
the Hood River trust land, the City of Hood River and others in the 
area expressed concerns about locating a casino there. At that time, 
1998 and 1999, the struggling community of Cascade Locks, Oregon, 
seventeen miles to the west, approached the Tribe about the possibility 
of locating a facility in the mostly vacant Cascade Locks Industrial 
Park, which was created in the 1970s along the banks of the Columbia 
River out of fill material from construction at nearby Bonneville Dam. 
The Cascade Locks site is within the Tribe's Treaty ceded lands along 
the Columbia River in which Warm Springs holds federally protected off-
reservation treaty reserved fishing, hunting and gathering rights. The 
Cascade Locks site is also within the area determined by the Indian 
Claims Commission in Confederated Tribes of the Warm Springs 
Reservation of Oregon v. United States (Docket No. 198) to be CTWS 
aboriginal lands exclusive of the claims of any other tribe or tribes.
    Shifting the Tribe's Columbia River casino development plans from 
the gaming-eligible Hood River site to the Cascade Locks Industrial 
Park site will be beneficial for both the Cascade Locks and Hood River 
communities as well as the State of Oregon. Cascade Locks, like our 
Tribe, desperately needs an economic boost. Developing a casino at the 
Cascade Locks Industrial Park preserves the pristine and undeveloped 
Hood River trust lands, thus alleviating Hood River's concerns about a 
casino in their community. Forgoing development of the Hood River trust 
lands also means the trust land's scenic values will be retained and 
the land, otherwise exempt from State and federal Columbia River Gorge 
National Scenic Area Act restrictions, will be managed consistent with 
an adjacent Oregon State Park.

The Compact and Other Agreements
    Informing the Oregon Governor's Office and the Department of the 
Interior of the Tribe's intention to develop a casino at the Cascade 
Locks site in lieu of the Hood River trust lands site, in 1999 the 
Tribe initiated what became years-long discussions with Cascade Locks 
and the State that resulted in a series of agreements signed earlier 
this year between Cascade Locks, the Tribe and the State. These 
agreements include a Class III gaming Compact with the State, a 
separate agreement with the State regarding preservation of the Hood 
River trust lands and a Memorandum of Agreement with the City of 
Cascade Locks and Hood River County addressing impacts of the casino on 
the local community. Our approach of entering into these agreements 
before taking the land into trust for gaming was intended to address 
any local concerns about developing a casino in the Cascade Locks 
Industrial Park and to secure the Governor's commitment to concur in 
the Secretary's two-part determination pursuant to Section 20(b)(1)(A) 
based on the Tribe's obligations regarding environmental protection, 
working conditions, the Community Benefit Fund and revenue sharing as 
set out in the Compact. This approach has led to near unanimous 
acceptance of the Cascade Locks site, as indicated by the thirty-two 
federal, State and locally elected officials who have endorsed and 
embraced the Cascade Locks site in an April 29, 2005 letter to Interior 
Secretary Norton.
    Regarding the Compact, in March of 2004, we entered into formal 
negotiations with the State that concluded over a year later when the 
Governor and the Tribe signed the Compact on April 6, 2005. The Compact 
is unusually comprehensive and fair, and is supported by the local 
counties, nearby cities and towns in Oregon and Washington, Congressman 
Greg Walden who represents Cascade Locks and Hood River, and State 
legislators from the area, in addition to the Governor, Cascade Locks, 
and our Tribe. The Compact provides the public in Oregon and Washington 
with an advanced notice of the environmental benefits to Cascade Locks 
and nearby Columbia River Gorge communities should the contingency of 
taking the Cascade Locks land into trust become a reality. 
Specifically, approximately 40 acres of tribal trust lands near Hood 
River would be perpetually protected against development; an additional 
175 acres of adjacent scenic Columbia River Gorge lands currently owned 
by our Tribe would be perpetually protected and conveyed to the Oregon 
State Parks Division; environmental protection, energy efficiency and 
sustainable building standards would define and control our casino/
resort development; and millions of dollars from a tribally established 
Community Benefit Fund would be used to protect and enhance the 
Columbia River Gorge National Scenic Area. The Compact also provides 
very significant benefits to the State as a whole through revenue-
sharing payments of up to seventeen percent of the casino's annual 
``net win'' to a Warm Springs Tribe/Oregon Benefit Fund to be used 
primarily for college scholarships as well as for protection of the 
Columbia River Gorge and for economic development projects throughout 
Oregon.

Compact Disapproved by Interior Policy Change
    On April 8, 2005, the Tribe and the Governor submitted the Compact 
to the Secretary of the Interior for the 45-day review provided under 
IGRA. As usual, the Secretary's review team asked for clarification 
regarding several sections of the Compact. When the Governor and Warm 
Springs submitted a response, we requested a meeting to go over the 
questions and responses. On the afternoon of May 17, four days before 
the end of the 45 day review period, we met with personnel from the 
Office of Indian Gaming Management, the Secretary's Office and the 
Solicitor's Office. In the meeting, we proceeded through our responses 
to the Department's questions, and while not all issues were resolved, 
there were no significant objections. Then, in the final ten minutes of 
the meeting, the Director of the Office of Indian Gaming Management 
informed us that the Secretary's Office had a fundamental concern about 
approving the Compact before the land was taken into trust, and was 
considering whether to disapprove the Compact on that basis.
    The Tribe and the Governor's Office filed written responses within 
two days noting that we had acted in good faith on Interior Department 
representations that doing the Compact first was acceptable, that the 
Compact specifies it becomes effective only when the subject land is 
taken into trust for gaming, and that IGRA does not require that the 
land be in trust at the time the Compact is approved. We also noted 
that the Secretary has, in the past, approved a number of compacts 
before the subject land has been taken into trust for gaming. 
Unfortunately, two days later, the Department disapproved our Compact 
due to the new procedural requirement, previously unknown and 
unpublished and representing a reversal of previous practice, 
interpreting IGRA Section 11(d)(8)(A) to require that land must be in 
trust for gaming before the Secretary will consider the related 
compact. The Secretary's letter noted it does not address any element 
of the Compact other than that regarding procedural sequence.

Land into Trust Request
    Coming at the 11th hour of our Compact's consideration, the 
Secretary's surprise policy announcement of course disappointed us. 
However, as a result of this decision, and as recommended in the 
Secretary's disapproval letter, we are proceeding forward with our 
application to take the land into trust under 25 C.F.R. Part 151 and 
IGRA Section 20(b)(1)(A). On April 8, 2005 the Tribe formally submitted 
Tribal Council Resolution No. 10,500 to the BIA's Northwest Regional 
Office and to the BIA Office of Indian Gaming Management in Washington, 
D.C. requesting the initiation of land-into-trust proceedings for the 
Cascade Locks casino site. The request seeks 25 acres in the Cascade 
Locks Industrial Park to be taken into trust for the proposed casino 
and accompanying hotel. Once that process is completed, we will 
resubmit the Compact for the Secretary's 45 day review.

IGRA Section 20 ``two-part determination''
    On June 15, 2005, the BIA Northwest Regional Office initiated the 
Secretarial ``two-part determination'' pursuant to IGRA Section 
20(b)(1)(A) by sending our Tribe a consultation letter requesting 
information and responses to thirteen specific questions. At the same 
time, BIA Northwest Regional Office solicited information and responses 
from appropriate State and local officials, nearby Indian tribes, and 
surrounding communities regarding the Cascade Locks project. On August 
15, 2005, as that comment period concluded, Warm Springs formally 
submitted our 45-page response, with hundreds of pages of supporting 
exhibits.

National Environmental Policy Act (NEPA)
    Having completed the Compact agreement with Oregon's Governor and 
having executed agreements with the local governments to accommodate 
impacts, and pursuant to our April 8, 2005 land-into-trust application, 
we have moved into the very costly NEPA environmental review process 
required by the BIA's decision on our fee-to-trust application. The 
process will generate a full environmental impact statement (EIS), and 
not just an environmental assessment. From September 15, 2005 to 
September 28, 2005, the BIA Northwest Regional Office hosted five 
public scoping meetings on the EIS, with meetings in Hood River, 
Cascade Locks, Portland, and Stevenson, Washington. The scoping comment 
period concluded October 15, 2005. We anticipate a draft EIS late this 
winter or spring, with a final EIS to follow. This process, which is 
the last major step leading up to the Secretary's ``two-part 
determination'' and the Governor's concurrence, requires the Tribe to 
pay for the BIA's environmental contractor hired to prepare the EIS on 
the project.

Funding
    We wish to emphasize that Warm Springs is paying for these efforts 
ourselves. Throughout the Tribe's nearly decade-long effort to address 
its worsening financial crisis through development of a casino on the 
Tribe's traditional lands along the Columbia River, the Tribe has 
utilized its own funds and resources. No management company or outside 
financial partner has been involved. To date, the Tribe has expended 
approximately $10.7 million in tribal funds pursing this project. To 
complete the fee-to-trust process, which would allow construction to 
begin, we expect to spend an additional $10.3 million on the EIS and 
other planning expenses.

SECOND DISCUSSION DRAFT
    As described above, our Tribe, the Oregon Governor, Cascade Locks 
and many surrounding communities and jurisdictions have invested great 
amounts of time, energy and scarce resources in fully complying with 
established processes thus far. Moreover, and perhaps unique among 
tribes, Warm Springs has followed this costly and time-consuming 
process relying solely on our own funds in an effort to produce a model 
partnership between the Tribe, State and local communities. As Congress 
this Session began to consider possible amendments to IGRA that might 
alter the Section 20 process we have been following, we have hoped that 
we would be permitted to see these processes through to the end, and 
that Congress will not deliver us a last minute fatal blow. However, 
the provisions of the second discussion draft virtually assure us 
precisely the last minute fatal blow we have feared.
    The second discussion draft completely terminates the Section 
20(b)(1)(A) process we have been following and relying upon for years. 
The statutory construction provisions in Section 2 of the draft appear 
to permit the continuation after the date of enactment of only those 
compacts that are ``in effect'' on that date. With no provision for 
continuation of any Section 20(b)(1)(A) process after that date, the 
draft places us in an impossible race to secure the Secretary's 
approval of our Compact, placing it into effect, before the draft's 
enactment. Interior has already changed the rules on us to preclude our 
Compact's consideration until the subject land is in trust. Given the 
potentially long time periods involving the EIS and completing the 
land-into-trust process, that is a race we would almost certainly lose. 
Such a change would be unfair and almost punitive. We ask that our 
treatment at the hands of Congress not be so harsh, and that 
legislation to revise Section 20 include a ``grandfather'' clause 
allowing projects such as ours, which is in our state, in our 
aboriginal and Treaty-reserved territory, and is based on a signed 
Compact with Oregon's Governor, to finish the process it started 
several years and many millions of dollars ago. If Congress is 
determined to end the Section 20(b)(1)(A) process, even though only 
three gaming operations have been authorized under this process is 17 
years, it should in all fairness allow a project such as our to finish 
the process under the existing rules.

CLOSING
    Mr. Chairman, in closing, we would like to appeal to your 
Committee's sense of history and fairness in dealing with Indian tribes 
such as ours. This year we celebrate the 150th anniversary of the 
Treaty that moved our ancestors from the land along the Columbia River 
to our current Warm Springs Reservation. Although the history of 
relationships between the United States government and Indian tribes 
has not always been smooth, the people of the Warm Springs Reservation 
have sought to work cooperatively with our Federal partners on the 
basis of mutual trust. Together, over time, we have learned how to 
solve our problems by establishing mutual agreements and playing by the 
rules. Now this Committee's consideration of revisions to IGRA's 
Section 20 provides a modern opportunity to reinforce those timeless 
values of reliability and fairness.
    Accordingly, we urge changes in the second discussion draft so that 
any legislation addressing the off-reservation gaming process take good 
faith efforts such as ours into account, and permit us to complete the 
existing process. Our experience with our Cascade Locks site is proof 
to us that parties working diligently together in good faith can 
successfully resolve differences within the existing land-into-trust 
framework.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you. Chairman Marquez.

                  STATEMENT OF DERON MARQUEZ, 
               SAN MANUEL BAND OF MISSION INDIANS

    Mr. Marquez. Chairman Pombo, Members of the Committee, I am 
honored to be invited to testify before this committee on the 
difficult issue of off-reservation land acquisition for gaming 
purposes.
    General Pombo, thank you for releasing the second 
discussion draft for comment prior to issuing formal 
legislation. I appreciate the respect you have shown the 
tribes.
    As I stated before this committee in July of 2004, certain 
of these land acquisitions to build new casinos threaten the 
long-term viability of tribal government gaming. The efforts of 
unscrupulous developers to match economically depressed non-
Indian communities with willing tribes to acquire lands far 
from willing tribes' existing lands--also called ``reservation 
shopping''--has caused a backlash against tribes by the general 
public.
    Often the lands sought for acquisition are within the 
ancestral homelands of other tribes, leading to enormous 
tensions between tribes.
    In California, there is a remarkable spin-off phenomenon to 
reservation shopping. The Governor's office now picks the 
developers and the tribes it wants to deal with and points them 
to willing towns for gaming deals. In these instances, 
reservation shopping has turned into ``tribal shopping''. This 
is occurring on San Manuel's ancestral lands, where Big Lagoon 
and Los Coyotes seek land in Barstow to establish a reservation 
and build a casino. Another tribe with ancestral ties to 
Barstow, the Chemehuevi, who San Manuel would not oppose, is 
not part of the Governor's deal.
    One difficult question is what Congress should do, if 
anything to address this issue. Unfortunately, Indian country 
is not of one mind. I, like other tribal leaders from across 
the country, would greatly prefer to avoid the inherent risks 
in the political process of amending the Indian Gaming 
Regulatory Act.
    It would be preferable to address this problem through 
administrative processes or inter-tribal protocols. But the 
Interior Department has interpreted IGRA's Section 20 two-part 
determination to not allow the Secretary to consider ancestral 
ties to land. Well-heeled developers persist in pouring 
millions of dollars into seeing these projects through, 
including the real and ongoing threat to San Manuel ancestral 
lands. These alternatives no longer appear to be a viable 
solution to a growing problem.
    In searching for a solution, San Manuel has worked with 
other tribes from across the country who share a common concern 
with the practice of reservation shopping. We have listened to 
the voices of other non-tribal entities who also are concerned 
with this practice. With advice from other tribes, San Manuel 
believes that the Federal legislation addressing reservation 
shopping should do four things:
    First, amend the two-part determination to require the 
Secretary to make an affirmative finding that a proposed off-
reservation acquisition would not have a detrimental impact on 
nearby tribes.
    Under the current law, the Secretary is required to consult 
with nearby tribes but not affirmatively determine that those 
nearby tribes would not be harmed by the proposed acquisition.
    Second, require that lands proposed for acquisition under 
the two-part determination be within the petitioning tribe's 
ancestral lands.
    The second discussion draft requires a newly recognized, 
restored, or landless tribe to have a ``primary geographic, 
social, and historical nexus to the land'' when determining 
gaming eligibility of those lands. San Manuel believes this is 
an adequate definition for determining ancestral land ties.
    Third, for gaming purposes, require state legislatures, not 
Governors alone, to concur with acquisitions under the two-part 
determination.
    This would be accomplished by replacing the term 
``Governor'' with the term ``state'' in the two-part 
determination.
    Finally, prohibit crossing state lines into areas where the 
tribe has no existing lands.
    Crossing state lines has been the source of much inter-
tribal tension and negative state government reaction and 
interaction.
    The second discussion draft reflects, in part, these 
principles. I have three general concerns about this draft, 
with recommendations for improving it before it is introduced 
as a formal bill.
    First, eliminating the two-part determination altogether 
would deprive tribes seeking to acquire lands near their 
existing reservations and within their ancestral territory the 
opportunity to legitimately improve their situations. There are 
instances in which tribes are seeking to accomplish this today. 
In my view, this is not reservation shopping.
    Therefore San Manuel recommends a ``mend it, don't end it'' 
approach to the two-part determination. Apply the new 
requirements in the second discussion draft for newly 
recognized, restored, and landless tribes to an amended two-
part determination.
    Second, the requirement of a local referendum would be a 
shift in Federal Indian law and policy, giving local 
communities unprecedented intrusion into the trust relationship 
between the United States and the tribes. We understand that 
not all counties have a referendum process. As I mentioned 
earlier, San Manuel supports state concurrence of a two-part 
determination acquisition, not simply gubernatorial approval.
    Third, the off-reservation economic development zone could 
have unintended consequences on the delicate balance reached in 
many trial-state gaming compacts. It may be that such a 
provision should address the tribe-specific situation rather 
than create a nationally applicable rule.
    Thank you for this opportunity to testify. If you have any 
questions, I will be pleased to answer them.
    [The prepared statement of Mr. Marquez follows:]

                 Statement of Deron Marquez, Chairman, 
                   San Manuel Band of Mission Indians

    Chairman Pombo, Ranking Member Rahall, members of the House 
Resources Committee, I am honored to be invited to testify before this 
Committee on the difficult issue of off-reservation land acquisitions 
for gaming purposes. Chairman Pombo, thank you for releasing this 
second discussion draft for comment prior to introducing formal 
legislation. I appreciate the respect you have shown the tribes.
    As I stated before this Committee in July of 2004, certain of these 
proposed land acquisitions to build new casinos threaten the long-term 
viability of tribal government gaming. The efforts of unscrupulous 
developers to match economically depressed non-Indian communities with 
willing tribes to acquire lands far from the willing tribes' existing 
lands--also called ``reservation shopping''--has caused a backlash 
against tribes by the general public. Often the lands sought for 
acquisition are within the ancestral homelands of other tribes, leading 
to enormous tensions between tribes.
    In California, there is a remarkable spin-off phenomenon to 
reservation shopping. The Governor's office now picks the developers 
and tribes it wants to deal with and points them to willing towns for 
gaming deals. In these instances, reservation shopping has turned into 
``tribe shopping.'' This is occurring on San Manuel's ancestral lands, 
where Big Lagoon and Los Coyotes seek land in Barstow to establish a 
reservation and build casinos. Another tribe with ancestral ties to 
Barstow, the Chemehuevi, who San Manuel would not oppose, is not a part 
of the Governor's deal.
    One difficult question is what Congress should do, if anything, to 
address this issue. Unfortunately, Indian country is not of one mind. 
I, like other tribal leaders from across the country, would greatly 
prefer to avoid the inherent risks in the political process of amending 
the Indian Gaming Regulatory Act. It would be preferable to address 
this problem through administrative processes or inter-tribal 
protocols. But the Interior Department has interpreted IGRA's Section 
20 two-part determination to not allow the Secretary to consider 
ancestral ties to land. Well-heeled developers persist in pouring 
millions of dollars into seeing these projects through, including the 
real and ongoing threat to San Manuel ancestral lands. These 
alternatives no longer appear to be viable solutions to a growing 
problem.
    In searching for solutions, San Manuel has worked with other tribes 
from across the country who share a common concern with the practice of 
reservation shopping. We have listened to the voices of other non-
tribal entities who also are concerned with this practice. With advice 
from other tribes, San Manuel believes that federal legislation 
addressing reservation shopping should do four things:

1. Amend the two-part determination to require the Secretary to make an 
        affirmative finding that a proposed off-reservation acquisition 
        would not have a detrimental impact on nearby tribes.
    Under the current law, the Secretary is required to consult with 
nearby tribes but not affirmatively determine that those nearby tribes 
would not be harmed by the proposed acquisition.

2. Require that lands proposed for acquisition under the two-part 
        determination be within the petitioning tribe's ancestral 
        lands.
    The second discussion draft requires a newly recognized, restored, 
or landless tribe to have a ``primary geographic, social, and 
historical nexus to the land'' when determining gaming eligibility of 
those lands. San Manuel believes this is an adequate definition for 
determining ancestral lands ties.

3. For gaming purposes, require state legislatures, not governors 
        alone, to concur with acquisitions under the two-part 
        determination.
    This could be accomplished by replacing the term ``Governor'' with 
``State'' in the two-part determination.

4. Finally, prohibit crossing state lines into areas where the tribe 
        has no existing lands.
    Crossing state lines has been the source of much inter-tribal 
tension and negative state government reaction and interaction.
    The second discussion draft reflects, in part, these principles. I 
have three general concerns about this draft, with recommendations for 
improving it before it is introduced as a formal bill.
    First, eliminating the two-part determination altogether would 
deprive tribes seeking to acquire lands near their existing 
reservations and within their ancestral territory the opportunity to 
legitimately improve their situations. There are instances in which 
tribes are seeking to accomplish this today. In my view, this is not 
reservation shopping. Therefore, San Manuel recommends a ``mend it, 
don't end it'' approach to the two-part determination. Apply the new 
requirements in the second discussion draft for newly recognized, 
restored, and landless tribes to an amended two-part determination.
    Second, the requirement of a local referendum would be a shift in 
federal Indian law and policy, giving local communities unprecedented 
intrusion into the trust relationship between the United States and the 
tribes. We understand that not all counties have referenda processes. 
As I mentioned earlier, San Manuel supports State concurrence of a two-
part determination acquisition, not simply gubernatorial approval.
    Third, the on-reservation economic development zone could have 
unintended consequences on the delicate balance reached in many tribal-
state gaming compacts. It may be that such a provision should address 
tribe-specific situations rather than create a nationally-applicable 
rule.
    Thank you for this opportunity. I would be pleased to answer any 
questions you have.
                                 ______
                                 
    The Chairman. Thank you. Chairperson Kennedy.

         STATEMENT OF CHAIRPERSON CHERYLE A. KENNEDY, 
                GRAND RONDE INDIAN TRIBE, OREGON

    Ms. Kennedy. Good morning, Distinguished Panel, Chairman 
Pombo, and other tribal leaders who are here in the room.
    My name is Cheryle Kennedy. I am the Chairwoman of the 
Confederated Tribes of Grand Ronde Community of Oregon. I will 
give a little background about our tribe.
    Our tribe is composed of 22 bands of tribes that had five 
treaties during the 1850 treaty area. Our land base, if I had a 
map here I could show you, in regards to the treaties included 
all of western Oregon. Through the various land deals that were 
made, the Confederated Tribes of Grand Ronde ended up with 
60,000 acres. We were a victim of the Termination Act in the 
1950s, and the land that we had was all taken.
    The Western Oregon Termination Act was signed in 1954. All 
that we retained after termination was our cemetery. Through 
the efforts of our cemetery and our continuing to meet and 
continue to build our government and to maintain it, we sought 
restoration.
    Through a 15-year time span, restoration was sought, and 
was finally acquired November 22, 1983. We began building our 
government and our cemetery.
    Now, our cultural belief is that you do not--you do not do 
anything inappropriate in your sacred land area. That was the 
only land that we had, and so we set up in our greenhouse 
garage in the cemetery a tribal office. I was one of the first 
employees who was hired at that time, and when I would look out 
my window, I see the graves of my ancestors, my father, my 
grandparents, and it was a very uncomfortable situation.
    We then moved forward with the Reservation Land Bill that 
was approved in 1988. So for the cessation of millions of acres 
of land, we then were approved by Congress to have a 9,800 acre 
reservation land base. That proved to be our timberland base. 
So from 1983 to today, we have had to undertake building an 
entire infrastructure, to provide services for our members.
    Our tribe is composed of about 5,200 members, and during 
the termination era, because there was no land, nowhere to 
live, our members scattered, but most recently about 75 percent 
of our members have returned to Oregon and the majority right 
around the Grand Ronde area.
    Our task was very difficult. We had no housing, no place 
for our members to return. Our Reservation Land Bill said that 
we wanted to establish a homeland for our people. We wanted to 
have an economic process for us, and that we also wanted to 
provide health and human services, education to our members.
    So that is the background for our tribe. So when gaming 
came into being, we certainly wanted to move forward and to 
establish our own gaming. With the policies within the State of 
Oregon, which was one tribe on reservation land for one casino, 
we moved forward and invested and went out on a huge limb to 
secure funds to start our gaming facility.
    So what I want to do now is to comment on the second 
discussion. We participated in several of the hearings that 
have been held. Grand Ronde agrees with the draft bill 
requirement that restored lands for gaming be lands where the 
tribe has its primary geography, social, and historical nexus 
to the land.
    We also agree that concurrence of nearby Indian tribes 
should be required before restored lands are acquired in trust 
for gaming purposes.
    The bill talks about consultation with state and local 
governments. We believe that state and local governments should 
be consulted on a government-to-government basis. On the issue 
of state concurrence, it should be left to each tribe. Each 
state to decide which elected body or bodies, if authorized, to 
concur with the Secretary's decision.
    Similarly, we do not think that there should be specific 
requirements for a county to hold referendums. Those are 
already a process in the BIA fee to trust process for 
communities to provide comments.
    Alternative legislation in many ways similar to the draft 
legislation, Grand Ronde supports, number one, tribes should 
not be crossing state lines; two, tribes should build casinos 
within their historic and ancestral lands; and three, should 
obtain the concurrence of other tribes that have historic and 
ancestral ties to those lands.
    I thank you for this opportunity to provide this testimony 
for you today, and for your willingness to listen.
    [The prepared statement of Ms. Kennedy follows:]

      Statement of Cheryle A. Kennedy, Tribal Council Chairwoman, 
       Confederated Tribes of the Grand Ronde Community of Oregon

    On behalf of the Confederated Tribes of the Grand Ronde Community 
of Oregon (``Grand Ronde'' or ``Tribe''), I respectfully submit the 
following comments on Chairman Richard Pombo's revised draft bill to 
restrict off-reservation gaming (``revised draft bill''). I also thank 
the distinguished members of the Committee on Resources for providing 
us the opportunity to submit testimony as part of this hearing on 
Chairman Pombo's proposed legislation. Please make these comments part 
of the official hearing record.
    Addressing off-reservation gaming is an extremely important issue 
to the Confederated Tribes of Grand Ronde and, I believe, all the 
people of the State of Oregon. In general, we have three main concerns: 
(1) an explosion of off-reservation casinos undermines the policy 
foundation of IGRA--self-sufficiency and economic opportunity--that has 
done so much good for all of Indian country, (2) an explosion of off-
reservation casinos threatens continued public support for existing 
Indian gaming in Oregon and across the nation, and (3) each approval of 
another off-reservation casino sets a bad precedent that will forever 
change the nature and character of both the Indian gaming industry and 
the surrounding communities in which we live.
    Mr. Chairman, these are not just my opinions or the opinions of 
Grand Ronde. Numerous public opinion polls taken in Oregon over the 
past year support my concerns about the impact of allowing more off-
reservation casinos.
    Over the last year, Grand Ronde has been an active participant in 
discussions on ways to deal with off-reservation gaming issues. Members 
of Grand Ronde Tribal Council and staff attended the Oversight Field 
Hearing on the original Discussion Draft regarding off-reservation 
gaming in Sacramento, California on June 6, 2005. The Tribe also spoke 
with Senator McCain during his visit to Oregon on October 24, 2005, and 
we attended a Senate Indian Affairs Committee oversight hearing on 
``Lands eligible for gaming pursuant to the Indian Gaming Regulatory 
Act'' July 27, 2005. In addition, we have met with members of the 
Oregon and Washington Congressional Delegations both in Oregon and in 
Washington, D.C. to discuss our concerns. Tribal staff has met with and 
discussed off-reservation gaming issues with staff of the Committee on 
Resources and Senate Indian Affairs Committee.
    Grand Ronde understands the concern over the growing number of 
tribes seeking to have lands taken into trust for gaming far from 
existing reservations, where they have no ancestral ties, or where 
other tribes have strong ancestral ties. We also believe strongly in 
the Indian Gaming Regulatory Act (IGRA) provisions which recognize the 
special circumstances of restored tribes and provide that lands 
restored to once terminated tribes should be available for gaming just 
as reservation land of non-terminated tribes is available for gaming. 
Therefore, Grand Ronde approaches cautiously the process of amending 
IGRA and opposes any IGRA amendment that would limit the Tribe's 
ability to obtain off-reservation restored or aboriginal lands for 
gaming purposes.

Grand Ronde History
    Grand Ronde is one of many tribes victimized by the federal 
Termination policy of the 1950s. In 1954, the federal government 
wrongly ended its recognition of the Tribe as a government destroying 
our tribal economy and Indian land base. After much struggle and 
sacrifice, the Tribe's federal recognition was restored on November 22, 
1983, and a small fraction of our pre-termination reservation land base 
(9,811 acres compared to our original reservation of over 60,000 acres) 
was returned to the Tribe in 1988. In 1994, the Department of the 
Interior approved a compact between the Tribe and the State of Oregon 
for a gaming facility on approximately 5.5 acres of restored Tribal 
land. This land is within the Tribe's original reservation boundary. 
The Tribe, through Spirit Mountain Gaming, Inc., a tribally chartered 
corporation wholly owned by the Tribe, operates Spirit Mountain Casino 
on this restored land. The casino provides much needed revenue for 
Tribal government programs and on-reservation employment opportunities 
for our Tribal members. Spirit Mountain Casino is the primary revenue 
source for Tribally funded government programs.

Historic Opposition to Off-Reservation Gaming
    Grand Ronde has invested millions of dollars in Spirit Mountain 
Casino and related facilities. We did so in reliance on the State of 
Oregon's long-standing Indian gaming policy that limited each tribe to 
one on-reservation casino. A policy that Grand Ronde has consistently 
supported. In 1996, the Tribal Council unanimously adopted a Resolution 
opposing ``the efforts of other tribes to have land taken into trust 
for gaming outside of their original reservation boundaries or 
nonadjacent to their current reservation.'' Unfortunately, Oregon's 
Governor has implemented a change in Oregon's policy against off-
reservation gaming by approving a compact with the Warm Springs Tribe 
for Oregon's first off-reservation casino on land that may be taken 
into trust in the Columbia River Gorge far from the Warm Springs 
approximately 640,000 acre reservation. The Cowlitz Tribe in 
Washington, through a partnership with the Mohegan Tribe, is attempting 
to develop a large casino on lands a little more than 15 miles north of 
Portland, Oregon, on lands which is outside the Cowlitz Tribe's 
historic lands. If either of these off-reservation casinos is built it 
will have serious detrimental effects on Grand Ronde's on-reservation 
casino with potentially devastating effects on our ability to provide 
critical governmental services and employment opportunities for our 
members.

Comments on Second Discussion Draft Legislation
    Grand Ronde's history and experience as a restored tribe provides a 
background against which it views IGRA and the revised draft bill. 
Grand Ronde agrees with the revised draft bill's requirement that 
restored lands for gaming be lands where the Indian tribe has its 
primary geographic, social and historical nexus to the land. This is 
consistent with the Tribe's historical opposition to off-reservation 
gaming. We also agree that concurrence of nearby Indian tribes should 
be required before restored lands are acquired in trust for gaming 
purposes.
    The revised draft bill, however, adds other requirements which are 
detrimental to restored tribes. It fails to recognize the disadvantages 
restored tribes have for gaming as such tribes are often restored with 
little or no land base. In comparison, non-terminated tribes, such as 
the Warm Springs Tribe, have an advantage because they generally have 
large land base reservations on which to establish gaming operations.
    Specifically, the revised draft bill requires (1) a Secretarial 
determination that the proposed gaming activity would not be 
detrimental to the surrounding community, (2) concurrence of both the 
Governor and State legislature, and (3) approval by a majority vote in 
a referendum by the county or parish with authority over the land that 
is contiguous to the lands acquired in trust for the purpose of gaming. 
Imposing these requirements on restored land within a restored tribe's 
aboriginal lands places restored tribes at a disadvantage to non-
terminated tribes who do not have such onerous requirements.
    Grand Ronde believes that state and local governments should be 
consulted on a government-to-government basis, but state and local 
governments should not have veto power over tribal development on 
restored lands. In addition, requiring concurrence of both the Governor 
and State legislature is inappropriate. On the issue of state 
concurrence, it should be left to each state to decide what elected 
body or bodies is authorized to concur with the Secretary's decision.
    Adding a requirement of county or parish approval by referendum is 
inappropriate. This requirement adds a significant burden to county 
governments, many of which may not have a referendum process or the 
resources to hold referendum elections. In many cases, multiple 
referendums would be required because more than one county or parish is 
contiguous to the tribe's land. The fact is that under current law and 
practice, local governments can have significant input into the process 
of taking lands into trust. In practically all cases where land is 
taken into trust for gaming, the Bureau must prepare an environmental 
impact statement which affords opportunities for input by local 
governments. Tribes and local governments regularly enter into 
intergovernmental agreements for the provision of basic services, such 
as water, sewer, fire, and police. Grand Ronde has worked closely with 
its local water association and sanitary district to improve these 
critical systems not only to Tribal properties by to all members of the 
local community. Local Grand Ronde community fire and police services 
receive grant funding from revenues generated by Spirit Mountain 
Casino.
    The revised draft bill provides under Sec. 2 ``Statutory 
Construction'' that the amendment is to apply prospectively and that 
compacts and other agreements that govern gaming on Indian lands in 
effect on the date of the enactment of the Act shall not be affected by 
the amendments made to the Act. This language is ambiguous. The term 
``other agreements'' is not defined and may be interpreted to encompass 
a multitude of negotiated agreements. At a minimum this provision 
should be clarified to provide that Indian lands must be held in trust 
for the purpose of gaming at the time of the amendment.

Suggested Alternative Legislation
    Grand Ronde appreciates the Committee's effort to address the 
important issues surrounding off-reservation gaming. We look forward to 
working with you and the other members of the Committee to address the 
issue of off-reservation gaming in a manner that is sensitive to the 
unique situation of restored tribes. Grand Ronde has provided the 
Oregon Congressional delegation with proposed legislation to address 
some of these same concerns. Our proposed legislation adds the 
following new requirements for taking lands into trust under the two-
part determination, land settlement, initial reservation of newly 
acknowledged tribe and restored lands exceptions:
    (1)  the Secretary determines that the lands are in the State where 
the tribe resides or had its primary jurisdiction;
    (2)  the Secretary determines that the tribe as ancestral or 
historic ties to the lands; and
    (3)  the Secretary consults with and obtains the concurrence of 
other tribes that have an ancestral or historic tie to the lands.
    A copy of this proposed legislation is attached to this written 
testimony as Attachment A. We believe, Grand Ronde's proposed amendment 
directly addresses the underlying issue of tribes seeking to acquire 
land in trust for gaming that is far from their reservation, where they 
have no ancestral or historic ties and where other tribes may have 
ancestral or historic ties. These additional requirements will help 
curb the growing trend or fear of ``reservation shopping''.
Conclusion
    Gaming issues in Indian Country are important to sustaining the 
economy and welfare of Grand Ronde, our Reservation and our members. We 
appreciate the opportunity to provide you with our comments and 
proposed amendments. Please do not hesitate to call me with any 
questions at (503) 879-2353. Your staff should also feel free to call 
our Tribal Attorney, Rob Greene, at (503) 879-2270 with any questions.
                                 ______
                                 
                             ATTACHMENT A:

                   CONFEDERATED TRIBES OF GRAND RONDE

         PROPOSED AMENDMENT TO RESTRICT OFF-RESERVATION GAMING

25 U.S.C. Sec. 2719

Gaming on lands acquired after October 17, 1988
    (a) Prohibition on lands acquired in trust by Secretary
    Except as provided in subsection (b) of this section, gaming 
regulated by this chapter shall not be conducted on lands acquired by 
the Secretary in trust for the benefit of an Indian tribe after October 
17, 1988, unless--
        (1)  such lands are located within or contiguous to the 
        boundaries of the reservation of the Indian tribe on October 
        17, 1988; or
        (2)  the Indian tribe has no reservation on October 17, 1988, 
        and--
               (A)  such lands are located in Oklahoma and--
                  (i)  are within the boundaries of the Indian tribe's 
            former reservation, as defined by the Secretary, or
                  (ii)  are contiguous to other land held in trust or 
            restricted status by the United States for the Indian tribe 
            in Oklahoma; or
               (B)  such lands are located in a State other than 
            Oklahoma and are within the Indian tribe's last recognized 
            reservation within the State or States within which such 
            Indian tribe is presently located.
    (b) Exceptions
        (1)  Subsection (a) of this section will not apply when--
               (A)  lands are taken into trust
                  (i)  following a determination by the Secretary, 
            after consultation with the Indian tribe and appropriate 
            State and local officials that a gaming establishment on 
            newly acquired lands would be in the best interest of the 
            Indian tribe and its members, and would not be detrimental 
            to the surrounding community, but only if the Governor of 
            the State in which the gaming activity is to be conducted 
            concurs in the Secretary's determination; or
                  (ii)  as part of a settlement of a land claim; or
                  (iii)  as part of the initial reservation of an 
            Indian tribe acknowledged by the Secretary under the 
            Federal acknowledgment process; or
                  (iv)  the restoration of lands for an Indian tribe 
            that is restored to Federal recognition; and
               (B)  prior to taking lands into trust
                  (i)  the Secretary determines that the lands are in 
            the State where the Indian tribe resides or has its primary 
            jurisdiction; and
                  (ii)  the Secretary determines that the Indian tribe 
            has ancestral or historic ties to the lands; and
                  (iii)  the Secretary consults with and obtains the 
            concurrence of other Indian tribes that have an ancestral 
            or historic tie to the lands.
        (2) Subsection (a) of this section shall not apply to--
               (A)  any lands involved in the trust petition of the St. 
            Croix Chippewa Indians of Wisconsin that is the subject of 
            the action filed in the United States District Court for 
            the District of Columbia entitled St. Croix Chippewa 
            Indians of Wisconsin v. United States, Civ. No. 86-2278, or
               (B)  the interests of the Miccosukee Tribe of Indians of 
            Florida in approximately 25 contiguous acres of land, more 
            or less, in Dade County, Florida, located within one mile 
            of the intersection of State Road Numbered 27 (also known 
            as Krome Avenue) and the Tamiami Trail.
        (3)  Upon request of the governing body of the Miccosukee Tribe 
        of Indians of Florida, the Secretary shall, notwithstanding any 
        other provision of law, accept the transfer by such Tribe to 
        the Secretary of the interests of such Tribe in the lands 
        described in paragraph (2)(B) and the Secretary shall declare 
        that such interests are held in trust by the Secretary for the 
        benefit of such Tribe and that such interests are part of the 
        reservation of such Tribe under sections 465 and 467 of this 
        title, subject to any encumbrances and rights that are held at 
        the time of such transfer by any person or entity other than 
        such Tribe. The Secretary shall publish in the Federal Register 
        the legal description of any lands that are declared held in 
        trust by the Secretary under this paragraph.
    (c) Authority of Secretary not affected
Nothing in this section shall affect or diminish the authority and 
responsibility of the Secretary to take land into trust.
    (d) Application of Title 26
        (1)  The provisions of Title 26 (including sections 1441, 
        3402(q), 6041, and 6050I, and chapter 35 of such title) 
        concerning the reporting and withholding of taxes with respect 
        to the winnings from gaming or wagering operations shall apply 
        to Indian gaming operations conducted pursuant to this chapter, 
        or under a Tribal-State compact entered into under section 
        2710(d)(3) of this title that is in effect, in the same manner 
        as such provisions apply to State gaming and wagering 
        operations.
        (2)  The provisions of this subsection shall apply 
        notwithstanding any other provision of law enacted before, on, 
        or after October 17, 1988, unless such other provision of law 
        specifically cites this subsection.
                                 ______
                                 
    The Chairman. Thank you. Chairman Barnett.

              STATEMENT OF CHAIRMAN JOHN BARNETT, 
                COWLITZ INDIAN TRIBE, WASHINGTON

    Mr. Barnett. Chairman Pombo, Ranking Member Rahall, and 
respected members of this committee, I thank you for the 
opportunity to testify this morning.
    For over 25 years I have been traveling to speak to 
Congress on behalf of my tribe--more than 50 trips--always on 
my own dime, and always focused on righting the historical 
wrongs that have been committed against my people. My position 
as an elected leader of my tribe came with a small salary, but 
I have always felt that our scarce tribal funds should be used 
to meet the desperate needs of my people, not the elected 
leaders. Because of this, every time I receive a check I write 
a check back to my tribe to return those funds.
    Mr. Chairman, I want to begin this morning by thanking you 
for the hearing. Your draft legislation and the hearing you 
hold today provide a useful dialogue on reservation shopping, 
and they serve to educate the public. I appreciate your 
consultation of Indian tribes and others in this important 
issue.
    Mr. Chairman, let me tell you about the Cowlitz people. We 
lost our status as a federally recognized tribe because we 
refused to sign a treaty. We petitioned for recognition in 1975 
before the Federal acknowledgment process was established in 
the regulation.
    It took us almost a third of my life for Interior to make a 
decision and the tribe emerged penniless from that day 
struggling through this process.
    Since the administrative process has been in existence, the 
Department has recognized only 15 tribes. To the best of our 
knowledge, only six tribes that emerged from Interior's process 
are landless today, including the Cowlitz and our good friends 
of the Snoqualmie Tribe also of Washington State.
    No challenge has been greater for us than the process of 
acquiring land and establishing a reservation for my people. 
For this reason, I very much appreciate having this opportunity 
to tell you about our history and about the current obstacles 
we face.
    We currently find ourselves with no reservation. We are 
shut out from the only form of economic development that has 
been proven to be successful, Indian gaming. We face daunting 
obstacles through self-governance and self-sufficiency 
precisely because we are landless and poor. We now face the 
difficult task of getting land into trust. The land-into-trust 
process is expensive and lengthy.
    For our proposed acquisition, preparation of our 
environment review alone will cost more than a million dollars. 
Studies like these squeeze limited resources from being used 
for tribal health care, education, and other much needed 
services.
    The parcel we intend to use for gambling is located within 
the service area established for us by the Indian Health 
Service and by HUD. That parcel of land is also within an area 
of the Cowlitz tribe historically used and occupied, and is 
centrally located within an area where our current members work 
and live.
    It is a sad day when established gaming interests who make 
millions every year use those profits to oppose legitimate 
efforts like ours rather than using those funds as envisioned 
by IGRA, to provide services and create new economic 
opportunities for their communities.
    A significant portion of tribal sovereignty was sacrificed 
through the passage of IGRA, and I fear that sometimes now they 
are trying to weaken or sovereignty even further by denying us 
from exercising any rights under IGRA.
    Mr. Chairman, I know that the Committee will act with due 
care and deliberation before it decides whether to alter IGRA's 
exceptions. Tribes like mine need your help the most. We are 
simply trying to find a piece of land to call our own on which 
we can rebuild our tribal government, promote or sovereignty 
and self-determination, and create economic opportunities for 
our people.
    Mr. Chairman, I respectfully submit that any changes to 
IGRA's exceptions for tribes like mine should take into account 
our dire circumstances. We ask only for the same opportunities 
of those tribes that were lucky enough to be federally 
recognized and have a land base when IGRA was enacted.
    In closing, I would like to recognize Mark Brown who is 
with us today from the Mohegan Tribe. The Mohegan Tribe 
completed Interior's recognition process 10 years before we 
did, and today they are working with us to reinvest in Indian 
country. We hope that our partnership will show that Indian 
tribes can and will reach out to help each other. I hope that 
the Mohegan's example will encourage other successful tribes to 
help those who are less fortunate rather than focusing their 
substantial resources on protecting their existing markets.
    Mr. Chairman, I thank you again for the opportunity to 
provide this testimony. We offer our continuing assistance to 
the Committee as it considers how to address the issue of 
reservation shopping. Thank you.
    [The prepared statement of Mr. Barnett follows:]

         Statement of The Honorable John R. Barnett, Chairman, 
                 The Cowlitz Indian Tribe of Washington

    Chairman Pombo, Ranking Member Rahall, and respected members of 
this Committee, I thank you for the opportunity to testify this morning 
on this most important matter.
    For over 25 years I have been traveling to speak to Congress on 
behalf of my Tribe--more than fifty trips--always on my own dime, and 
always focused on righting the historical wrongs that have been 
committed against my people. My position as an elected leader of my 
Tribe came with a small salary, but I've always felt that our scarce 
tribal funds should be used to meet the desperate needs of my people--
not its elected leaders. Because of this, every time I receive a check 
I write a check back to my Tribe to return these tribal funds.
    Mr. Chairman, I want to begin this morning by expressing my 
personal gratitude to you for your leadership on this controversial 
issue. The draft legislation that you have circulated and the hearing 
you host today serve two fundamentally important purposes--facilitating 
a much-needed dialogue on the issue of ``reservation shopping'' and 
educating the public on this complex issue. I sincerely appreciate your 
consultation with Indian tribes and others on this issue and your 
efforts to craft meaningful legislation to address public policy 
concerns inherent in the ``reservation shopping'' debate.
    I have worked my whole life to restore the Federal recognition of 
my Tribe. Our struggle for federal recognition was about righting a 
historic wrong, it was about self-determination and respect, and it was 
about ensuring that the coming generations of Cowlitz people have a 
brighter future. Now I have one last goal, one last promise to my 
people--to regain a homeland and ensure that the Cowlitz people have 
the same rights and economic opportunities that other sovereign tribes 
enjoy--maybe then they will let me retire.
    These days, the media frenzy over ``reservation shopping'' has 
escalated to a point where some are losing sight of the very real 
benefits Indian communities receive from Indian gaming. We must 
remember that revenues from Indian gaming make health care available to 
a population that lags far behind the rest of America in every major 
health category, that gaming revenues provide our future leaders with 
educational opportunities that earlier generations could only dream of, 
and that those revenues provide desperately needed housing and daily 
care services for our elders who have sacrificed so much to ensure our 
survival today. For the first time in American history, gaming revenues 
are providing Indian country with a real opportunity to be self-
sufficient.
    Earlier this year I testified before the Senate Committee on Indian 
Affairs about the burdens imposed on us by the Department of the 
Interior's Federal Acknowledgment Process (FAP). I know you understand 
all too well the problems with the current recognition system. It took 
us 25 years to go through that process--a quarter of a century of my 
lifetime. I also testified about the challenges we face as a newly 
recognized tribe. No challenge has been greater for us than the process 
of acquiring land and establishing a reservation for our people. For 
this reason, I very much appreciate having this opportunity to tell you 
about our history and about the current obstacles we face.
    As you know, newly recognized tribes like the Cowlitz emerge from 
the Federal Acknowledgment Process without a federally protected land 
base and without a reservation. We are poor and in desperate need of 
the United States' active assistance. We face daunting obstacles to 
self-governance and self-sufficiency precisely because we are landless 
and poor. Without a land base, we are unable to provide housing to our 
members, unable to build health clinics, unable to participate in 
federal programs that are tied to being ``on or near a reservation,'' 
<SUP>1</SUP> and, perhaps most importantly, unable to conduct the 
economic development necessary to generate the revenue a tribe must 
have to provide governmental, health and housing services to its 
members.
---------------------------------------------------------------------------
    \1\ Examples of federal programs that are tied to having a 
reservation land base include the Indian Business Development Program, 
25 U.S.C. Sec. Sec. 1521 et seq., 25 C.F.R. Part 286; the Employment 
Assistance Program, 25 C.F.R. Part 26; and the Vocational Training 
Program, 25 C.F.R. Part 27. Further, because Interior's fee-to-trust 
regulations impose more burdensome requirements for ``off-reservation'' 
acquisitions, future acquisitions that are not contiguous to parcels 
proclaimed as the Tribe's reservation will also be deemed to be ``off-
reservation.''
---------------------------------------------------------------------------
    We urge you, Mr. Chairman, to ensure that there be a fair and 
equitable mechanism to put newly recognized tribes on a level playing 
field with tribes that were lucky enough to have had a reservation on 
October 17, 1988.

The Initial Reservation and Restored Lands Exceptions
    As you know, the Indian Gaming Regulatory Act prohibits the conduct 
of Indian gaming on off-reservation lands acquired in trust after 
October 17, 1988. Congress understood that in certain limited 
circumstances it would be wholly inequitable to apply this prohibition 
to tribes that were unrecognized and had no trust land in 1988. One 
such circumstance is for a tribe recognized through the Department of 
the Interior's Federal Acknowledgment Process to game on its ``initial 
reservation.'' See 25 U.S.C. Sec. 2719(b)(1)(B)(ii).
    I think it needs to be made clear that there are relatively few 
restored and FAP-recognized tribes. The Department of the Interior 
recently explained that since the enactment of IGRA seventeen years 
ago, it has approved only twelve gaming acquisitions for restored 
tribes, and in the almost 27 years that the administrative process has 
been in existence, the Department has recognized only 15 tribes. To the 
best of our knowledge, there are only six FAP-recognized tribes that 
are landless today, including the Cowlitz and our good friends of the 
Snoqualmie Tribe, also of Washington State. Emerging from that process 
with federal recognition is not only rare, but it takes a better 
portion of one's lifetime to receive a decision from Interior.
    Even though there are so few landless restored and FAP-recognized 
tribes, once recognized we face the almost insurmountable task of 
getting land in trust. Our tribal right to property--a federally 
protected land base that nearly every other federally-recognized tribe 
enjoys--is particularly difficult to exercise where we want to use the 
land for economic development involving gaming. Because we are a 
recently recognized tribe without a reservation, by definition, any 
land identified for trust acquisition is treated by Interior as an 
``off-reservation'' acquisition. That means we have to comply with 
Interior's more rigorous ``off-reservation'' fee-to-trust regulations. 
As a result, landless newly recognized tribes must complete a wide 
variety of expensive, time-consuming studies, data preparation, and 
other work relating to the fee-to-trust process with no financial 
assistance and very little technical assistance from the federal 
government. Most notably, if we plan to use the land for gaming, NEPA 
requires us to find the money to pay for an exhaustive environmental 
review--in most cases, like ours, this means the preparation of an 
Environmental Impact Statement (EIS). For the Cowlitz, preparation of 
the EIS alone will cost much more than $1 million. It should come as no 
surprise then that newly recognized tribes are hard pressed to generate 
the funds needed to pay for these things and statutes like NEPA squeeze 
what limited resources we have from being used for tribal health care, 
education and other much needed services.
    Of course, any land that a landless tribe acquires will, if taken 
into trust by Interior, come off the local tax rolls and be withdrawn 
from local jurisdiction. As you can imagine, this rarely makes the 
newly recognized tribe popular with the local community. Further, if, 
as in our case, the newly recognized tribe acquires land in a local 
community that generally supports gaming, already there is likely 
another tribal or non-Indian gaming establishment there that will fight 
the newly recognized tribe to the death in order to protect its 
profits. Conversely, if the newly recognized tribe identifies land 
where there is no nearby existing gaming facility, it's probably 
because the local community is disinterested in--or possibly even 
hostile to--hosting a gaming facility. Again, this is not a way to gain 
popularity in the tribe's local community. It is little wonder that 
newly recognized FAP tribes find themselves in the middle of public 
debates and controversies--controversies often fueled and well-funded 
by other gaming interests trying to protect their own turf and profits. 
We are concerned about imposing a requirement for affirmative 
concurrence of local and tribal governments before land could be 
acquired in trust for gaming for a newly recognized, landless FAP or 
restored tribe. The financial, political and social costs of such 
concurrences may be devastating to poor tribes. We submit that any new 
legislation should protect our ability to acquire a reservation land 
base through the existing statutory structure that tribes before us 
have been allowed to utilize.

The Cowlitz Tribe's Efforts to Obtain Land
    Let me tell you about the parcel we have acquired. Our parcel is 
located squarely within the service area established for us by the 
federal Indian Health Service and by HUD's Office of Public and Indian 
Housing. That parcel of land is also squarely within an area to which 
the Cowlitz Tribe has strong historical connections. The parcel is a 
mere two miles from a tribal village occupied historically by the 
Cowlitz people and only fourteen miles south of the boundary drawn by 
the ICC that delineated the area used and occupied exclusively by the 
Cowlitz. <SUP>2</SUP> It is one mile southeast of the Lewis River, 
where the Cowlitz Tribe historically lived, hunted, gathered and 
fished, and there are a multitude of other historical connections to 
the surrounding area recognized by the ICC and the federal government 
that are too numerous to mention here. These lands are some of the very 
lands that we lost as a result of the federal government's wrongful 
actions so many years ago. Given these circumstances, the Cowlitz's 
efforts to re-acquire this land in trust can hardly be considered 
``reservation shopping.''
---------------------------------------------------------------------------
    \2\ The Cowlitz shared occupancy in the area in which the parcel is 
located with a Chinookan group that unfortunately was entirely 
destroyed by European disease and encroachment by non-Indian settlers. 
See Simon Plamondon v. United States, 21 Ind. Cl. Comm. 143, 171 
(I.C.C. 1969).
---------------------------------------------------------------------------
    It has been particularly painful for us to be the subject of a 
misinformation campaign launched by non-Indian and Indian gaming 
interests maligning our connections to this land simply to protect 
their monopoly on gaming in southwestern Washington. Their 
mischaracterization of our ties to this land is ironic given that we 
became landless precisely because we refused to move from our 
traditional lands to a reservation in another Tribe's territory when 
Governor Isaac Stevens came to secure a land cession treaty from us in 
1855. Despite the fact that we did not cede our lands and no 
reservation was established for us, President Lincoln opened our lands 
to white settlement by Executive Order in 1863. As non-Indians settled 
our traditional lands, we became entirely landless and scattered 
throughout southwest Washington. As a consequence of our landless 
status, the Department of the Interior eventually came to view us as 
unrecognized.
    Even more ironic, we brought suit before the Indian Claims 
Commission in 1946 to obtain compensation for our lost lands. The ICC 
issued an order in 1969 finding that we had never been paid for the 
lands taken from us and that we were entitled to compensation. The 
Tribe insisted that any settlement legislation implementing the ICC 
judgment must set aside some of the money for land acquisition, but for 
over thirty years the Department of the Interior opposed the draft 
settlement legislation on the grounds that unrecognized tribes could 
not acquire tribal lands and that all the money had to be distributed 
on a per capita basis. Because we refused to take payment for our lost 
lands until some of that money was set aside for land acquisition, we 
did not obtain legislation authorizing the payment of our ICC damages 
award that included a provision setting aside settlement money for land 
acquisition until just last year.
    In short, the Cowlitz Tribe lost both its land base and its federal 
recognition because it refused to move from its home territory, the 
same territory in which we now seek to put land into trust. The irony 
is that if we had agreed to a reservation outside our historical area, 
we would not have suffered from a century-and-a-half of non-recognition 
and landlessness. And we almost certainly would not be suffering now 
from the disingenuous and inflammatory attacks of our opponents.
    It is a sad day indeed when some established gaming tribes who make 
millions every year are using those profits to oppose legitimate 
efforts like ours rather than using those funds as envisioned by IGRA 
to provide services and create new economic opportunities for their 
communities. These tribes use their substantial resources to oppose a 
tribe with nothing--all with the intent of depriving us of our 
sovereign right to economic development under IGRA. Congress sacrificed 
a significant portion of tribal sovereignty through the passage of IGRA 
and some established gaming tribes now are trying to weaken our 
sovereignty even further by denying us from exercising any rights under 
IGRA.
    We have heard much in the press about the issue of ``reservation 
shopping'' as it relates to tribes in California. Quite frankly, we 
don't know enough about what is going on in California to draw a 
conclusion about whether tribes are ``reservation shopping'' or whether 
this catch phrase is just being used by wealthy tribes seeking to block 
any competition. We do believe, however, that FAP tribes should not be 
sacrificed as part of this public policy debate.

Working With Indian Country
    Many speculate that unscrupulous developers are driving 
``reservation shopping.'' We have been very fortunate in that we have 
found a partner in Indian country to help get us on our feet. While we 
entertained offers from a number of top-tier development companies, we 
are proud to be working with and learning from the Mohegan Tribe of 
Connecticut. In 1994, the Mohegan Tribe also successfully emerged from 
the Federal Acknowledgment Process as a newly recognized, landless 
tribe. Today the Mohegan Tribe is reinvesting in Indian country, 
helping their Cowlitz cousins from across the country. We are grateful 
for the opportunity to work with the Mohegan Tribe, and we hope that 
this partnership will demonstrate that tribes can use gaming 
development to achieve good things for Indian people. The Mohegan Tribe 
has shown that Indian tribes can and will reach out to help each other 
and will succeed if given half a chance.

Improvements That Should be Made
    We know that you share our view, Mr. Chairman, that the United 
States has an affirmative and solemn obligation to our Indian Nations. 
We respectfully offer a couple of suggestions that could be made to the 
existing initial reservation exception and the draft legislation 
circulated for comment.
    First, the draft legislation could build upon the current exception 
for FAP tribes by clarifying that the first parcel of land taken into 
trust for a FAP tribe automatically becomes that Tribe's initial 
reservation. We believe that this clarification reflects Congress' 
intent in creating the exception in the first place, but Interior 
appears to have concluded otherwise. Such a clarification would ensure 
that FAP tribes are not subjected to yet another expensive, time-
consuming process.
    Second, the draft legislation provides for nearby tribes to 
exercise a veto over gaming facilities established by FAP tribes. We 
believe that tribes with existing gaming facilities should not be able 
to veto a gaming facility located within a restored or recently 
recognized Tribe's area in which it has strong historical and modern 
connections simply because the other tribe established a facility 
first. Moreover, such a veto is unnecessary. The Department of the 
Interior already considers the views of tribes within a 50-mile radius 
of a proposed off-reservation trust land acquisition. Similarly, we are 
concerned about an additional requirement of state legislative 
concurrence in that it adds an additional hurdle for tribes already 
struggling though the process.
    Third, at a minimum the draft legislation should grandfather and 
preserve the rights of tribes that have petitioned for or received 
federal recognition. Tribes that have petitioned or emerged from the 
process should be subject to the current process because, in cases like 
ours, the petition was filed well before the modern advent of Indian 
gaming and the passage of IGRA.
    Finally, Section 2 of the draft legislation should be revised to 
clarify that any federal decisions issued regarding the eligibility of 
Indian lands for gaming remain in effect and that those lands shall not 
be effected by the amendments made by this draft legislation. This 
revision would serve to protect tribes that have invested significant 
resources under the current process and have received the approval of 
the federal government that such lands are eligible for gaming if they 
are taken into trust.

Conclusion
    We understand that there may have been abuses in the way fee-to-
trust applications and the Section 20 exceptions have been handled by a 
few tribes, and certainly there are situations in which developers and 
lobbyists have tried to manipulate the system in order to maximize 
their business opportunities. That is not happening here. I know that 
this honorable body will agree that the misdeeds of a few should not 
become the basis for wholesale revisions to IGRA that fail to take into 
account the unique histories and modern circumstances of individual 
tribes.
    I know Mr. Chairman that this Committee will act with due care and 
deliberation before altering the balance of federal, state and tribal 
interests created by the Section 20 exceptions. A rush to embrace any 
one-size-fits-all solution that is meant to address the actions of a 
very few tribes is likely to cause harm to the very tribes who most 
need your help--tribes like mine that are simply trying to find a piece 
of land to call our own, on which we can rebuild our tribal government, 
promote our sovereignty and self-determination, and create economic 
opportunities for our people.
    The Cowlitz Tribe thanks you Mr. Chairman for your leadership on 
this issue and for the opportunity to provide this testimony. We offer 
our continuing assistance to the Committee as it considers how to 
address the issue of ``reservation shopping.''
                                 ______
                                 
    The Chairman. Thank you. I appreciate the testimony of all 
the panel.
    Chairman Stevens, in your testimony you talk about local 
input into the decisionmaking process, and I would like to ask 
you a couple of questions about that.
    In the areas that we are talking about here, we are not 
talking about a local community having veto authority or 
regulatory authority over trust lands. We are talking about 
land that is not currently in trust, and having the local 
community have input into those lands.
    That is very different than having the local community have 
the ability to go in and tell an tribe what they can do on 
their current trust lands, and do you not acknowledge the 
difference between land that is not currently in trust and land 
that is in trust, and the difference that exists under current 
law in those situations?
    Mr. Stevens. I do, sir, but I understood it to be that 
there is potential that those local communities would have veto 
in that process for those tribes to regain their status.
    The Chairman. It is not about regaining their status. It is 
about taking new lands into trust for the purposes of gaming 
within an existing community, and those lands are not in trust 
currently, and in the draft bill we are not giving a local 
community the ability to tell the tribe what they can or cannot 
do on trust lands. It is on land that is not currently in 
trust.
    Mr. Stevens. I stand corrected, Chairman Pombo. I think 
that where I come from is where these tribes have, you know, in 
the past been terminated, and lost their land. So I come from 
more of a historical standpoint. I apologize for that if I 
inferred otherwise.
    I think that it is a clear record in Indian country that 
our tribes, the gaming tribes have worked closely with 
surrounding municipalities and we are very proud of that record 
throughout this whole country. But I guess I misunderstood it 
to be a veto on their part.
    The Chairman. And just to make it perfectly clear, what you 
just said in that what has historically happened is absolutely 
true. For the most part tribes have had a very good working 
relationship with the local communities and have actively 
participated in the local communities. It has only been within 
the last few years, and when we have had this--had a severe 
increase in the number of off-reservation proposals that it has 
become an issue. Prior to that it was very different than what 
we are experiencing right now.
    I also want to ask you about--throughout the country, in 
Indian country, there are a number of reservations that have 
in-holdings or non-tribal lands within their reservation. Do 
you not believe that on those lands that the tribes ought to 
have input into what happens on those lands?
    Mr. Stevens. Can I yield to Mark. I am not sure if I 
understand the question.
    The Chairman. Yes. Just identify yourself for the record, 
please.
    Mr. Van Norman. Chairman Pombo, Mark Van Norman, Executive 
Director of the National Indian Gaming Association.
    We do believe that tribes ought to have sovereign authority 
throughout their reservations. Those reservations were set 
apart by treaty, statute, or executive order as a permanent 
homeland for tribes. When the title to the land changes from 
time to time, tribes ought to have further existing authority.
    On the question of local government approval of tribal land 
acquisitions, we feel that the state can adequately represent 
the local governments because the state is the sovereign, and 
the local governments subdivisions, and they can work within 
the state.
    We have our own tribal subdivisions, but our tribal 
governments speak on behalf of all of our districts, and we 
feel that to preserve government-to-government relations that 
it is worthwhile to work at the Federal government level 
primarily, but in this area there has been a precedent for 
working with state governments.
    The Chairman. I believe that because of the situation that 
exists currently, and what we are trying to deal with you do 
have to have some increased local government participation, and 
I would not in this draft, nor would I as a general rule agree 
that local governments should have veto authority over anything 
that is on land that is in trust. I do believe that that would 
be a bad precedent to set.
    What I have proposed in this draft deals with land that is 
not currently in trust, and is very different than what we 
currently have.
    My time has expired. I am going to recognize Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Chairman Stevens, several tribes have stated that IGRA is 
not broken, and seem to believe that a variety of procedural 
safeguards exist to protect the interests of both tribes and 
non-Indian communities.
    In your opinion, are any updates needed to accommodate the 
evolving role of Indian gaming, or do you feel that IGRA should 
remain untouched?
    Mr. Stevens. It is definitely the position of the National 
Indian Gaming Association and our member tribes that it should 
remain untouched. We do have, however, as I stated in my 
testimony, Congressman, that we feel like the Interior's 
regulation process will help clarify a lot of those concerns.
    Mr. Tom Udall. Chairman Stevens, I think one of the 
witnesses said this, and this may be in your testimony also 
earlier with regard to IGRA itself infringing on Native 
American sovereignty and the sovereignty of tribes.
    Could you outline a little bit what the history has been 
there?
    Mr. Stevens. I am going to yield to Mark on that, 
Congressman.
    Mr. Tom Udall. Sure, that is fine. That is fine.
    Mr. Van Norman. Thank you, Congressman Udall.
    We feel that there is a Federal government-to-government 
relationship. That is in the constitution. It is in treaties. 
Normally tribal governments do not have to deal directly with 
state governments under any Federal statute.
    The Indian Gaming Regulatory Act was an exception to that, 
and so to that extent, to the extent that we have to have a 
compact with the states prior to engaging in Class 3 gaming, 
that is a compromise on Indian sovereignty, and tribes have 
worked very diligently to build good relations with states.
    And I would just like to say in regard to local governments 
that the Section 20 process, the two-part determination by the 
Secretary has never moved forward without local government 
support. So we feel that as a practical matter further local 
government authority is not necessary.
    Mr. Tom Udall. And is it not true that the history here 
prior to IGRA in 1988, the Supreme Court ruled in Cabazon, did 
it not, with regard to gaming?
    Mr. Van Norman. Yes.
    Mr. Tom Udall. And what did that case establish in terms of 
sovereignty and what the tribes could do and could not do?
    Mr. Van Norman. The Cabazon case established that Indian 
tribes are governments. They retain their sovereign authority. 
Part of the sovereign authority, part of the intention of the 
reservation is that tribes will have a viable economy, and 
tribes have authority to use Indian gaming as part of their 
inherent sovereignty to promote economic development and to 
generate funds to pay for a central government services, and 
that is what the Supreme Court recognized.
    Mr. Tom Udall. And then IGRA followed on that afterwards to 
require that in order to engage in Class 2 and Class 3 you had 
to have a compact between the state and the tribe; is that 
correct?
    Mr. Van Norman. In regard to Class 3 gaming, there has to 
be a compact with the state, and in regard to Class 2, tribes 
work directly with the National Indian Gaming Commission, but 
that was a compromise on the Cabazon case, and it was an in-
road on Indian sovereignty, but tribes have worked very 
diligently to develop good relationships with the states, and 
we now have 26 states that have compacts with tribes.
    Mr. Tom Udall. Chairman Stevens, considering that only 
three tribes have successfully moved forward under the current 
Section 20 procedure, perhaps we are trying to resolve a 
problem that does not exist.
    Do you believe that the reservation shopping crisis is a 
misconception? And if so, what do you believe is the best route 
for tribes to address the situation.
    Mr. Stevens. No, Congressman, I believe that there is an 
issue there, and that is why we stand before you today. I think 
that the tribes have come together on four very well attended 
meetings to deal with these kinds of issues. But we do believe 
that they can be handled within the current process.
    I think that, you know, Chairman Pombo makes a good point 
regarding the concerns of local communities, and I think that 
that--I want to acknowledge that that has been discussed in our 
hearings. But at the same time I want to just make sure it is 
very clear that on a very high percentage we continue to work 
very positively with the communities around our gaming 
communities throughout this country.
    Mr. Tom Udall. Thank you very much, and I yield back.
    The Chairman. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and to our 
guests and panelists, welcome to the Committee. We are glad to 
have you, and this is a very important issue for a lot of 
people, not just the Indian tribes and of course throughout 
America.
    As we know under IGRA, IGRA prohibits or bars gaming on 
newly acquired lands unless it is approved by the Secretary 
and, of course, the Governor. But it also requires consultation 
within the--with the Indian tribe and appropriate local 
officials. BIA has applied a 10-mile radius to that area of 
influence.
    When you consider the impact of vehicle traffic, water 
usage, police, fire, anything on that, do you believe that that 
impact radius should be larger than 10 miles to look at the 
influence or the impact of some of these large tribal casinos?
    Any large business has a huge impact on communities. Do you 
believe that that 10-mile radius is arbitrary in its dimension, 
and would you support a larger sphere of influence in 
consultation with local communities?
    Mr. Stevens. I really do not--I have not really been able 
to think that through other than to say that I believe that our 
tribes have taken a much more bigger, a larger viewpoint when 
it comes to analyzing those types of impacts, and I think that 
they take it upon themselves to go far beyond those kinds of 
impacts, beyond that 10-mile radius.
    Mr. Gibbons. Well, then, let me ask this question because 
we are always dealing with the concept of sovereign immunity 
within the Indian tribes.
    The Chairman asked a very poignant question about the 
influence of any activity within the jurisdiction of say a 
reservation, and in-holding by non-Indian ownership. You said 
that you would have--agree that there should be consideration 
given to the tribe for any activity on non-reservation land 
that is in-holding on that tribal reservation.
    Therefore, your sovereignty applies to whatever they want 
to do on their lands. Should you not consider the sovereignty 
of these local communities then within which this new land is 
acquired?
    Mr. Stevens. Congressman, I think I tried to answer that 
question. Maybe if I could ask Mark to maybe be more specific 
about that.
    Mr. Van Norman. Well, Congressman, I think----
    Mr. Gibbons. It is philosophical. It is not----
    Mr. Van Norman. It is philosophical. I think that there is 
a distinction with reservations, and with Federal reservations 
when they are established they continue unless they are 
disestablished, and so those boundaries of the reservation are 
there. So even though there may be fee lands, they remain 
within the reservations, and we believe that is important.
    Mr. Gibbons. All right, now let me bring this back to that 
very point. You are acquiring new land within a jurisdiction of 
a non-Indian governmental area; for example, a city, a 
community, a county that is not Indian. So you are in-holding 
then within their area of influence.
    Should not the same kind of consideration be given to their 
sovereign rights as concerned about your sovereign rights when 
there is an in-holding on the tribal reservation?
    Mr. Van Norman. From our point of view, there is a lot of 
consultation provided for already. The Secretary before making 
a determination, a Federal determination, must consult with 
state and local officials and nearby tribes. So there is a 
consultation process for the Secretary to take those interests 
into account.
    As a practical matter, the Secretary has never moved 
forward where there was not support of the local government. As 
a legal matter, we believe that the other sovereign, that it is 
appropriate for tribal governments to deal with is the state 
sovereign, and that local governments are actually subdivisions 
and subordinate to the state governments.
    So already from our point of view the Indian Gaming 
Regulatory Act takes this away from our direct Federal 
government-to-government dealings, and we are concerned that a 
local government requirement would take us a step down from the 
state government.
    Mr. Gibbons. Well, then, in your analysis one would include 
the area of consideration to be the surrounding state rather 
than the surrounding community. So perhaps we should expand the 
area of influence to the boundaries of the state if we are 
going to deal with state government under your analysis.
    Mr. Van Norman. Well, the state officials are already dealt 
with.
    Mr. Gibbons. But I am talking about the area of influence, 
detrimental influence which is required under IGRA.
    Mr. Van Norman. Well, that does seem to be--you know, could 
be hundreds of miles and it would seem as a practical matter to 
be excessive.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Van Norman. Thank you, sir.
    The Chairman. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. Mr. Chairman, I want to 
thank you for holding yet another hearing on this draft 
proposal, and naturally some of us are still coming up to speed 
on it, but I think as we do move forward and I appreciate the 
witnesses' testimony here today, and look forward to working 
with you as we proceed; that we do try to keep foremost in mind 
the historical constitutional rights that are embodied, 
recognizing tribal sovereignty in this country, and where the 
negotiations need to take place.
    I think the second draft of the Chairman's mark here is a 
bit of an erosion in regards to the approval process as tribes 
move forward in acquiring new lands, and it is one of the 
concerns I have, and I think we need to think through that more 
on a philosophical basis, but recognizing that constitutional 
right that grants tribal sovereignty.
    But there are two other issues in particular. One is 
reading the draft, it looks like it is going to make it 
virtually impossible for any tribe to acquire new land for an 
activity across state border. Is that how you read the second 
draft of this, Mark?
    If there is not a connection to the actual location within 
the state, then is it going to make it very difficult for a 
tribe to acquire land across states?
    Mr. Van Norman. The way we read the draft the intention is 
to stop tribes from crossing states, and we do express a 
concern, that historical factors should be taken into account 
because tribes were moved out of the aboriginal areas many 
times. It was Federal territories at that time, but there have 
been instances where the United States violated Federal law in 
removing tribes.
    Mr. Kind. Well, I guess that is a general question to the 
panel is, are there legitimate geographic, social or historical 
considerations why a tribe might want to acquire lands for 
activities across state border? Chairman Stevens?
    Mr. Stevens. Sorry. Could you repeat that question, please?
    Mr. Kind. Would there be a situation where there is a 
legitimate case that can be made based on geography or social 
reasons or in an historical connection of why a tribe would 
want to acquire lands in a different state?
    Mr. Stevens. I apologize, Congressman. I want to ask Mr. 
Van Norman to respond to that one.
    Mr. Kind. Sure.
    Mr. Van Norman. Well, Congressman, we feel clearly there 
are these historical factors, and especially where the United 
States has violated Federal law to remove the tribes from their 
original homes, that naturally there is a desire for tribes to 
reestablish some lands where they were located from time 
immemorial, and we think that a prohibition does not address 
these historical factors.
    Mr. Kind. Such as in the Nineteenth Century removal policy.
    Mr. Van Norman. Such as the Nineteenth Century removal 
policy which, you know, if it were undertaken today I think 
would be called ethnic cleansing.
    Mr. Kind. Right. And I appreciate the Chairman's 
distinction between not giving local government veto power over 
land already in trust versus land not in trust yet, but 
nevertheless this would establish veto power at multiple 
levels. It is a five-step approval process moving beyond the 
normal consultation that currently takes place under Section 20 
by the Department of the Interior, the Secretary.
    The way I read it is not only does this latest draft 
require the Secretary's approval, it must get approval of the 
government, state legislature, the local government and also 
neighboring tribe, each one of which could exercise their veto 
in order to stop any acquisition of land.
    Is that a fair and accurate reading of the latest draft 
that we have before us?
    Mr. Stevens. Yes, sir.
    Mr. Kind. Now, Chairman Stevens, I think others have made 
reference to the fact that the Department of Interior is moving 
forward on reforms for Section 20, and that process is taking 
place.
    Do you feel that the Department of Interior is heading in 
the right direction in order to address many of the legitimate 
concerns that I feel the Chairman and others have which is 
giving rise to this legislation? Do you think the Department of 
Interior is capable of handling those concerns?
    Mr. Stevens. We feel that that is the case. We stated that 
in our testimony, and we have asked this committee to give that 
process a review as it moves forward.
    Mr. Kind. All right. Well, again, I think there are some 
very new and dramatic changes with the latest draft proposal 
that we will have to try to work into further consultation, and 
perhaps future hearings.
    Mr. Chairman, just a quick question for you. Will we have 
an opportunity to call some of the Department of Interior 
officials before us in order to find out what work they have 
doing in regards to Section 20 changes, and get a sense from 
them what direction they are heading in?
    The Chairman. I am sure before we move forward with the 
final bill that we will have the opportunity to have the 
Department come down and give us their opinion on the bill as 
well as what they have been doing.
    Mr. Kind. Right. Well, thank you again, Mr. Chairman, for 
today's hearing. I want to thank the witnesses and look forward 
to working with them.
    The Chairman. Thank you. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I appreciate 
the diligence with which you have brought this bill forward and 
your willingness to work with various members and tribes to 
figure out a good and balanced solution to the issues that are 
out there.
    Mr. Suppah, I would like to start with you if I might, and 
I appreciate your testimony and our discussions on this issue.
    What sort of criteria might you support in terms of 
sideboards on this type of legislation?
    Mr. Suppah. We would be in support of the existing 
regulations as they stand today, and also if there was any 
amendments of any kind, then we would be supportive of in-state 
and aboriginal territories, and a side compact with the state.
    Mr. Walden. Now I know that others have suggested 
sideboards that would say, I believe it is ancestral and 
historical boundaries as kind of where they could reach out to. 
What effect would that have on your situation if that were the 
case?
    Mr. Suppah. Mr. Walden, for another tribe that has not 
clearly established that aboriginal tie or aboriginal title, it 
would jeopardize our situation to the point to where say like 
the 1967 Indian Lands Claims Commission and their decision for 
Warm Springs that clearly laid out where we were pre-treaty, 
and today.
    Mr. Walden. In the proposal you put forward is within the 
boundaries of your ceded lands; is that correct?
    Mr. Suppah. Yes, it is. It is clearly within the claims 
commission area as defined in that decision.
    Mr. Walden. And does anyone else--any other tribe have--
within that claims commission process, do they have ceded 
status in that same area?
    Mr. Suppah. That was not decided. No other tribe had 
pursued an Indian land claims claim, and the area was--the 
decision was that that was clearly in Warm Springs' area.
    Mr. Walden. I see. Now, obviously, it is no secret, at 
least three of you on the panel there is some level of conflict 
among you regarding various proposals. I am curious, Chairman 
Suppah, what has the Warm Springs' view been on other proposals 
for off-reservation facilities or new gaming facilities being 
established in the northwest? Have you opposed those?
    Mr. Suppah. Representative Walden, Warms Springs' position 
is a matter of record, that we choose to be neutral in other 
tribes' endeavors for attainment and achievement of economic 
diversity and success, and we see no need to divert or change 
from that.
    Mr. Walden. OK. Maybe the other two could respond to 
northwest. Chairman Kennedy, what is your view on that concept 
of self-determination by these other tribes on this issue?
    Ms. Kennedy. We firmly support the sovereignty of other 
tribes. They have a right to pursue securing resources for 
their members. We believe that that is an inherent part of 
sovereignty, and we do respect that.
    Mr. Walden. But have you all not opposed what the Warm 
Springs has proposed, and what is your view on the Cowlitz's 
proposal as well?
    Ms. Kennedy. We have opposed off-reservation gaming, and 
that is part of our belief. I did want to make one other 
comment about lands and ancestral ties.
    We have gone on record saying we support in-state. We know 
that and recognize that the reality is that it is a very large 
hurdle to overcome, especially for us. Some of our treaties 
were signed in Washington where our people were. But we 
recognize that today things change and just as this proposed 
draft revision is coming forward, that it is a great 
possibility that the changes will occur and that amendments 
will happen.
    So as things change, of course, any leader, including 
everyone in this room, has to stay with that thinking in mind.
    Mr. Walden. All right. I know my time has expired. 
Obviously as a footnote aside from this issue, looking at other 
issues, it has always troubled me in government when somebody 
has followed a process that has been there, and in place, and 
spent a lot money to follow the rules and all, that it never 
seems fair that somebody comes along and then changes the rules 
in the middle of the midstream. And so it is just a concern I 
would have in this, and I know we have talked in other issues 
as well.
    Thank you all. I appreciate your testimony.
    The Chairman. Let me tell the gentleman I am aware of that 
issue, and I am sympathetic to it. That has been an issue that 
you have raised with me in the past as have a couple of other 
members, and I am sympathetic to that. And I think as we move 
forward with the draft bill, we may have an opportunity to 
address that issue.
    Ms. Herseth.
    Ms. Herseth. I have no questions, Mr. Chairman. Thank you.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this hearing. I want to thank the witnesses as well. I want to 
direct my questions in kind of a different direction 
notwithstanding the proposed legislation before us, and 
listened to the comment of the gentleman from Oregon about 
changing the rules in the middle of the process.
    I do not subscribe to that either, but I would like to 
direct my question to the Chairman from the San Manuel Band 
from California, and from those other Indian tribes that are 
involved in gaming facilities.
    As was mentioned earlier, we have about 28 states that have 
compacts of Class 2 and Class 3 gaming. In California, that 
encompasses 108 sovereign recognized nations under the BIA, of 
which there are 52 that have active gaming facilities. These 
statistics are a little old, but they were done in 2003. At 
that time we had 62 that had compacts.
    My question to you is in describing California situation 
over the last 15 years and having been a--before this job, I 
had been a member of the state legislature, so I have been 
involved and observed how gaming has transitioned itself in 
California over the last 15 years. If I were to ask you what 
the policy is in California, how would you describe it as it 
relates to the 108 sovereign nations that are recognized, the 
62 in 2003, I think it is 64 now, but have compacts? How would 
you describe the policy in California?
    Mr. Marquez. I think simply I could just state that policy 
in California in the Governor's office is basically to raise 
revenue for the State of California. That is----
    Mr. Costa. I would submit to you that we have had different 
policies. I mean, we had a policy under Governor Wilson, and 
then we had a policy under Governor Davis, and now we have a 
policy under Governor Schwarzenegger, and every policy I think 
is best described with each Governor as ``Let us make deal 
time.''
    Mr. Marquez. True, and I was going to kind of roll it back 
into the Governor Schwarzenegger days, and the Governor Davis 
days, and obviously there were some days where there was no 
discussion between the State of California or the Governor and 
the tribes, which basically gave rise to what is being known as 
the Prop. 5 days and the Prop 1A days.
    So the policy in California at the beginning was very--as 
we can bother to say--standoffish. The policy was not formed to 
allow the games within--on the reservations, I should say, at 
that time. But under Governor Davis that changed, and there was 
a more open dialogue between the tribes and the Governor at 
that time, and we believe those compacts really fit into the 
mold of what IGRA was created for.
    Then recently, as you just stated, the Governor's policy is 
more or less about more local control, more unionization, more 
capital for the State of California, heavier fees, and that has 
become just simply through progression, and as we all know as 
policy develops, the new norm in California.
    Mr. Costa. It seems to me what is lacking in this 
discussion as we look at the Chairman's bill, and that I would 
like to see occur, and I concur with the earlier statement that 
was made by the gaming representative, that the states are the 
sovereign entity that I think the sovereign nations ought to be 
negotiating with in terms of the contacts. It is logical. It 
makes more sense as opposed to the local government.
    But the fact is that I do not think we really have a policy 
in California, nor can I determine that we really have a policy 
in place among the 28 states that have Class 2 and Class 3 
gaming, and it just seems to me that one of the things that we 
ought to require is that every state, based upon their own 
circumstances and individual needs, develop with the Governor 
and its legislature what gaming policy should be in the future.
    I mean, in California, we have approximately 46 sovereign 
nations that have the ability to apply for proposed gaming. In 
2003, we had a number of them that--23 that had proposals in 
there, and some not even on their native lands. I mean, we will 
get into the place down in California where we are having 
franchise shopping, and how is that fair to the existing Indian 
reservations that have in fact complied with the existing 
framework and located their facilities on their native lands?
    Mr. Marquez. Well, I think it is safe to say in California 
in specific that the Proposition 1A that was passed, it was 
very well stated during that campaign that such activity, off-
reservation activity would not transpire. And as you just 
pointed out, here we are today dealing with that type of 
phenomenon in California, especially in our situation where we 
have a tribe from the Northern California/Oregon border seeking 
a reservation on ancestral lands some 700 miles away. That in 
my mind just reeks of some problems that we need to address, 
not to mention the tribe from San Diego coming up about 150 
miles away to basically create a reservation on our ancestral 
lands. That is a huge issue and it is counter to the public 
policy that was passed by a majority of the people in 
California when Prop. 1A was passed.
    Mr. Costa. Well, it just seems to me, and my time has 
expired, Mr. Chairman, and I would like to have the balance for 
the purpose of submitting further questions, but this is an 
area that we need to have further discussion. What is lacking 
in California, and I suspect in other states as well is the 
requirement that the states really determine how they are going 
to move forward with any new proposed gaming, and the 
requirements under any newly proposed gaming facilities 
certainly is different from what previous sovereign nations had 
to comply with under previous Governors.
    It just seems to me that we would be a lot better off if in 
fact there was a clear understanding of how the states would 
move forward and determine that policy with the Secretary of 
Interior.
    The Chairman. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    I just want to clarify and sort of explore a little bit the 
point made by Representative Walden to Chairman Suppah. It is 
my understanding on this most recent draft that your current 
proposed application for Cascade Locks would not be eligible to 
go forward? Is that your reading of this draft of the bill if I 
understand it? Chairman, yes.
    Mr. Suppah. Would you please repeat the question, Mr. 
DeFazio?
    Mr. DeFazio. Sure. You have, as have been mentioned, a 
pending--your pending in the process with the Department of 
Interior regarding the potential for taking lands into trust, 
having a compact and putting a casino at the Cascade Locks 
site.
    The question is would this legislation, if adopted, 
preclude the completion of that process in this form, if it was 
adopted in this form?
    Mr. Suppah. Yes, it would. Because as Representative Walden 
had explained, it is kind of like changing the--moving the goal 
post just about when you are there. We have worked through a 
model process to get to where we are today. We have expended a 
lot of money. With any kind of changes like this, maybe just to 
take an example, Oregon has a law which authorizes the Governor 
to sign compacts on behalf of the State of Oregon.
    Now, if, for instance, they changed that and drafted 
legislation that would give more veto authority to more 
different places, then surely one of them is going to veto our 
project. So we are definitely concerned about that.
    Mr. DeFazio. And, in your reading of this new proposed 
draft, would your other site where you have historic lands in 
Hood River, would that be made ineligible or be subject to the 
new process as well in the same way?
    Mr. Suppah. In that case, that land is already in trust. It 
is pre-1988. It is eligible for a casino, and if the 
Confederated Tribes of Warm Springs chooses to pursue that, 
then that would be one of our fallback alternatives.
    Mr. DeFazio. OK.
    Mr. Suppah. But I think that as we lay out in compact and 
our participated agreements with say Cascade Locks and Hood 
River, we choose to not only consult with these--within the 
applicable law, and adhere to that, and respect the City of 
Hood River's objection to that, so I mean that would--that is 
not out of the scope of consideration for Warm Springs.
    Mr. DeFazio. Do any of the other witnesses have comments on 
how this draft would affect a pending application like this? I 
assume there may be others across the country that I am not 
aware of, and whether or not you believe that should be 
accommodated or whether you think the draft is adequate in that 
area. Any of the other witnesses want to get into that?
    Ms. Kennedy. Well, my only comment about whether or not the 
process would stop or hamper what is happening, I believe that 
the area as defined is unclear, and does need to be fleshed out 
more than it is right now. We are not real clear on what 
implication it may or may not have.
    Mr. DeFazio. OK. Anybody else?
    OK. Well, thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Marquez, do you think that reservations should have the 
right to tax the mineral deposits on their tribal lands?
    Mr. Marquez. The taxation with mineral rights as the 
government?
    Mr. Pearce. Sure. Historical on the minerals that are 
extracted from there?
    Mr. Marquez. Yes, sir.
    Mr. Pearce. And taxation on businesses----
    Mr. Marquez. Yes, sir.
    Mr. Pearce.--that operate on the reservation?
    Mr. Stevens, what about there is a growing trend among some 
states to use their resources and their location to go on to 
business to compete with private businesses. For instance, 
along interstates many times the land is an easement from the 
state, and so states are now going into the truck stop 
business, which is convenient. The competition has got to be 
back away from the highway.
    What would you feel like--what would be your opinion of 
states were to operate and open up say along an interstate, a 
Native American tribe with a fueling station, service station, 
truck stop, what if the state came in on state land right next 
to you and began to operate. Would you think you have a right 
to say anything or bring up a point about that?
    Mr. Stevens. I do not know if I understand the question. I 
think that----
    Mr. Pearce. Well, if someone is going to come in, for 
instance, say Mescalero Tribe is in our district, and they have 
a reservation that extends right up to the town of Ruidoso, and 
they have a large truck stop.
    What if we move them to an interstate highway, which they 
are not, but if they were, and a state used its size and 
largess to go in and create a competing fuel stop right next 
door, would you want to have input into the decision for them 
to locate right there and provide a completing place?
    Mr. Stevens. You know, I think the likelihood of that is--
--
    Mr. Pearce. No, I am just asking a hypothetical question 
because all the questions we are asking today is about off-
reservation gambling are still hypothetical, so we have to talk 
in hypotheticals.
    Would you or would you not----
    Mr. Stevens. I am going to ask Mr. Van Norman to respond to 
that.
    Mr. Van Norman. You know, I think very likely the tribes 
would want to have some kind of----
    Mr. Pearce. Sure, you would want to be consulted.
    Mr. Van Norman.--input, but I also think that it is fairly 
clear that we would not have many Federal law right to veto the 
use of state land outside the reservation.
    Mr. Pearce. But you would like to be consulted. So what 
would that consultation--I mean, if they would just listen to 
you and still went ahead with disregard for you, would that 
have an effect? And I will not make you answer that because I 
think it would have an effect.
    Now, then, when I go to page 4 of your testimony, Mr. 
Stevens, you say that--you are repeating the Section 20 
process, ``The tribal government should thoroughly consult with 
state and local officials.''
    Now, the local officials, you have been willing to 
acknowledge that state officials have some sovereignty but you 
kind of push the local officials away from the process and say, 
well, they should be subject to the state.
    And what does this consultation in your mind mean? What if 
you are going to move a casino into an off-reservation site, 
and it is going to severely impact, it is going to have a large 
impact, not severe, but a large impact on a local community, do 
you not think that there should be something, some right to 
consult and maybe even some right in the decisionmaking process 
because that is what is at stake here?
    Mr. Stevens. I think that there is and we have had 
extensive dialogue in all of our relationships with those 
local----
    Mr. Pearce. Through dialogue. But what if the local 
community says we do not want it, what happens? What happens if 
the local community say we do not want it, and you all think 
that you should have it?
    Mr. Stevens. Well, I think that we would deal with that 
through the state compacting process.
    Mr. Pearce. When we are talking, Mr. Stevens, about off-
reservation gambling, if a site is set up that--again I will 
look at my district. About 300 miles away from the tribe that 
is making the request and the site is set up for a tribal 
casino to operate, what would be the National Indian Gaming 
Association's perception about opening that spot up to some 
competing casinos? That is, if we are going to open it up, that 
all tribes should have a right to come in and open a casino 
there next to each other and compete. What would your opinion 
of that be?
    Mr. Stevens. In what location are you speaking to?
    Mr. Pearce. In any location across the country, just any 
location where we are going to acquire land off-reservation for 
gaming, what is the association's position going to be if we 
open that up to competing tribes to offer the best service 
there in that one spot?
    Mr. Stevens. I believe that is why we continue to advocate 
for the regulation process through the Section 20 through the 
Interior.
    Mr. Pearce. I see.
    Mr. Stevens. The Department develops those regulations, and 
I think that it obviously has to have a historical element.
    Mr. Pearce. OK. I just have one more question, Mr. 
Chairman. I see my time is gone. But Section 7, when we are 
talking about to--with regard to newly recognized, restored and 
landless tribes, now you may have a different perception of 
history than I have, but throughout all of history we have seen 
groups of people going in and take land away, and move. And so 
your statement says that those landless tribes should reacquire 
lands in the aboriginal or historic land areas but avoid any 
infringement on aboriginal land rights of nearby tribes.
    What do we do when one tribe says, you know, you are on the 
spot that we had, and you took it from us, what do we do in 
those--because I think we will want to get into a lot of this 
as we go into the landless tribe question and the acquiring of 
public land, and it is going to get right down to the Indian 
gaming because at some point there is going to be great 
competition among those people without casinos to get into the 
business of casinos because they are literally producing 
billions of dollars of net cash-flow. So it is a question that 
I know that we are going to see.
    Do you have an opinion about when there is a dispute with 
one landless tribe saying that tribe has got the land we used 
to have?
    Mr. Stevens. Again, I reiterate through that process, that 
that will be handled through that process.
    Mr. Pearce. Thank you, Mr. Chairman. Those are my 
questions.
    The Chairman. Mr. Inslee.
    Mr. Inslee. Thank you. I am sorry I was not able to be here 
at the beginning. Welcome, Chairman Barnett. We appreciate you 
coming all the way out. Hope you enjoyed the airline food.
    I just want to go across the panel if I can and just ask a 
simple question, whether IGRA needs to be reopened in general. 
You may have addressed this already, but I would just like to 
know everyone's perspective on that.
    Mr. Van Norman. Congressman, it is the position of the 
National Indian Gaming Association and the National Congress of 
American Indians by unanimous resolution that we are advocating 
that the Act not be open; that the process be handled through 
the current law.
    Mr. Inslee. If we can go down the row if that is polite.
    Mr. Suppah. Thank you. We are in concurrence with that 
statement.
    Mr. Marquez. I guess I will break the string here. I think, 
as we said back in July of 2004, and again on the Senate side, 
that the intents of the Indian Gaming Regulatory Act never 
contemplated the activity that we are doing with our ancestral 
lands in our back yards when you have tribes seeking to create 
reservations from many miles away.
    In my mind, we have yet to see activity that would help 
address this issue, and we believe, and again we understand 
fully that the mantra has always been do not open IGRA. But we 
contend that IGRA did not contemplate this activity. The soul, 
the spirit and the intent of IGRA did not contemplate this 
activity, and I cannot say it over and over again, but I will. 
And we cannot ask Congress to help us, and then turn around and 
say, oh, by the way, do not undo IGRA.
    Ms. Kennedy. We do support the opening IGRA. Initially we 
said no, but based on all of the unfoldings that are happening 
across Indian country, we do support it.
    Mr. Barnett. As you recall, Mr. Chairman, I have to say, 
you know, that we are in a probably unique situation of not 
signing the treaty, and we are landless. The exemptions in IGRA 
for restored lands and initial reservation are the only 
opportunities we have to establish ourselves.
    We certainly are recognized but have no land. And you know, 
to me it is a matter of equality. I do not think the situation 
is broken at all, but I think it needs maybe to be revised. I 
think reservation shopping needs to be addressed a lot more 
forcefully so that it does not, for instance, take in a tribe 
that wants to jump--like the gentleman said here--300 miles 
away and put in a casino. I mean, that is not the purpose of 
IGRA, I do not think.
    But the purpose should be to have equality for all tribes 
involved here whether you signed a treaty or not, and you know, 
we would ask this committee to think about that when you do 
come up with some type of changes to streamline and modify the 
process. Thank you.
    Mr. Inslee. There is discussion in the draft about inter-
tribal agreements, and I just--this is an open question to 
anyone who would like to respond. Do not tribes already have 
the sovereign authority to enter into inter-tribal agreements? 
And how would this be changed by this draft? If anyone wants to 
tackle that.
    Mr. Van Norman. Congressman, I would like to respond to 
that. I think it raises a legal question. And the situation as 
we believe that tribes do have the authority and a right to 
cooperate. We do have a situation with a couple of our member 
tribes where they are trying to cooperate, and they are running 
into a bureaucratic hold up, and we think that, you know, the 
National Indian Gaming Commission and the Department of 
Interior should cooperate to resolve that issue because inter-
tribal cooperation is a very positive thing.
    We also believe that there would be an opportunity, if they 
cannot do that, to have a separate legislation to provide for 
the inter-tribal cooperation.
    Mr. Inslee. I have a general question about getting in the 
market for gaming. There is probably no clear answer to this, 
but could you give us the feeling about the market of gaming? 
Is it saturated? Is it only half to what it will be in 10 
years? Is there any sense that it is becoming saturated in some 
places? Can you give us any assessment of that, to the best you 
can? Anyone who has an answer, I am welcome to any insights.
    Mr. Marquez. I think you are asking the $20 billion 
question about saturation. I think, especially in California, 
there is no way of telling what that saturation point is going 
to be.
    California is a little different because we are capped at a 
certain number of machines, but the market will bear what the 
market will bear, and to say it is going to saturate, we simply 
do not know. We can turn to Las Vegas and look at the 
operations in Las Vegas, and truly see that they have not yet 
hit their saturation point.
    I think gambling or gaming is a proliferation across this 
country, and we will see more and more of it, especially with 
New York and Pennsylvania coming online in their state gaming. 
So I think, especially in California, we have a long way to go 
before we start talking about saturation points.
    Mr. Inslee. Any other thoughts?
    Mr. Stevens. If I could, Congressman, I think that we 
continue to grow responsibly, I think that sometimes they use 
the term ``explosion'', and I do not think that is the case in 
Indian country. I think that, you know, as long as, you know, 
we look at the statistics and the American public supports our 
industry, and I think it will grow progressively, but I do not 
see a point for saturation in the near future, as long as we 
are careful and do a good job, which the Indian country is very 
committed to doing.
    Mr. Inslee. Great. And thank you and thanks to the industry 
for the Tulleeha Boys and Girls Club, one of the boys and girls 
club on a reservation. Thank you.
    The Chairman. I want to thank our panel of witnesses. I am 
going to excuse you at this point. There may be further 
questions that members of the Committee have, but they will be 
submitted to you in writing. If you can answer those in writing 
so that they can be included in the hearing record. Thank you 
very much for your testimony and for answering the questions.
    Mr. Van Norman. Thank you, Mr. Chairman.
    The Chairman. To call up our second panel of witnesses, 
Senator Steven Rauschenberger; Senator Mary Kay Papen; 
Supervisor Duane Kromm; and Supervisor Dianne Jacob.
    If I could have the second panel stand, and is customary on 
the Committee, we swear in all of our witnesses at our hearing, 
so if you would stand and raise your right hand.
    [Witnesses sworn.]
    The Chairman. Let the record show that they all indicated 
in the affirmative.
    Welcome to the Committee. As with the previous panel, your 
entire written statements will be included in the record. I 
would appreciate it if you would limit your oral testimony to 
the five minutes. The lights in front of you will indicate when 
your five minutes has expired.
    Senator, is it Rauschenberger? OK. We will then begin with 
you.

 STATEMENT OF SENATOR STEVEN J. RAUSCHENBERGER, ILLINOIS STATE 
       SENATE, NATIONAL CONFERENCE OF STATE LEGISLATURES

    Mr. Rauschenberger. Thank you. I will leave my written 
testimony for you to kind of review. Let me just say a couple 
of brief things and then be available for questions.
    Number one, I would like to commend the Chairman and the 
Committee. I think it is a very, very thoughtful effort to take 
up the fundamental question of who represents a state. When we 
are looking in particular at establishment of non-reservation 
tribal gaming, the idea that a Governor who in many ways is a 
temporal leader of the state would be the consulted person by 
the Department of the Interior rather than the legislature, 
which represents the people in general assembly in the states I 
think an error in the original drafting of IGRA, as you guys 
refer to it.
    So the idea of expanding that and requiring that the 
legislature be consulted, as we see Governors pass through 
difficult economic cycles, and we have heard some discussion 
about the questions in California. Governors, as I say, you 
know, represent temporary heads of states, where legislatures 
represent the people in Congress. So I think it is a very, very 
thoughtful improvement in the act.
    Recognizing that gaming is not only growing, it is growing 
in controversy across the states. In many states like Illinois 
also have state legalized licensed gaming, in those cases the 
State of Illinois is free as a sovereign state to decide to 
discontinue gaming in the future, expand gaming in the future, 
do as it regulates.
    In the case of non-reservation tribal gaming, if it were to 
be introduced in Illinois without consultation of the general 
assembly, that would be a perpetual right for that sovereign 
tribe to continue gaming regardless of what state regulation 
is.
    So again, I just think it is very thoughtful to kind of 
think through the relationships, that now that you have seen 
some of the earlier facts of IGRA, now that you are seeing, I 
think, some of the intents, influences of an industry that sees 
a lot of potential in places and would kind of like to work 
around the edges of sovereign general assemblies.
    So I appreciate being here and the opportunity to tell you 
I think in engaging and thinking about adding the general 
assemblies, the legislatures of the 50 states to the process, 
that is exceptionally good public policy, and thank you for 
giving me the opportunity to speak.
    [The prepared statement of Mr. Rauschenberger follows:]

         Statement of The Honorable Steven J. Rauschenberger, 
                    State Senator, State of Illinois

    Good morning. I wish to thank Chairman Pombo and Ranking Member 
Rahall for inviting me here today to testify on the proposed amendment 
language to the Indian Gaming Regulatory Act, or IGRA. I am here in my 
individual capacity as an Illinois Senator, and am not testifying in my 
capacity as the President of the National Conference of State 
Legislatures, which has not adopted a formal position on this matter.
    Current law, IGRA section 2719 (b)(1), provides one of several 
exceptions to the prohibition of Indian gaming on lands acquired in 
trust by the Secretary of the Interior. The (b)(1) exception states 
that Indian gaming can occur on land taken into trust where the 
Secretary of the Interior, after consultation with appropriate state 
and local officials, including officials of nearby Indian tribes 
determines that gaming would be in the best interest of that tribe. 
However, this determination must either follow a Governor's agreeing to 
the gaming proposal, or the lands on which the casino is to be located 
are taken into trust as part of a settlement of a land claim, are part 
of the initial reservation of an Indian tribe acknowledged by the 
Secretary under the federal acknowledgment process, or are the 
restoration of lands for an Indian tribe that is restored to federal 
recognition. Under the current process, the Secretary and the Governor 
may jointly decide whether a casino is or is not appropriate despite 
the opinions of state legislators who may not even be consulted. IGRA 
requires the Secretary to consult with ``state officials'' which may 
not be a state legislature. There is no mandatory requirement that the 
views of state legislators have any weight whatsoever in this 
determination. This current process is not an open and transparent one, 
but rather one that occurs behind closed doors without the benefit of 
public hearings and state legislative input.
    By contrast, the proposal before you this morning seeks to open up 
the process of Indian gaming approval by requiring not only the 
Governor of state in which the casino will be located to give his or 
her approval, but also requires the state legislature, counties and 
neighboring tribes to concur with the Secretary's decision on the 
appropriateness of the casino. I have no opinion on whether counties or 
neighboring tribes should be involved in this process, that decision is 
best left to county and tribal officials; however, I am very supportive 
of the inclusion of the state legislature in the process of determining 
whether a casino should be placed in my state, particularly in the 
instance where a non-resident tribe seeks permission to open a casino. 
In Illinois, four non-resident tribes have sought to do this in the 
last ten years. No Governor of Illinois has ever agreed to this type of 
proposal. However, there is an ever-present uncertainty with respect to 
how a particular governor would entertain these proposals. I should 
also note that state legislators are oftentimes much more accessible to 
the tribes and the general public than are governors, so the 
opportunity to have all concerns addressed with a proposed casino would 
be greater through the state legislative process.
    Including the state legislature in the decision as to whether or 
not to permit Indian casinos is extremely important to me for several 
reasons. First, our republican system of government, or representative 
democracy, vests the authority and responsibility to create sound 
public policy with the elected representative body, or state 
legislature. The governor, as the executive branch of state government, 
serves to implement the public policy decisions of the state 
legislature. It is through the state legislative process that state 
laws evolve and shape the overall direction a state takes on any given 
issue.
    Second, requiring the casino proposal to go through the state 
legislature eliminates ``closed door'' negotiations regarding the 
appropriateness of and the details concerning the placement and 
operation of Indian casinos. Some of the issues surrounding Indian 
gaming that have been negotiated out in the state/tribal compact 
process between the Governor and the tribe, but are actually ripe for 
legislative examination and consideration are revenue sharing, law 
enforcement and fire protection costs.
    Third, under the proposed bill, those tribes seeking to engage in 
gaming will have to present their proposal to the legislature in a 
public forum. The legislators will be able to explore and pose 
questions about the details of the proposed casino through the 
legislative hearing process. This last point in and of itself is very, 
very important to me as a state legislator. If an Indian casino was 
being considered in my state, I would want to explore the benefits and 
detriments of the project with relevant experts before deciding whether 
the project was right for Illinois. I would also want the general 
public to have an opportunity to attend an open hearing so they too 
would be aware of the proposal and its potential impact on local 
communities and the state. The bottom line is that this process should 
be an open and transparent one, and should include the opinions of 
state elected officials who will be dealing with the economic and 
social impacts of a casino. In addition, many states regulate gaming 
either by way of their constitutions or by state statute. Permitting 
state legislative input into this issue insures that state legislative 
intent is respected and upheld. I thank you for your time this morning, 
and I am happy to answer any questions you may have.
                                 ______
                                 
    The Chairman. Thank you. Senator Papen.

             STATEMENT OF SENATOR MARY KAY PAPEN, 
                    NEW MEXICO STATE SENATE

    Ms. Papen. Mr. Chairman, Members of the Committee, thank 
you for inviting me to testify before you today on an important 
issue of fairness and the rights of duly elected state 
officials.
    I am here to testify today in support of Chairman Pombo's 
second discussion draft of legislation regarding off-
reservation Indian gaming, and his intent to increase state and 
local input in the two-part determination process.
    I am a Democrat State Senator from southern New Mexico, and 
I have served in the state legislature for five years. Let me 
say at the onset that I support Indian gaming. Indian gaming 
generates tens of millions of dollars annually for the New 
Mexico Treasury. It has created jobs in casinos both on the 
reservation and off the reservation in supporting industries. 
It generates revenue for Native American governments that has 
been used to finance infrastructure and education, health care, 
and public safety programs on Indian reservations in New 
Mexico.
    I also support non-Indian gaming in New Mexico. For the 
purpose of my testimony today, I am not including machine 
gaming at fraternal clubs when I refer to non-Indian gaming in 
New Mexico.
    The horse racing industry and gaming machines at the tracks 
likewise generates tens of millions of dollars in revenue to 
the state, and it too has created jobs both at the tracks and 
in the supporting industries.
    The businessmen and women who operate New Mexico's tracks 
are good corporate citizens, donating generously of their time 
and money to worthy community causes.
    The Indian gaming and non-Indian gaming industries are good 
industries in New Mexico, providing jobs, entertainment and 
revenue to state and tribal governments and worthy causes. The 
Indian and non-Indian gaming industries co-exist in New Mexico 
in a delicate balance that includes and recognizes and respects 
Native American sovereignty, fair competition among business, 
and good business practices and regulation.
    It is true there are many different, important differences 
between Indian gaming and non-Indian gaming and the two are 
treated differently. Indian casinos in New Mexico offer gaming 
machines, table gaming, and can operate an unlimited number of 
gaming machines and are self-regulated.
    Racetracks are not allowed to offer table games, are 
limited in the number of machines they can operate, are limited 
in the times they can operate, and are connected to a central 
monitoring system which is overseen by the New Mexico Gaming 
Control Board.
    Racetracks pay a gaming tax of 26 percent on the net win 
from gaming machines, which is more than three times the 
revenue-sharing rate that Indian casinos pay on the net win 
from gaming machines. They additionally pay 20 percent of the 
net win to the Horsemen's purse fund, and one-quarter of one 
percent to gaming addiction funds.
    Part of this delicate balance is the understanding that 
Indian gaming will be conducted on Indian lands for the benefit 
of Indian tribes, and non-Indian gaming will be conducted at 
racetracks whose opening and sidings is regulated by the state. 
The possibility of an Indian tribe or Pueblo opening a casino 
off-reservation as if it were on the reservation threatens to 
upset this delicate balance by undermining its foundation of 
fairness. Simply put, it is unfair to allow an Indian tribe or 
Pueblo to compete with another business by opening casino that 
can offer more gaming machines, that can offer more table 
games, and shares eight percent of its net win with the state 
on its gaming machines only, they pay nothing on their table 
games compared to the 26 percent the racetracks pay.
    That is not fair and it is not good for the State of New 
Mexico.
    In the area of southern New Mexico that I represent, Jemez 
Pueblo and their non-Native American casino developer are 
proposing to construct a casino in the town of Anthony, which 
borders Texas. The proposed casino would be within just a few 
miles of an existing racetrack. Jemez Pueblo is located 
northwest of Albuquerque, approximately 300 miles from the 
proposed casino and their non-Native American developer partner 
lives approximately 360 miles from the proposed casino.
    The Pueblo and its non-Native American casino developer are 
saying that it is not economically feasible to build a casino 
on its reservation. They may or may not be right, but rest 
assured that this Jemez Pueblo proposal is highly controversial 
in my state. In fact, the largest Indian casino in New Mexico, 
Sandia Pueblo, has recently come out publicly opposing the 
Jemez Pueblo proposal and the president of the only Indian 
casino in southern New Mexico, the Mescalero Apache Tribe, 
voiced serious concerns and questions regarding the Jemez 
proposal in the recent public meeting. Our attorney general 
also opposes the Jemez proposal.
    The more important issue is whether Congress intended, when 
it enacted the Indian Gaming Regulatory Act, to allow Native 
Americas in concert with non-Native Americans to compete with 
existing gaming establishment, both Native American and non-
Native American, on more favorable terms and conditions.
    I suggest that was not Congress's intent. I believe 
Congress did not intend to allow non-Native Americans to open 
and operate any casinos on private land simply by shopping 
around for a tribe willing to co-venture. The situation I 
describe with the Jemez Pueblo is one of the most blatant 
examples of reservation shopping that exists today.
    I believe Congress wisely enacted IGRA to provide the 
tribes with the opportunity to raise revenue and to achieve 
economic success.
    It would be appropriate and fair and completely within 
IGRA's intent to prohibit Indian tribes that have Indian land 
from offering Indian gaming outside their reservations. At a 
minimum, IGRA should be amended to require that the approval of 
the state--not just the Governor--be required before an Indian 
casino opens outside the tribe's reservation.
    Additionally, requiring passage by county referendum allows 
the citizens most impacted by off-reservation casinos to have a 
voice. Just as IGRA allows each state to determine what 
constitutes the state's approval of Indian gaming compacts, so 
too should IGRA allow each state to determine the extent of 
off-reservation Indian gaming it wishes to approve, and not 
leave that decision solely to the Governor.
    For these reasons, I support the Chairman's bill and 
appreciate his efforts and the efforts of his colleagues to 
bring some reasonableness to this situation. I do believe that 
any changes to IGRA should include any application that is 
currently pending before the Department of the Interior and has 
not been acted upon by the Secretary of the Interior.
    This is an important issue and one that can be resolved 
fairly. Indian gaming and non-Indian gaming establishments 
should be allowed to compete and co-exist, but they should be 
allowed to do both fairly. Governors and legislatures should 
decide the extent and nature of off-reservation gaming within 
individual states--is my time up?
    The Chairman. Yes.
    Ms. Papen. Oh, I apologize.
    The Chairman. I am not the one ringing the bell. We just 
got called to vote. Your time has expired, but I did not push 
the button.
    Ms. Papen. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Papen follows:]

          Statement of The Honorable Mary Kay Papen, Senator, 
                  New Mexico State Senate, District 38

    Mr. Chairman, members of the committee, thank you for inviting me 
to testify before you today on an important issue of fairness and the 
rights of duly elected state officials.
    I am here to testify today in support of Chairman Pombo's Second 
Discussion Draft of Legislation Regarding Off-Reservation Indian Gaming 
and his intent to increase state and local input in the two-part 
determination process. I am a Democrat State Senator from southern New 
Mexico and have served in the state legislature for five years.
    Let me say at the outset that I support Indian gaming. Indian 
gaming generates tens of millions of dollars annually for the New 
Mexico treasury. It has created jobs in casinos, both on the 
reservation and off the reservation in supporting industries. It 
generates revenue for Native American governments that has been used to 
finance infrastructure and fund education, health care and public 
safety programs on Indian reservations in New Mexico.
    I also support non-Indian gaming in New Mexico. (For the purposes 
of my testimony today, I am not including machine gaming at fraternal 
clubs when I refer to non-Indian gaming in New Mexico.) The horse 
racing industry and gaming machines at the tracks likewise generates 
tens of millions of dollars in revenue for the state and it, too, has 
created jobs both at the tracks and in the supporting industries. The 
businessmen and women who operate New Mexico's tracks are good 
corporate citizens, donating generously of their time and money to 
worthy community causes.
    The Indian gaming and non-Indian gaming industries are good 
industries in New Mexico, providing jobs, entertainment and revenue to 
state and tribal governments and worthy causes. The Indian and non-
Indian gaming industries coexist in New Mexico in a delicate balance 
that includes, recognizes and respects Native American sovereignty, 
fair competition among businesses, and good business practices and 
regulation. It is true that there are important differences between 
Indian gaming and non-Indian gaming and the two are treated 
differently.
    Indian casinos in New Mexico offer gaming machines, table gaming 
and can operate an unlimited number of gaming machines and are self 
regulated. Racetracks are not allowed to offer table games, are limited 
in the number of machines they can operate, are limited in the times 
they can operate and are connected to a central monitoring system which 
is overseen by the New Mexico Gaming Control Board. Racetracks pay a 
gaming tax of 26% on the net win from gaming machines which is more 
than three times the revenue sharing rate that Indian casinos pay on 
the net win from gaming machines. They additionally pay 20% of the net 
win to the Horsemen's purse fund and one quarter of one percent to 
gaming addiction funds.
    Part of this delicate balance is the understanding that Indian 
gaming will be conducted on Indian lands for the benefit Indian tribes, 
and non-Indian gaming will be conducted at racetracks, whose opening 
and siting is regulated by the state. The possibility of an Indian 
tribe or Pueblo opening a casino off-reservation as if it were on the 
reservation threatens to upset this delicate balance by undermining its 
foundation of fairness. Simply put, it is unfair to allow an Indian 
tribe or Pueblo to compete with another business by opening a casino 
that can offer more gaming machines, that can offer table gaming and 
shares 8 percent of its net win with the state on its gaming machines 
only they pay nothing on their table games compared to the 26 percent 
that the horse racetracks pays to the state.
    That's just not fair and it is not good for the State of New 
Mexico.
    In the area of southern New Mexico that I represent, Jemez Pueblo 
and their non-Native American casino developer are proposing to 
construct a casino in the town of Anthony, which borders Texas. The 
proposed casino would be within just a few miles of an existing 
racetrack. Jemez Pueblo is located northwest of Albuquerque, 
approximately 300 miles from its proposed casino and their non-Native 
American developer partner lives approximately 360 miles from the 
proposed casino. The Pueblo and its non-Native American casino 
developer argue that it is not economically feasible to build a casino 
on its reservation. They may or may not be right but rest assured that 
this Jemez Pueblo proposal is highly controversial in my state. In 
fact, the largest Indian casino in New Mexico, Sandia Pueblo, has 
recently come out publicly opposing the Jemez Pueblo proposal and the 
President of the only Indian casino in Southern New Mexico, the 
Mescalero Apache Tribe, voiced ``serious concerns and questions'' 
regarding the Jemez proposal in a recent public meeting. Our Attorney 
General also opposes the Jemez proposal.
    The more important issue is whether Congress intended, when it 
enacted the Indian Gaming Regulatory Act (IGRA), to allow Native 
Americans in concert with non-Native Americans to compete with existing 
gaming establishments, both Native American and non-Native American, on 
more favorable terms and conditions. I'd suggest that was not Congress' 
intent. Congress did not intend to allow non-Native Americans to open 
and operate Indian casinos on private land simply by shopping around 
for a tribe willing to co-venture. The situation I described with the 
Jemez Pueblo is one of the most blatant examples of reservation 
shopping that exists today.
    I believe Congress wisely enacted IGRA to provide tribes with an 
opportunity to raise revenue and achieve economic success.
    It would be appropriate, fair and completely within IGRA's intent 
to prohibit Indian tribes that have Indian land from offering Indian 
gaming outside their reservations. At a minimum, IGRA should be amended 
to require that the approval of the ``state''--not just of the 
governor--be required before an Indian casino opens outside of the 
tribe's reservation. Additionally, requiring passage by county 
referendum allows the citizens most impacted by an off-reservation 
casino to have a voice. Just as IGRA allows each state to determine 
what constitutes state approval of Indian gaming compacts, so too 
should IGRA allow each state to determine the extent of off-reservation 
Indian gaming it wishes to approve, and not leave that decision solely 
to the governor. For these reasons, I support the Chairman's bill and 
appreciate his efforts and the efforts of his colleagues to bring some 
reasonableness to this situation. I do believe that any changes to IGRA 
should include any application that is currently pending before the 
Department of Interior that has not been acted upon by the Secretary of 
Interior.
    This is an important issue and one that can be resolved fairly. 
Indian gaming and non-Indian gaming establishments should be allowed to 
compete and coexist, but they should be allowed to do both fairly. 
Governors and legislatures should decide the extent and nature of off-
reservation gaming within individual states jointly as state laws 
provide. A public policy decision of this magnitude should include all 
its state elected officials with real input from the states' citizens.
    Mr. Chairman, members of the committee, thank you for this 
opportunity.
                                 ______
                                 
    The Chairman. Well, thank you.
    We have been called to a series of votes on the Floor. 
There are three votes. It should take about half an hour. I am 
going to temporarily recess the Committee and when we return we 
will hear from our other two witnesses, and I apologize to you 
for that, but I really do not have any control over that one, 
but thank you.
    [Recess.]
    The Chairman. I call the hearing back to order. I apologize 
to our witnesses for the delay. We were about to hear the 
testimony of Supervisor Kromm.
    Mr. Kromm. You are ready, I take it.
    The Chairman. We are ready.
    Mr. Kromm. I was joking. I feel like the field goal kicker 
that was put on ice.
    [Laughter.]

  STATEMENT OF SUPERVISOR DUANE KROMM, SOLANO COUNTY BOARD OF 
     SUPERVISORS, CALIFORNIA STATE ASSOCIATION OF COUNTIES

    Mr. Kromm. On behalf of the California State Association of 
Counties, or CSAC, I would like to thank Chairman Pombo, 
Ranking Member Rahall, and the other distinguished members of 
the Committee on Resources for giving us this opportunity to 
submit testimony regarding Chairman Pombo's revised draft 
legislation to restrict off-reservation gaming.
    I am Duane Kromm, District 3 Supervisor for Solano County, 
and a member of both the CSAC Indian Gaming Working Group, and 
the Northern California County's Tribal Matters Consortium. I 
am in my second term of office, and I am here today 
representing CSAC. But just as a brief aside, I have 
complimented on a couple of your staff, Chairman.
    We were here, our consortium was here back in March, and 
met with your staff and really encouraged this committee to 
take this show on the road. And when we were in Sacramento 
earlier this year, we appreciated that. As you saw, it was just 
a packed house. In Sacramento, you had multiple hearings on 
this bill.
    This is a process that I am not familiar with Federal 
legislation, but it strikes me as an incredibly open and 
engaging process, and we really appreciate that.
    CSAC is a single unified voice speaking on behalf of all 58 
California counties, and the issue raised in this hearing has a 
direct and unique bearing on counties, in our view more so than 
any other jurisdiction of local government.
    Counties are the level of government that are responsible 
for nearly 700 programs, and these include some of the 
following: county sheriffs, public health, fire protection, 
family support, alcohol and drug abuse rehabilitation, election 
and voter services, roads and bridges, welfare, probation, 
jails, flood control, indigent health, child and protective 
services. And I think all of these can potentially be impacted 
by Indian gaming.
    Throughout the State of California and the Nation tribal 
gaming has rapidly expanded, creating a myriad of economic, 
social, environmental, health, safety, and other impacts. The 
facts clearly show that the mitigation and cost of such impacts 
increasingly fall upon county government.
    Compounding this problem is the expansion of gaming that 
has led some tribes and their business partners to engage in a 
practice that is sometimes referred to as ``reservation 
shopping''. This is an attempt to acquire land not historically 
tied to these tribes but which has considerable economic 
potential as a site for an Indian casino.
    CSAC opposes reservation shopping. It is counter to the 
purposes of IGRA. Reservation shopping is an affront to those 
tribes who have worked responsibly with counties and other 
local governments on a government-to-government basis in 
compliance with the spirit and intent of IGRA as a means of 
achieving economic self-reliance and preserving their tribal 
heritage.
    CSAC's approach to Indian gaming is to support cooperative 
government-to-government relations with gaming tribes who 
follow the provision of IGRA and to seek a mechanism that 
allows local governments to work with tribes to mitigate any 
off-reservation impacts from proposed casinos.
    Examples of our approach are numerous in California where 
comprehensive agreements between tribes and counties each 
addressing the unique concerns of the tribe and county have 
been negotiated in the past few years.
    I want to quickly mention the model for negotiation between 
local governments and tribes provided by the state tribal 
compacts negotiated by the Schwarzenegger Administration.
    The results of this model has been improved government-to-
government relationships, and the successful incorporation of 
major gaming facilities in counties and communities.
    Now some specific comments on the draft legislation.
    First, the issue of majority vote in affected counties. 
Chairman Pombo has wisely addressed the concept of local 
control through the mechanism of a countywide majority vote. 
This represents a significant step in the right direction. 
However, it needs to be coupled with a mechanism to allow 
county and affected city governments to address and mitigate 
for the impact of casinos on affected communities, and engage 
with tribes on these issues.
    One possible solution is the California model of baseball 
style arbitration. This could be used as one means to address 
the local mitigation and tribal interest while still providing 
for a local community vote.
    Second, to the issue of consolidation of gaming among 
tribes. In regards to consolidation of gaming among tribes, 
CSAC is amenable to the concept. Because of our support for 
subjecting any tribal casino proposal to the statutory lands-
into-trust process, and input from the affected community, we 
would hope that your bill would continue to preclude the 
congregation of casinos on land that was taken into trust in a 
manner that does not meet this test.
    Additionally, one plan has been properly taken into trust. 
It is our opinion that the draft bill's countywide advisory 
vote provision should be applied whenever an inviting tribe has 
extended an offer to consolidate to another tribe or tribes.
    Last, if the affected county's residents vote in the 
affirmative, the invited tribe or tribes should also be subject 
to a mechanism requiring the tribes and the affected local 
governments to meet and confer to achieve a mutually acceptable 
resolution for impact mitigation.
    In conclusion, the Chairman's bill represents a significant 
contribution to the resolution of some of the biggest issues 
created by IGRA and its implementation, particularly off-
reservation casino proposals. CSAC believes that with necessary 
and appropriate revisions, such as allowing counties a voice on 
matters that impact the communities they serve, the Chairman's 
draft legislation would further the original goals of IGRA, and 
will also help to minimize abuses that have proven to be 
detrimental to those tribes in full compliance with all 
applicable Federal laws.
    In our written testimony, we touch on issues such as 
historical ties for taking lands into trust, and changes uses 
for trust lands, and we would welcome further discussion on 
these important issues as the draft legislation evolves.
    Thank you very much for allowing CSAC to participate in 
this important hearing.
    [The prepared statement of Mr. Kromm follows:]

Statement of Duane Kromm, Supervisor, Solano County, and Member, Indian 
     Gaming Working Group, California State Association of Counties

    On behalf of the California State Association of Counties (CSAC) I 
would like to thank Chairman Pombo, Ranking Member Rahall, and the 
other distinguished members of the Committee of Resources for giving us 
this opportunity to submit testimony as part of the hearing to consider 
Chairman Pombo's revised draft legislation to restrict off-Reservation 
gaming. I am Duane Kromm, District Three Supervisor for Solano County 
and a member of both the CSAC Indian Gaming Working Group and the 
Northern California Counties Tribal Matters Consortium.
    CSAC is the single, unified voice speaking on behalf of all 58 
California counties. The issue raised in this hearing has direct and 
unique bearing on counties, more so than any other jurisdiction of 
local government.
    There are two key reasons this issue is of heightened importance 
for California counties. First, counties are legally responsible to 
provide a broad scope of vital services for all members of their 
communities. Second, throughout the State of California and the nation, 
tribal gaming has rapidly expanded, creating a myriad of economic, 
social, environmental, health, safety, and other impacts. The facts 
clearly show that the mitigation and costs of such impacts increasingly 
fall upon county government.
    For the past three years, CSAC has devoted considerable staff time 
and financial resources to the impacts on county services resulting 
from Indian gaming. We believe that California counties and CSAC have 
developed an expertise in this area that may be of benefit to this 
Committee as it considers amendments to the Indian Gaming Regulatory 
Act.

Introduction:
    At the outset, the California State Association of Counties (CSAC) 
reaffirms its absolute respect for the authority granted to federally 
recognized tribes. CSAC also reaffirms its support for the right of 
Indian tribes to self-governance and its recognition of the need for 
tribes to preserve their tribal heritage and to pursue economic self-
reliance.
    However, CSAC maintains that existing laws fail to address the off-
reservation impacts of tribal land development, particularly in those 
instances when local land use and health and safety regulations are not 
being fully observed by tribes in their commercial endeavors. As we all 
know, these reservation commercial endeavors attract large volumes of 
visitors.
    Every Californian, including all tribal members, depend upon county 
government for a broad range of critical services, from public safety 
and transportation, to waste management and disaster relief.
    California counties are responsible for nearly 700 programs, 
including the following:

 
                 ,--                                   ,
 
    sheriff                            elections & voter services
    jails                              public health
    roads & bridges                    indigent health
    flood control                      fire protection
    welfare                            family support
    probation                          child & adult protective services
    alcohol & drug abuse
 rehabilitation
 

    Most of these services are provided to residents both outside and 
inside city limits. Unlike the exercise of land use control, such 
programs as public health, welfare, and jail services are provided (and 
often mandated) regardless of whether a recipient resides within a city 
or in the unincorporated area of the county. These vital public 
services are delivered to California residents through their 58 
counties. It is no exaggeration to say that county government is 
essential to the quality of life for over 35 million Californians. No 
other form of local government so directly impacts the daily lives of 
all citizens. In addition, because county government has very little 
authority to independently raise taxes and increase revenues, the 
ability to adequately mitigate reservation commercial endeavors is 
critical, or all county services can be put at risk.
    CSAC fully recognizes the counties' legal responsibility to 
properly provide for and protect the health, safety, and general 
welfare of the members of their communities. California counties' 
efforts in this regard have been significantly impacted by the 
expansion of Indian gaming.
    Certainly compounding this problem is the fact that the expansion 
in gaming has led some tribes and their business partners to engage in 
a practice that is sometimes referred to as ``reservation shopping'' in 
an attempt to acquire land not historically tied to these tribes but 
which has considerable economic potential as a site for an Indian 
casino. CSAC opposes ``reservation shopping'' as counter to the 
purposes of the Indian Gaming Regulatory Act (IGRA). ``Reservation 
shopping'' is an affront to those tribes who have worked responsibly 
with counties and local governments on a government-to-government basis 
in compliance with the spirit and intent of the IGRA as a means of 
achieving economic self-reliance and preserving their tribal heritage.
    CSAC commends Chairman Pombo and the other Members of the House 
Resources Committee for seeking to curb the increasing practice of 
``reservation shopping.'' This written testimony is in support of your 
efforts to craft amendments to the IGRA that preserve the original goal 
of the IGRA while minimizing the impacts of ``reservation shopping'' on 
local communities. CSAC offers its assistance to Chairman Pombo and the 
House Resources Committee in any manner determined necessary by the 
Chairman and the Committee in its ongoing consideration of amendments 
to the IGRA that balance the interests of gaming tribes with local 
communities and governments.

Background:
A. The Advent of Indian Gaming
    Even before the enactment of the IGRA in 1988, California counties 
were experiencing impacts in rural areas from Indian gaming 
establishments. These early establishments were places where Indian 
bingo was the primary commercial enterprise in support of tribal 
economic self-reliance. The impacts on local communities were not 
significant in large part because the facilities where Indian bingo was 
played were modest in size and did not attract large numbers of 
patrons. Following enactment of the IGRA, the impacts to counties from 
Indian gaming establishments increased with the advent of larger gaming 
facilities. Even so, the impacts to local communities from these larger 
gaming facilities were generally manageable except in certain 
instances.
    Over the last five years, the rapid expansion of Indian gaming in 
California has had profound impacts beyond the boundaries of tribal 
lands. Since 1999 and the signing of Compacts with approximately 69 
tribes and the passage of Propositions 5 and 1A (legalizing Indian 
gaming in California), the vast majority of California's counties 
either have a casino, a tribe petitioning for federal recognition, or 
is the target or focus of a proposed casino plan. As the Committee is 
aware, many pending casino proposals relate to projects on land far 
from a tribe's ancestral territory.
    A 2004 CSAC survey reveals that 53 active gaming operations exist 
in 26 of California's 58 counties. Another 33 gaming operations are 
being proposed. As a result, 35 counties out of 58 in California have 
active or proposed gaming. Most important, of those 35 counties 
impacted by Indian gaming, there are 82 tribes in those counties but 
only 20 local agreements for mitigation of the off-reservation impacts 
on services that counties are required to provide.

B. Development of CSAC 2003 Policy
    In 1999, California Governor Gray Davis and approximately 65 tribes 
entered into Tribal-State Compacts, which permitted each of these 
tribes to engage in Class III gaming on their trust lands. The 
economic, social, environmental, health, safety, traffic, criminal 
justice, and other impacts from these casino-style gaming facilities on 
local communities were significant, especially because these gaming 
facilities were located in rural areas. The 1999 Compacts did not give 
counties an effective role in mitigating off-reservation impacts 
resulting from Indian casinos. Consequently, mitigation of these 
impacts could not be achieved without the willingness of individual 
tribes to work with the local governments on such mitigation. Some 
tribes and counties were able to reach mutually beneficial agreements 
that helped to mitigate these impacts. Many counties were less than 
successful in obtaining the cooperation of tribes operating casino-
style gaming facilities in their unincorporated areas.
    The off-reservation impacts of current and proposed facilities led 
CSAC, for the first time, to adopt a policy on Indian gaming. In the 
fall of 2002, at its annual meeting, CSAC held a workshop to explore 
how to begin to address these significant impacts. As a result of this 
workshop, CSAC established an Indian Gaming Working Group to gather 
relevant information, be a resource to counties, and make policy 
recommendations to the CSAC Board of Directors on Indian gaming issues.
    CSAC's approach to addressing the off-reservation impacts of Indian 
gaming is simple: to work on a government-to-government basis with 
gaming tribes in a respectful, positive and constructive manner to 
mitigate off-reservation impacts from casinos, while preserving tribal 
governments' right to self-governance and to pursue economic self-
reliance.
    With this approach as a guide, CSAC developed a policy comprised of 
seven principles regarding State-Tribe Compact negotiations for Indian 
gaming, which was adopted by the CSAC Board of Directors on February 6, 
2003. The purpose of this Policy is to promote tribal self-reliance 
while at the same time promoting fairness and equity, and protecting 
the health, safety, environment, and general welfare of all residents 
of the State of California and the United States. A copy of this Policy 
is attached to this written testimony as Attachment A.

C. Implementation of CSAC's 2003 Policy
    Following adoption by CSAC of its 2003 Policy, the Indian Gaming 
Working Group members met on three occasions with a three-member team 
appointed by Governor Davis to renegotiate existing Compacts and to 
negotiate with tribes who were seeking a compact for the first time. As 
a result of these meetings, three new State-Tribe Compacts were 
approved for new gaming tribes. These new Compacts differed from the 
1999 Compacts in that the 2003 Compacts gave a meaningful voice to the 
affected counties and other local governments to assist them in seeking 
tribal cooperation and commitment to addressing the off-reservation 
environmental impacts of the Indian casinos that would be built 
pursuant to those Compacts.

Illustrations of Successful County/Tribal Cooperation
    There are many examples of California counties working 
cooperatively with tribes on a government-to-government basis on all 
issues of common concern to both governments, not just gaming-related 
issues. Yolo County has a history of working with Rumsey Band of Wintun 
Indians to ensure adequate services in the area where the casino is 
operating. In addition, Yolo County has entered into agreements with 
the tribe to address the impacts created by tribal projects in the 
county.
    In Southern California, San Diego County has a history of tribes 
working with the San Diego County Sheriff to ensure adequate law 
enforcement services in areas where casinos are operating. In addition, 
San Diego County has entered into agreements with four tribes to 
address the road impacts created by casino projects. Further, a 
comprehensive agreement was reached with the Santa Ysabel Tribe 
pursuant to the 2003 Compact with the State of California.
    Humboldt, Placer, and Colusa Counties and tribal governments have 
agreed similarly on law enforcement-related issues. Humboldt County 
also has reached agreements with tribes on a court facility/sub 
station, a library, road improvements, and on a cooperative approach to 
seeking federal assistance to increase water levels in nearby rivers.
    In central California, Madera and Placer Counties have reached more 
comprehensive agreements with the tribes operating casinos in their 
communities. These comprehensive agreements provide differing 
approaches to the mitigation of off-reservation impacts of Indian 
casinos, but each is effective in its own way to address the unique 
concerns of each gaming facility and community.
    After a tribe in Santa Barbara County completed a significant 
expansion of its existing casino, it realized the need to address 
ingress and egress, and flood control issues. Consequently, Santa 
Barbara County and the tribe negotiated an enforceable agreement 
addressing these limited issues in the context of a road widening and 
maintenance agreement. Presently, there is no authority that requires 
the County of Santa Barbara or its local tribe to reach agreements. 
However, both continue to address the impacts caused by the tribe's 
acquisition of trust land and development on a case-by-case basis, 
reaching intergovernmental agreements where possible.
    The agreements in each of the above counties were achieved only 
through positive and constructive discussions between tribal and county 
leaders. It was through these discussions that each government gained a 
better appreciation of the needs and concerns of the other government. 
Not only did these discussions result in enforceable agreements for 
addressing specific impacts, but enhanced respect and a renewed 
partnership also emerged, to the betterment of both governments, and 
tribal and local community members.

Illustrations of Continued Problems Addressing Casino Impacts
    On the other hand, there are examples of Indian casinos and 
supporting facilities where a tribal government did not comply with the 
requirements of the IGRA or the 1999 Compacts. In Mendocino County, a 
tribe built and operated a Class III gaming casino for years without 
the requisite compact between it and the California Governor. In Sonoma 
County, a tribe decimated a beautiful hilltop to build and operate a 
tent casino that the local Fire Marshal determined lacked the necessary 
ingress and egress for fire safety.
    In other California counties, tribes circumvented or ignored 
requirements of the IGRA or the 1999 Compacts prior to construction of 
buildings directly related to Indian gaming. In San Diego County there 
have been impacts to neighboring water wells that appear to be directly 
related to a tribe's construction and use of its water well to irrigate 
a newly constructed golf course adjoining its casino, and several other 
tribal casino projects have never provided mitigation for the 
significant traffic impacts caused by those projects.
    In 2004, the focus of CSAC on seeking mechanisms for working with 
gaming tribes to address off-reservation impacts continued. Since that 
time, Governor Schwarzenegger and several tribes negotiated amendments 
to the 1999 Compacts, which lifted limits on the number of slot 
machines, required tribes to make substantial payments to the State, 
and incorporated most of the provisions of CSAC's 2003 Policy. Of 
utmost importance to counties was the requirement in each of these 
newly amended Compacts that each tribe be required to negotiate with 
the appropriate county government to develop local agreements for the 
mitigation of the impacts of casino projects, and that these agreements 
are judicially enforceable. Where a tribe and county cannot reach a 
mutually beneficial binding agreement, ``baseball style'' arbitration 
will be employed to determine the most appropriate method for 
mitigating the impacts.

D. The Advent of ``Reservation Shopping'' in California
    The problems with the original 1999 Compacts remain largely 
unresolved, as most existing Compacts were not renegotiated. These 
Compacts allow tribes to develop two casinos and do not restrict casino 
development to areas within a tribe's current trust land or historical 
ancestral territory. For example, in the Fall of 2002 a Lake County 
band of Indians was encouraged by East Coast developers to pursue 
taking into a trust land in Yolo County for use as a site of an Indian 
casino. The chosen site was across the Sacramento River from downtown 
Sacramento and was conveniently located near a freeway exit. The actual 
promoters of this effort were not Native Americans and had no intention 
of involving tribal Band members in the operation and management of the 
casino. In fact, one promoter purportedly bragged that no Indian would 
ever be seen on the premises.
    In rural Amador County, starting in 2002 and continuing to the 
present, a tribe being urged on by another out-of-State promoter is 
seeking to have land near the small town of Plymouth taken into trust 
for a casino. The tribe has no historical ties to the Plymouth 
community. The effort by this tribe and its non-Native American 
promoter has created a divisive atmosphere in the local community. That 
new casino is not the only one being proposed in the County; a second, 
very controversial new casino is being promoted by a New York developer 
for a three-member tribe in a farming and ranching valley not served 
with any water or sewer services, and with access only by narrow County 
roads. The development of these casinos would be an environmental and 
financial disaster for their neighbors and the County, which already 
has one major Indian casino.
    In the past two years in Contra Costa County, there have been 
varying efforts by three tribes to engage in Indian gaming in this 
highly urbanized Bay Area county. The possibility of significant 
economic rewards from operating urban casinos has eclipsed any 
meaningful exploration of whether these tribes have any historical 
connection to the area in which they seek to establish gaming 
facilities.
    In addition, in 2004, California counties faced a new issue 
involving tribes as a result of non-gaming tribal development projects. 
In some counties land developers were seeking partnerships with tribes 
in order to avoid local land use controls and to build projects that 
would not otherwise be allowed under local land use regulation. In 
addition, some tribes were seeking to acquire land outside their 
current trust land or their legally recognized aboriginal territory and 
to have that land placed into federal trust, beyond the reach of a 
county's land use jurisdiction.

CSAC's 2004 Policy Regarding Development of Tribal Lands
    To address these issues, the CSAC Board of Directors adopted a 
Revised Policy Regarding Development on Tribal Lands on November 18, 
2004 (attached as Attachment B). The Revised Policy reaffirms that:
    <bullet>  CSAC supports cooperative and respectful government-to-
government relations that recognize the interdependent role of tribes, 
counties and other local governments to be responsive to the needs and 
concerns of all members of their respective communities.
    With respect to the issues specifically now before the Committee 
the following new Revised Policies apply:
    <bullet>  CSAC supports federal legislation to provide that lands 
are not to be placed in trust and removed from the land use 
jurisdiction of local governments without the consent of the State and 
affected County.
    <bullet>  CSAC opposes the practice commonly referred to as 
``reservation shopping'' where a tribe seeks to place lands in trust 
outside its proven aboriginal territory over the objection of the 
affected County.

Importance of County Involvement in Developing Mitigation:
    The history and examples provided above illustrate the need for 
counties to be involved in developing appropriate off-reservation 
mitigations related to Indian casino activities. There is not yet a 
definitive study on the impacts of gaming on local communities. 
However, in those counties that are faced with large gaming projects, 
it is clear that the impacts on traffic, water/wastewater, the criminal 
justice system and social services are significant. For non-Indian 
casinos it is estimated that for every dollar a community collects from 
gambling-related taxes, it must spend three dollars to cover new 
expenses, including police, infrastructure, social welfare and 
counseling services. <SUP>1</SUP> As local communities cannot tax 
Indian operations, or the related hotel and other services that would 
ordinarily be a source of local government income, the negative impact 
of such facilities can even be greater. This is one reason that CSAC 
sought amendments to California Tribal-State Compacts to ensure that 
the off-reservation environmental and social impacts of gaming were 
fully mitigated and that gaming tribes paid their fair share for county 
services.
---------------------------------------------------------------------------
    \1\ Cabazon, The Indian Gaming Regulatory Act, and the 
Socioeconomic Consequences of American Indian Governmental Gaming--A 
Ten Year Review by Jonathon Taylor and Joseph Kalt of the Harvard 
Project on American Indian Economic Development (2005) at p. 9 (citing 
Sen. Frank Padavan, Rolling the Dice: Why Casino Gambling is a Bad Bet 
for New York State at ii (1994).
---------------------------------------------------------------------------
    In 2003, CSAC took a ``snapshot'' of local impacts by examining 
information provided by eight of the then twenty-six counties (the only 
counties that had conducted an analysis of local government fiscal 
impacts) where Indian gaming facilities operated. <SUP>2</SUP> The 
total fiscal impact to those eight counties was approximately $200 
million, including roughly $182 million in one-time costs and $17 
million in annual costs. If these figures were extrapolated to the rest 
of the state, the local government fiscal costs could well exceed $600 
million in one-time and on-going costs for road improvements, health 
services, law enforcement, emergency services, infrastructure 
modifications, and social services.
---------------------------------------------------------------------------
    \2\ CSAC Fact Sheet on Indian Gaming in California (11/5/03) 
(attached as Attachment C.)
---------------------------------------------------------------------------
    Even when a particular gaming facility is within a City's 
jurisdictional limits, the impacts on County government and services 
may be profound. Counties are the largest political subdivision of the 
state having corporate authority and are vested by the Legislature with 
the powers necessary to provide for the health and welfare of the 
people within their borders. Counties are responsible for a countywide 
justice system, social welfare, health and other services. The 
California experience has also made clear that particularly large 
casino facilities have impacts beyond the immediate jurisdiction in 
which they operate. Attracting many thousands of car trips per day, 
larger facilities cause traffic impacts throughout a local 
transportation system. Similarly, traffic accidents, crime and other 
problems sometimes associated with gaming are not isolated to a casino 
site but may increase in surrounding communities.
    As often the key political entity and service provider in the area, 
with a larger geographic perspective and land use responsibility, 
county involvement is critical to ensure that the needs of the 
community are met and that any legitimate tribal gaming proposal is 
ultimately successful and accepted. Local approval and mechanisms that 
create opportunities for negotiation are necessary to help insure a 
collaborative approach with tribes in gaming proposals and to support 
the long-range success of the policies underlying the IGRA.

Comments on Draft Legislation:
    CSAC fully understands that addressing the impacts pf Indian 
casinos has been a contentious subject in some California communities. 
In an attempt to minimize this contentiousness, CSAC has focused on 
resolutions that show proper respect for all governments with roles in 
Indian gaming. Ultimately, as described in previous pages, the two most 
involved governments are tribal governments and county governments.
    The overwhelming majority of Indian casinos are in rural areas. 
Accordingly, county governments are those local governments in 
California who find themselves most often in the position of needing to 
address off-reservation impacts from Indian casinos. Current federal 
law does not provide counties an effective role in working with tribes 
to address off-reservation impacts from Indian gaming.
    In California, through the most recent State-Tribal Compacts 
negotiated by the Schwarzenegger Administration, counties and other 
local governments have been provided an appropriate opportunity to work 
with gaming tribes to address off-reservation impacts. The result has 
been improved government-to-government relationships between tribes and 
county governments and the smooth incorporation of major gaming 
facilities into counties and communities.
    Also in the vein of improved relationships, CSAC recently worked 
with several tribes to stage a day-long forum on ``Government-to-
Government Relationships: A Forum on Indian Gaming,'' which was very 
well attended and featured topics such as negotiating memorandums of 
understanding, implementing public safety protocols, and additional 
opportunities for tribes and local governments to work collaboratively. 
This and other recent events demonstrate that, contrary to possible 
fears of tribal leaders, local governments have not acted arbitrarily 
or capriciously in their dealings with tribes. In fact, the improved 
relationships are the result of each government gaining a better 
understanding of the responsibilities and needs of the other.
    Because we in California have several positive examples of counties 
and tribes working together for the betterment of their respective 
communities, CSAC supports Chairman Pombo's efforts to address the 
practice of ``reservation shopping,'' but is concerned that the second 
version of the draft legislation does not take into account the 
jurisdiction, expertise, and interests of county governments in 
situations where tribes choose to consolidate gaming operations.

Majority Vote in Affected Counties
    While the gaming consolidation idea outlined in the second draft of 
the legislation is amenable to county governments, the concept of ``a 
majority vote in a county or parish referendum,'' while fulfilling the 
letter of ``local control'' regarding proposed gaming facilities, 
represents merely a positive or negative vote on the project while 
providing no mechanism to address the impacts of such casinos. As 
mentioned above, the recent Schwarzenegger Compacts in California 
provide just such a mechanism by requiring tribes and counties to 
negotiate and develop plans for reasonable mitigation of impacts from 
gaming facilities. Further, the Schwarzenegger Compacts enforce 
``baseball style'' arbitration in the event that counties and tribes 
are unable to reach a compromise, which also encourages both parties to 
work together.
    While a countywide vote of the people is an important component in 
the process of any proposed gaming facilities, CSAC is concerned that 
it does not create a sufficient impetus to cause affected counties and 
tribes to meet and confer to achieve a mutually acceptable resolution 
for impact mitigation. Through analysis of these issues, CSAC has 
learned that such an impetus only occurs when both a county and a tribe 
have something to gain from such a resolution-driven process, and 
something to lose if they do not participate in such a process, either 
at all or in good faith.
    We strongly urge Chairman Pombo to include a mechanism in the draft 
legislation that requires local governments and all tribes, including 
invited tribes, to negotiate mitigation agreements to ensure that the 
interests of tribes, local governments, and affected communities are 
adequately met.

Newly Recognized, Restored, and Landless Tribes
    CSAC endorses Chairman Pombo's efforts to clarify how and where 
newly recognized, restored, and landless tribes acquire lands in trust 
for gaming purposes. The Chairman's effort to first ascertain a tribe's 
geographic and historical ties to a particular area of the State makes 
abundant sense. This approach recognizes that when a tribe has 
geographic and historical ties to a community, a precedential effect to 
those ties is warranted. Without those geographic and historical ties, 
a tribe is no different than any other developer in seeking an economic 
opportunity on lands that were not part of its heritage.

Consolidation of Gaming Among Tribes
    CSAC does not oppose the concept of gaming consolidation among 
tribes, and supports the language reaffirming the fact that all Indian 
gaming operations must take place only on lands deemed suitable for 
such operations in accordance with IGRA. However, based on its 
experiences with Indian gaming issues, CSAC believes that more details 
are needed. CSAC has several recommendations on how to clarify this 
provision:
    <bullet>  Consolidated gaming operations must be limited to a 
tribe's trust lands, and tribes should not be permitted to merge their 
separate trust lands.
    <bullet>  In states where such agreements between tribes are 
implemented, Indian gaming should not be permitted on land not already 
held in trust by the federal government at the time this amendment is 
adopted, unless the tribe and affected state and local jurisdictions 
agree in writing that any unavoidable significant adverse impacts will 
be fully mitigated by the tribe.
    <bullet>  In application of Section (b)(1)(E), the countywide 
advisory vote should be applied whenever an inviting tribe has extended 
an offer to consolidate to another tribe or tribes.
    <bullet>  If the affected county's residents vote in the 
affirmative, the invited tribe(s) should also be subject to a mechanism 
requiring the tribes and affected local governments to meet and confer 
to achieve a mutually acceptable resolution for impact mitigation.
    <bullet>  The location of such gaming facilities should take into 
account the impact that the operations could have on existing 
commercial endeavors.

Primary Geographic, Social and Historical Nexus
    When the phrase ``primary geographic, social and historical nexus'' 
is used in this bill, CSAC recommends that it be based on objective 
facts that are generally acceptable to practicing historians, 
archeologists, and anthropologists. If there is a question by a tribal, 
state or local government as to whether the nexus has been established, 
the bill should provide for a judicial determination in either federal 
or state court on the issue, where the tribe would have the burden of 
showing the requisite nexus by a preponderance of evidence. This would 
provide a credible mechanism for determining a tribe's primary 
geographic, social and historical nexus and allow for judicial review 
of the facts in cases of doubt.

Suggested Revisions and Clarifications
    In previous testimony, CSAC has requested that language be added to 
the draft language to give certainty to the date that the amendment 
would become applicable so that, for example, federal agencies would 
know whether a tribe's trust application filed before the effective 
date of the amendment, but approved after the effective date, would be 
subject to the amendment's requirements. The second revised version 
does include such language, and we are grateful to the Chairman for 
considering our concerns in this area.

Conclusion:
    CSAC presents this written testimony to assist the Chairman and 
Committee Members in their efforts to amend the IGRA and address the 
increasing practice of ``reservation shopping.'' In California, the 
Chairman's bill--with necessary and appropriate revisions--must allow 
counties a voice in matters that create impacts that the County will 
ultimately be called upon by its constituents to address. This voice is 
critical if California counties are to protect the health and safety of 
their citizens. Otherwise, counties find themselves in a position where 
their ability to effectively address the off-reservation impacts from 
Indian gaming is extremely limited and dependent on the willingness of 
individual tribes to mitigate such impacts.
    In those instances in California where tribal governments and 
counties have met to work together to resolve issues of concern to each 
government, responsible decisions have been made by both governments to 
the benefit of both tribal members and local communities. Enactment of 
this draft legislation should seek to create a mechanism and increased 
opportunities for these governments to work together. Such a mechanism 
would further the original goals of the IGRA while also helping to 
minimize the abuses of the IGRA that have proven to be detrimental to 
those tribes in full compliance with all applicable federal laws.
    We wish to thank Chairman Pombo and members of the Committee for 
their consideration and acknowledgment of the impact of this important 
issue on the counties of California. We look forward to continue 
working together to ensure the best possible outcome for all tribes, 
local governments, and communities.
                                 ______
                                 
                             ATTACHMENT A:

 CSAC POLICY DOCUMENT REGARDING COMPACT NEGOTIATIONS FOR INDIAN GAMING

Adopted by the CSAC Board of Directors
February 6, 2003

    In the spirit of developing and continuing government-to-government 
relationships between federal, tribal, state, and local governments, 
CSAC specifically requests that the State request negotiations with 
tribal governments pursuant to section 10.8.3, subsection (b) of the 
Tribal-State Compact, and that it pursue all other available options 
for improving existing and future Compact language.
    CSAC recognizes that Indian Gaming in California is governed by a 
unique structure that combines federal, state, and tribal law. While 
the impacts of Indian gaming fall primarily on local communities and 
governments, Indian policy is largely directed and controlled at the 
federal level by Congress. The Indian Gaming Regulatory Act of 1988 is 
the federal statute that governs Indian gaming. The Act requires 
compacts between states and tribes to govern the conduct and scope of 
casino-style gambling by tribes. Those compacts may allocate 
jurisdiction between tribes and the state. The Governor of the State of 
California entered into the first Compacts with California tribes 
desiring or already conducting casino-style gambling in September 1999. 
Since that time tribal gaming has rapidly expanded and created a myriad 
of significant economic, social, environmental, health, safety, and 
other impacts.
    CSAC believes the current Compact fails to adequately address these 
impacts and/or to provide meaningful and enforceable mechanisms to 
prevent or mitigate impacts. The overriding purpose of the principles 
presented below is to harmonize existing policies that promote tribal 
self-reliance with policies that promote fairness and equity and that 
protect the health, safety, environment, and general welfare of all 
residents of the State of California and the United States. Towards 
that end, CSAC urges the State to consider the following principles 
when it renegotiates the Tribal-State Compact:
    1.  A Tribal Government constructing or expanding a casino or other 
related businesses that impact off-reservation <SUP>3</SUP> land will 
seek review and approval of the local jurisdiction to construct off-
reservation improvements consistent with state law and local ordinances 
including the California Environmental Quality Act with the tribal 
government acting as the lead agency and with judicial review in the 
California courts.
---------------------------------------------------------------------------
    \3\ As used here the term ``reservation'' means Indian Country 
generally as defined under federal law, and includes all tribal land 
held in trust by the federal government. 18 U.S.C. Sec. 1151.
---------------------------------------------------------------------------
    2.  A Tribal Government operating a casino or other related 
businesses would mitigate all off-reservation impacts caused by that 
business. In order to ensure consistent regulation, public 
participation, and maximum environmental protection, Tribes will 
promulgate and publish environmental protection laws that are at least 
as stringent as those of the surrounding local community and comply 
with the California Environmental Quality Act with the tribal 
government acting as the lead agency and with judicial review in the 
California courts.
    3.  A Tribal Government operating a casino or other related 
businesses will be subject to the authority of a local jurisdiction 
over health and safety issues including, but not limited to, water 
service, sewer service, fire inspection and protection, rescue/
ambulance service, food inspection, and law enforcement, and reach 
written agreement on such points.
    4.  A Tribal Government operating a casino or other related 
businesses would pay to the local jurisdiction the Tribe's fair share 
of appropriate costs for local government services. These services 
include, but are not limited to, water, sewer, fire inspection and 
protection, rescue/ambulance, food inspection, health and social 
services, law enforcement, roads, transit, flood control, and other 
public infrastructure. Means of reimbursement for these services 
include, but are not limited to, payments equivalent to property tax, 
sales tax, transient occupancy tax, benefit assessments, appropriate 
fees for services, development fees, and other similar types of costs 
typically paid by non-Indian businesses.
    5.  The Indian Gaming Special Distribution Fund, created by section 
5 of the Tribal-State Compact will not be the exclusive source of 
mitigation, but will ensure that counties are guaranteed funds to 
mitigate off-reservation impacts caused by tribal gaming.
    6.  To fully implement the principles announced in this document 
and other existing principles in the Tribal-State compact, Tribes would 
meet and reach a judicially enforceable agreement with local 
jurisdictions on these issues before a new compact or an extended 
compact becomes effective.
    7.  The Governor should establish and follow appropriate criteria 
to guide the discretion of the Governor and the Legislature when 
considering whether to consent to tribal gaming on lands acquired in 
trust after October 17, 1988 and governed by the Indian Gaming 
Regulatory Act. 25 U.S.C. Sec. 2719. The Governor should also establish 
and follow appropriate criteria/guidelines to guide his participation 
in future compact negotiations.
                                 ______
                                 
                             ATTACHMENT B:
   CSAC REVISED POLICY DOCUMENT REGARDING DEVELOPMENT ON TRIBAL LANDS

Adopted by CSAC Board of Directors
November 18, 2004

Background
    On February 6, 2003, CSAC adopted a policy, which urged the State 
of California to renegotiate the 1999 Tribal-State Compacts, which 
govern casino-style gambling for approximately 65 tribes. CSAC 
expressed concern that the rapid expansion of Indian gaming since 1999 
created a number of impacts beyond the boundaries of tribal lands, and 
that the 1999 compacts failed to adequately address these impacts. The 
adopted CSAC policy specifically recommended that the compacts be 
amended to require environmental review and mitigation of the impacts 
of casino projects, clear guidelines for county jurisdiction over 
health and safety issues, payment by tribes of their fair share of the 
cost of local government services, and the reaching of enforceable 
agreements between tribes and counties on these matters.
    In late February, 2003, Governor Davis invoked the environmental 
issues re-opener clause of the 1999 compacts and appointed a three 
member team, led by former California Supreme Court Justice Cruz 
Reynoso, to renegotiate existing compacts and to negotiate with tribes 
who were seeking a compact for the first time. CSAC representatives had 
several meetings with the Governor's negotiating team and were pleased 
to support the ratification by the Legislature in 2003 of two new 
compacts that contained most of the provisions recommended by CSAC. 
During the last days of his administration, however, Governor Davis 
terminated the renegotiation process for amendments to the 1999 
compacts.
    Soon after taking office, Governor Schwarzenegger appointed former 
Court of Appeal Justice Daniel Kolkey to be his negotiator with tribes 
and to seek amendments to the 1999 compacts that would address issues 
of concern to the State, tribes, and local governments. Even though 
tribes with existing compacts were under no obligation to renegotiate, 
several tribes reached agreement with the Governor on amendments to the 
1999 compacts. These agreements lift limits on the number of slot 
machines, require tribes to make substantial payments to the State, and 
incorporate most of the provisions sought by CSAC. Significantly, these 
new compacts require each tribe to negotiate with the appropriate 
county government on the impacts of casino projects, and impose binding 
``baseball style'' arbitration on the tribe and county if they cannot 
agree on the terms of a mutually beneficial binding agreement. Again, 
CSAC was pleased to support ratification of these compacts by the 
Legislature.
    The problems with the 1999 compacts remain largely unresolved, 
however, since most existing compacts have not been renegotiated. These 
compacts allow tribes to develop two casinos, expand existing casinos 
within certain limits, and do not restrict casino development to areas 
within a tribe's current trust land or legally recognized aboriginal 
territory. In addition, issues are beginning to emerge with non-gaming 
tribal development projects. In some counties, land developers are 
seeking partnerships with tribes in order to avoid local land use 
controls and to build projects, which would not otherwise be allowed 
under the local land use regulations. Some tribes are seeking to 
acquire land outside their current trust land or their legally 
recognized aboriginal territory and to have that land placed into 
federal trust and beyond the reach of a county's land use jurisdiction.
    CSAC believes that existing law fails to address the off-
reservation impacts of tribal land development, particularly in those 
instances when local land use and health and safety regulations are not 
being fully observed by tribes in their commercial endeavors. The 
purpose of the following Policy provisions is to supplement CSAC's 
February 2003 adopted policy through an emphasis for counties and 
tribal governments to each carry out their governmental 
responsibilities in a manner that respects the governmental 
responsibilities of the other.

Policy
    CSAC supports cooperative and respectful government-to-government 
relations that recognize the interdependent role of tribes, counties 
and other local governments to be responsive to the needs and concerns 
of all members of their respective communities.
    CSAC recognizes and respects the tribal right of self-governance to 
provide for the welfare of its tribal members and to preserve 
traditional tribal culture and heritage. In similar fashion, CSAC 
recognizes and respects the counties' legal responsibility to provide 
for the health, safety, environment, infrastructure, and general 
welfare of all members of their communities.
    CSAC also supports Governor Schwarzenegger's efforts to continue to 
negotiate amendments to the 1999 Tribal-State Compacts to add 
provisions that address issues of concern to the State, tribes, and 
local governments. CSAC reaffirms its support for the local government 
protections in those Compact amendments that have been agreed to by the 
State and tribes in 2004.
    CSAC reiterates its support of the need for enforceable agreements 
between tribes and local governments concerning the mitigation of off-
reservation impacts of development on tribal land <SUP>4</SUP>. CSAC 
opposes any federal or state limitation on the ability of tribes, 
counties and other local governments to reach mutually acceptable and 
enforceable agreements.
---------------------------------------------------------------------------
    \4\ As used here the term ``tribal land'' means trust land, 
reservation land, Rancheria land, and Indian Country as defined under 
federal law.
---------------------------------------------------------------------------
    CSAC supports legislation and regulations that preserve--and not 
impair--the abilities of counties to effectively meet their 
governmental responsibilities, including the provision of public 
safety, health, environmental, infrastructure, and general welfare 
services throughout their communities.
    CSAC supports federal legislation to provide that lands are not to 
be placed into trust and removed from the land use jurisdiction of 
local governments without the consent of the State and the affected 
county.
    CSAC opposes the practice commonly referred to as ``reservation 
shopping'' where a tribe seeks to place land into trust outside its 
aboriginal territory over the objection of the affected county.
    CSAC does not oppose the use by a tribe of non-tribal land for 
development provided the tribe fully complies with state and local 
government laws and regulations applicable to all other development, 
including full compliance with environmental laws, health and safety 
laws, and mitigation of all impacts of that development on the affected 
county.
[GRAPHIC] [TIFF OMITTED] T4545.001

                                 ______
                                 
    The Chairman. Thank you. Supervisor Jacob.

             STATEMENT OF SUPERVISOR DIANNE JACOB, 
             SAN DIEGO COUNTY BOARD OF SUPERVISORS

    Ms. Jacob. Thank you, Mr. Chairman, and Member of the 
Committee. I appreciate the opportunity to be here this 
afternoon, and providing some testimony to you.
    I am Dianne Jacob. I am a member of the San Diego County 
Board of Supervisors, which is in California. I want to focus 
my comments today specifically on those provisions of the draft 
authorizing the consolidation of two or more tribes' gaming 
activities within the existing boundaries of one of the tribe's 
reservation. It is a concept that I wholeheartedly support.
    San Diego County is home to more Indian reservations than 
any county in the United States, at 18. Currently, nine tribes 
in our county operate casinos. These casinos range from a small 
30-slot arcade to large casino resorts, some with golf courses, 
multi-story hotels, shopping centers, live theaters and fine 
restaurants. The tribes gaming has become a powerful tool for 
social change. It has helped tribal members break free from 
decades of poverty and government neglect, and on some 
reservations gaming has completely eliminated unemployment and 
enabled tribal members to become self-sufficient.
    For the community, it provides jobs, attracts tourists and 
adds fuel to our local economy. Each year gaming tribes give 
millions of dollars in charitable contributions to 
organizations throughout the region. These benefits, however, 
are not without a price.
    The kind of development that accompanies Indian gaming has 
profoundly affected people in nearby communities, and it has 
had a substantial impact on county government, from increased 
traffic to increased demands on law enforcement, to decreased 
groundwater supplies, to changes in community character, the 
unintended consequences of casino development are huge.
    Like a majority of San Diegans, I support the right of 
tribes to game, and while I believe that reservations are 
sovereign nations, I know they are not islands. At the moment a 
handful of new casino projects are in the works for San Diego 
County. This is the story of two tribes and how the County of 
San Diego, working in partnership with the Viejas Band of 
Kumeyaay Indians, the Ewiiaapaayp Band of Kumeyaay Indians in 
the State of California, all parties working together have 
developed a powerful new tool to lessen the impact of one 
future casino. That too is casino consolidation.
    This is a new concept that respects gaming rights and tribe 
sovereignty. I believe it also has the potential to protect 
communities from the unbridled proliferation of Indian casinos. 
Without exception, all of the Indian reservations in San Diego 
County are located in rural, unincorporated communities, and 
people who live in these areas are accustomed to a slower, more 
peaceful, quiet way of life than in the urban areas. Residents 
cherish their uninterrupted view of San Diego County's scenic 
back country and they deeply value their open space.
    Such is the case in Alpine, a community I am proud to 
represent. Alpine is a small town of about 14,000 people, 
located 30 miles east of downtown San Diego. The community's 
business district is located just south of a major freeway, 
Interstate 8.
    Since 1991, the Viejas Band of Kumeyaay Indians has 
operated a casino on the tribe's 1,600 acre reservation located 
just north of Interstate 8 in Alpine. While most other 
reservations in San Diego County are only accessible by remote 
two-lane rural roads, the Viejas Reservation is accessible by 
Interstate 8, and a very short stretch of a county-maintained 
two-lane road.
    The reservation has an existing waste water treatment 
facility and water distribution and storage facilities. About 
20 miles northeast of Alpine, far off Interstate 8, in the 
remote Laguna Mountains lies the reservation of the Ewiiaapaayp 
Band of Kumeyaay Indians.
    The 4,100 acre reservation has no public utilities, no 
telephone service, no radio service, limited electricity, no 
treatment system for waste water or solid waste, and 
groundwater is their only water source. More than 98 percent of 
the Ewiiaapaayp Reservation is rocky ridges and steep 
hillsides. Access to the reservation is via a 12-mile narrow, 
winding, steeply graded, and poorly maintained dirt road.
    That geography was bad news for the Ewiiaapaayp who in 1999 
signed a gaming compact with the State of California, and 
wanted to experience the same economic success that gaming was 
bringing to Viejas and other tribes. But the Ewiiaapaayp 
Reservation would not accommodate a large casino project.
    So the Ewiiaapaayp tried another avenue. That avenue was a 
10 acre parcel, a little more than one mile west of the Viejas 
Casino. Twenty years ago those 10 acres were placed in Federal 
trust in the Ewiiaapaayp name. The parcel was and still is the 
home of the Southern Indian Health Clinic, a facility that 
serves seven tribes, including Viejas.
    The tribe viewed the health clinic land as its best hope 
for the site of a future casino. For six years, the Ewiiaapaayp 
tried and tried to get Federal approval to build a casino on 
clinic land. At one point the tribe purchased land on the south 
side of Interstate 8, hoping to relocate the clinic. At another 
point the tribe hoped to move the clinic to the rear of the 10 
acre parcel, and build the casino in the front.
    For the Viejas and Ewiiaapaayp tribes, it was a bitter and 
protracted legal battle that pitted tribe against tribe. Viejas 
opposed the Ewiiaapaayp proposal at every turn, and so did I, 
along with others.
    For the community of Alpine and San Diego County 
government, the uncertainty was unnerving. What might the 
access road be like to a second large casino just one mile west 
of Viejas? What about fire protection, emergency medical 
services, and added crime? Would it be possible to adequately 
mitigate all of the impacts, and who would pay?
    These questions and others are the same questions San Diego 
County grapples with time and time again when it comes to the 
development of an Indian casino.
    Current gaming compacts negotiated by California Governor 
Arnold Schwarzenegger require enforceable agreements between 
tribes wishing to build casinos and local government. These 
agreements do provide for mitigation measures and county 
government has a seat at the table.
    Still the gaming compacts do not change the sheer number of 
casinos that could be built in various rural communities. That 
is why casino consolidation in the form of an unprecedented 
prototype involving Viejas and Ewiiaapaayp is so important.
    The two tribes, the Governor and the county have all found 
a way to turn conflict into compromise by proposing to co-
locate a Ewiiaapaayp gaming facility on the Viejas Reservation.
    Here is what happens if approved. The Ewiiaapaayp will gain 
an economic opportunity the tribe otherwise might not have. 
Viejas will receive a portion of the facility's revenue. 
Litigation between the two tribes will at last be put to rest. 
The proposal would require a new compact, and that compact 
would give the county a seat at the table. County government 
will have the opportunity to work with the tribes to identify 
significant off-reservation impacts, and adequate mitigation 
measures will be provided. That is good news for the people of 
Alpine and beyond.
    Best of all, the proposal is voluntary. None of the parties 
are forced to act. What was an adversarial situation that 
sparked fear and conflict becomes a project representing 
communication, cooperation, and compromise.
    Members of the Committee, by supporting this legislation 
which would allow casino consolidation on the Viejas 
Reservation, you allow us to solve our own problem with a 
solution that we ourselves have developed locally.
    I also believe it will send a message to tribes in San 
Diego County and across the Nation that there is another 
option. Casino consolidation can be viewed as a viable 
alternative to the layers of conflict that frequently accompany 
Indian casino proposals.
    I urge your support for this portion of this draft 
proposal, and I thank you again for the opportunity to speak.
    [The prepared statement of Ms. Jacob follows:]

           Statement of The Honorable Dianne Jacob, Member, 
                 San Diego County Board of Supervisors

    Mr. Chairman, Mr. Rahall, and members of the committee, I thank you 
for this opportunity to comment on the Second Draft of Legislation 
Regarding Off-Reservation Indian Gaming.
    I am Dianne Jacob, a member of the San Diego County Board of 
Supervisors.
    I will focus my comments today specifically on those provisions of 
the draft authorizing the consolidation of two or more tribes' gaming 
activities within the existing boundaries of one of the tribes' 
reservation. It is a concept I wholeheartedly support.
    San Diego County is home to more Indian reservations than any 
county in the United States at 18. We have been called the ``Indian 
Gaming Capitol of the Nation.''
    We have the greatest number of Indian tribes with gaming compacts 
with the State of California at 14.
    Currently, nine tribes in our County operate casinos.
    These casinos range from a small 30-slot arcade to large casino 
resorts, some with golf courses, multi-story hotels, shopping centers, 
live theaters and fine restaurants.
    Together, these nine gaming tribes employ about 13,000 workers and 
have annual gross revenue estimated at $1.5 billion dollars.
    For tribes, gaming has become a powerful tool for social change. 
It's helped tribal members break free from decades of poverty and 
government neglect. On some reservations, gaming has completely 
eliminated unemployment and enabled tribal members to become self-
sufficient.
    For the community, it provides jobs, attracts tourists and adds 
fuel to our local economy. Each year, gaming tribes give millions of 
dollars in charitable contributions to organizations throughout the 
region.
    These benefits, however, are not without a price.
    The kind of development that accompanies Indian gaming has 
profoundly affected people in nearby communities. And, it's had a 
substantial impact on County government.
    From increased traffic to increased demands on law enforcement, to 
decreased groundwater supplies to changes in community character, the 
unintended consequences of casino development are huge.
    Like a majority of San Diegans I support the right of tribes to 
game. And while I believe that reservations are sovereign nations, I 
know they are not islands.
    At the moment, a handful of new casino projects are in the works 
for San Diego County.
    This is the story of two tribes and how the County of San Diego 
working in partnership with the Viejas Band of Kumeyaay Indians, the 
Ewiiaapaayp Band of Kumeyaay Indians and the State of California--all 
parties together--developed a powerful new tool to lessen the impact of 
one future casino.
    That tool--Casino Consolidation--is one I first discussed publicly 
in my 2004 State of the County Address.
    Casino Consolidation is a new concept that respects gaming rights 
and tribal sovereignty.
    I believe it also has the potential to protect communities from the 
unbridled proliferation of Indian casinos.
    Without exception, all of the Indian reservations in San Diego 
County are located in rural, unincorporated communities. People who 
live in these areas are accustomed to a slower, more peaceful, quieter 
way of life than in urban areas. Residents cherish their uninterrupted 
views of San Diego County's scenic Backcountry and they deeply value 
their open space.
    Such is the case in Alpine, a community I am proud to represent. 
Alpine is small town of about 14,000 people located 30 miles east of 
downtown San Diego. The community's business district is located just 
south of a major freeway, Interstate 8.
    Since 1991, the Viejas Band of Kumeyaay Indians has operated a 
casino on the tribe's 1,600 acre reservation located just north of 
Interstate 8 in Alpine.
    While most other reservations in San Diego County are only 
accessible by remote, two-lane rural roads, the Viejas reservation is 
accessible by Interstate 8 and a very short stretch of a County-
maintained two-lane road. The reservation has an existing wastewater 
treatment facility and water distribution and storage facilities.
    Over the years, the tribe has fostered a good relationship with the 
Alpine community and is a frequent sponsor and host of community 
events. The tribe enjoys, what I would characterize as, an 
``excellent'' working relationship with San Diego County government. 
Both governments have partnered to bring needed firefighting resources 
to the area, promote tourism in eastern San Diego County as well as 
improve the access road to the casino.
    About 20 miles northeast of Alpine, far off Interstate 8, in the 
remote Laguna Mountains lies the reservation of the Ewiiaapaayp Band of 
Kumeyaay Indians.
    The 4,100 acre reservation has no public utilities, no telephone 
service, no radio service, limited electricity, no treatment system for 
wastewater or solid waste, and groundwater is the only water source.
    More than 98 percent of the Ewiiaapaayp reservation is rocky ridges 
and steep hillsides. Access to the reservation is via a 12-mile, 
narrow, winding, steeply-graded and poorly-maintained dirt road.
    That geography was bad news for the Ewiiaapaayp who, in 1999, 
signed a gaming compact with the State of California and wanted to 
experience the same economic success that gaming was bringing to Viejas 
and other tribes.
    But, the Ewiiaapaayp reservation would not accommodate a large 
casino project.
    So, the Ewiiaapaayp tried another avenue.
    That avenue was a 10-acre parcel a little more than one mile west 
of the Viejas casino. Twenty years ago, those 10-acres were placed in 
federal trust in the Ewiiaapaayp name. The parcel was, and still is, 
the home of the Southern Indian Health Clinic, a facility that serves 
seven tribes, including Viejas.
    The Tribe viewed the health clinic land as its best hope for the 
site of a future casino.
    For six years, the Ewiiaapaayp tried and tried to get federal 
approval to build a casino on clinic land.
    At one point, the tribe purchased land on the South side of the 
Interstate 8, hoping to relocate the clinic. At another point, the 
tribe hoped to move the clinic to the rear of the 10 acre parcel and 
build the casino in the front.
    For the Viejas and Ewiiaapaayp tribes, it was a bitter and 
protracted legal battle that pitted tribe against tribe. Viejas opposed 
the Ewiiaapaayp proposal at every turn. And so did I, along with 
others.
    For the community of Alpine and San Diego County government, the 
uncertainly was unnerving. What might road access be like to a second 
large casino just one mile west of Viejas? What about fire protection, 
emergency medical services and added crime? Would it be possible to 
adequately mitigate all of the impacts and who would pay?
    These questions and others are the same questions San Diego County 
grapples with time and time again when it comes to the development of 
an Indian casino.
    In the early '90s, Viejas and two other tribes built the very first 
casinos in our County. This was long before the passage of Proposition 
5 in 1998 which authorized the type of tribal gaming allowed on 
reservations today.
    Current gaming compacts negotiated by California Governor Arnold 
Schwarzenegger require enforceable agreements between tribes wishing to 
build casinos and local government. These agreements do provide for 
mitigation measures and County government has a seat at the table.
    Still, the gaming compacts don't change the sheer number of casinos 
that could be built in various rural communities.
    That's why Casino Consolidation--in the form of the unprecedented 
prototype involving Viejas and Ewiiaapaayp--is so important.
    The two tribes, the Governor and the County have all found a way to 
turn conflict into compromise by proposing to co-locate a Ewiiaapaayp 
gaming facility on the Viejas reservation.
    Here is what happens if it is approved:
    The Ewiiaapaayp will gain an economic opportunity the tribe 
otherwise might not have.
    Viejas will receive a portion of the facility's revenue.
    Litigation between the two tribes will at last be put to rest.
    The proposal would require a new compact and that compact would 
give the County a seat at the table. County government will have the 
opportunity to work with the tribes to identify significant off 
reservation impacts and adequate mitigation measures would be provided. 
That is good news for the people of Alpine and beyond.
    Best of all, the proposal is voluntary. None of the parties are 
forced to act.
    What was an adversarial situation that sparked fear and conflict 
becomes a project representing communication, cooperation and 
compromise.
    Members of the committee, by supporting this legislation which 
would allow Casino Consolidation on the Viejas reservation, you allow 
us to solve our own problem with a solution that we, ourselves, have 
developed locally.
    The joint venture between Viejas and Ewiiaapaayp is not the only 
place in San Diego County, or throughout the nation, where Casino 
Consolidation might be utilized.
    As we speak, an Indian tribe is threatening to break ground on a 
giant 30-story gaming tower on four acres of tribal land in a tiny, 
rural community in eastern San Diego County.
    The town's main arterial route is a small, dangerous country road. 
The increased traffic, crime, fire protection and destruction of the 
quiet rural way of life are all subjects of concern. The State says the 
project threatens the vitality of a next-door ecological preserve which 
is part of the National Wildlife Refuge in southeastern San Diego 
County.
    Ninety-seven percent of the community is opposed to this project 
along with Governor Schwarzenegger and a host of federal, state and 
local officials.
    Why then are tribal members pursuing a 30-story tower instead of 
investigating casino consolidation? This is the subject of much head-
scratching.
    If this legislation moves forward, I believe, it will send a 
message to tribes in San Diego County and across the nation that there 
is another option.
    Casino Consolidation can be viewed as a viable alternative to the 
layers of conflict that frequently accompany Indian casino proposals.
    It is my sincere belief that Casino Consolidation can stem the 
scattering of large and mismatched intensive commercial developments 
throughout San Diego County's rural, picturesque backcountry.
    I urge your support.
    Thank you for the opportunity to speak today.
                                 ______
                                 
    The Chairman. Thank you. I thank all the panel for their 
testimony. I understand that the Senator had to leave, had a 
plane to catch, and I apologize about the delay.
    Supervisor Jacob, I am very familiar with the issue with 
the Viejas and the consolidation there, and believe that that 
is one of the solutions.
    Do you see that provision in the draft legislation being 
able to be used more frequently in your area
    Ms. Jacob. I do not know if the word is ``frequently''. I 
know there are other opportunities where there has been large 
opposition. One case in particular that I have indicated in my 
written testimony that has the opposition of two Governors, 
former and the current Governor, legislatures, local officials, 
97 percent of the community do not want it. It is the four 
acre, tiniest so-called reservation in the country. And this 
would be an opportunity for a situation like that to take 
advantage of the casino consolidation.
    There may be others in the county that I am not aware of, 
but I think once again, it is a good compromise and it could 
establish a model, not just as our county, but for the nation.
    The Chairman. I know throughout the State of California 
there are a number of cases that are similar to what the Viejas 
were going through, and one of the reasons why that provision 
was left in the draft was I believe that working cooperatively 
that it does solve a lot of those issues and a lot of those 
problems that local communities have.
    I do commend San Diego County for the work that they put 
into reaching a compromise on that particular issue because it 
was an issue that had been hanging out there for a number of 
years, and had caused a number of bad blood and bad feelings 
amongst the tribes themselves and others, and I know that you 
guys were very active in that, and I congratulate you and 
appreciate the work that you have put into that.
    Unfortunately, without the underlying legislation going 
through, I am not sure how long it is going to take to get to a 
conclusion on that, but I believe that the underlying 
legislation does get us there
    Ms. Jacob. Thank you, Mr. Chairman, for your support, and 
anything that can be done to expedite this portion would be 
greatly appreciated by the two tribes and the state and the 
county.
    The Chairman. Supervisor Kromm, in your testimony you voice 
concern over the majority vote that is called for in the county 
or parish, and I would like to have you explain a little bit 
more about why you have a concern about that provision.
    Mr. Kromm. Well, we support the idea of the majority vote, 
but what we are concerned about is it does not quite go far 
enough. I think where there has been successful negotiations it 
has been the government-to-government negotiations, and I guess 
it depends on timing.
    If an issue goes too early to the ballot, I think it could 
be something like what we have seen in California with the 
various statewide propositions under Indian gaming, all of 
which have generated these massive amounts of campaign 
spending, and the last one failed, the prior ones passed. And 
if it is just based on the PR-type campaign, I think we could 
easily miss the substantive discussion that has to happen at 
the local level.
    So whether the negotiations, the government-to-government 
negotiations happen before a vote, and then that goes out to 
the ballot, or after the vote, at some point though I think 
there has to be--it has to be clear that the government-to-
government negotiations have to be done.
    So it is not in opposition to the vote, it is an addition 
to a vote of the people.
    The Chairman. So what you are telling me is that you want 
to make sure that any negotiated agreement between the county 
or the city is completed before there is a vote on it?
    Mr. Kromm. Probably. This one, I think, I think it will 
probably take some heads thinking about it for awhile for what 
is the best way to do the timing, but I think if there were a 
early vote that would indicate popular support or popular 
opposition, I mean, I guess that could say, well, do not bother 
doing the negotiations if there is not support. If there is 
overwhelming support, that might also push the negotiations to 
a point where the tribe could say to the local governments, 
well, there is overwhelming support. We do not need to 
negotiate with you, or we only need to negotiate a little bit.
    So at this point I kind of tend to think that the 
negotiations need to commence before the voting commences.
    The Chairman. Would it not also make sense that certain 
restrictions be put on what can be negotiated?
    Mr. Kromm. Sure.
    The Chairman. I do not want a situation developing where a 
local community or a county can extort more out of a tribe than 
what they would if it was a private developer going in.
    Mr. Kromm. Right. Yes, I mention in my testimony the 
baseball style arbitration process, and one of the things that 
occurred to me is that I guess it is potential that you get 
into negotiations, you are far apart, and rather than have an 
arbitrator decide perhaps that could even go to the ballot. 
Here is what the local government is proposing, here is what 
the Indian tribe is proposing, and that would probably presume 
that one of the two wins.
    The Chairman. In the current situation and the current law 
allowing the Governor to negotiate the compact, I have noticed 
in recent years that that empowers the Governor to the point 
where they can extort what I believe is a high fee out of the 
tribe, a tax out of the tribe that goes beyond what I believe 
is reasonable in some cases, and also puts the tribe in a 
position of negotiating its own sovereignty, and I think we 
have to be careful about putting too much in terms of that veto 
authority in the hands of local government. But I do think that 
they have their issues that should be addressed.
    Mr. Kromm. We agree. And I think what you are trying to do 
is wrestle your way through that as you are going through the 
process of these multiple drafts of the bill. Yes, we obviously 
have folks back here in Washington that I am sure your staff 
works with, and I think working through those details probably 
takes--let us put three or four or five ideas on the table and 
see where they go, and try to figure out how to get to the 
right spot where both sides are comfortable.
    The Chairman. Yes.
    Mr. Kromm. But what I am hearing is that you have respect 
for what our concerns are, but you do not want to overly 
empower either side. That makes perfect sense.
    The Chairman. It has to be a fair and honest negotiation.
    Mr. Kromm. Sure.
    The Chairman. And I do not want any changes in law to 
empower anyone to the point where they have the ability to 
dictate all the terms, and that is one thing we have to be 
careful of as we move forward with this.
    But I appreciate your testimony. I think that local 
governments' input into this has been extremely helpful in us 
moving forward.
    Mr. Kromm. Thank you.
    The Chairman. I recognize Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman. I appreciate the 
testimony of the witnesses here.
    Senator Papen, I was wondering if an idea has been explored 
to resolve the issues that confront your community at the local 
level, and I am one that believes in local solutions. As you 
know, eight percent of the net win is shared from these gaming 
tribes with the State of New Mexico, and I think that total--
you would be probably closer in terms of the actual number, but 
24 million or something in that range of yearly revenue to the 
State of New Mexico.
    Several other states have shared revenue with non-gaming 
tribes. I think Arizona is one that has done that. Has there 
been any thought in New Mexico about sharing some of that 
revenue with the non-gaming tribes to put a lid on the gaming? 
Is that a serious proposal?
    I know that it was discussed during the period where I was 
state attorney general out there. I wonder what your thought is 
on that.
    Ms. Papen. Mr. Chairman, and Congressman Udall, I am not 
aware of that being part of a solution to the problem at this 
point in time. Certainly I think that if the Native Americans 
want to do some of the sharing with tribes that do not have 
gaming, I think that that is something for them to negotiate.
    But also let me make it clear that the Native American 
casinos only provide eight percent of the proceeds from the 
machines. None of the proceeds from table games are included. 
That all goes back to the tribes with no revenue sharing.
    Mr. Tom Udall. Yes, and the sharing that I am talking 
about, the State and the State Legislature and the Governor 
would have to be involved with that because I am talking about 
the money that is part of the eight percent, as you say, off 
the machines that goes to the State of New Mexico, 24 million 
or whatever it is. It is a significant sum.
    The State would take the position that some of that revenue 
should go to non-gaming tribes as has been done, I think, in 
Arizona, and maybe other states. But you are not aware of that 
idea being explored at all?
    Ms. Papen. No, I am not aware of that, but I think it is 
certainly a viable idea.
    Mr. Tom Udall. Senator Papen, I know the community down 
there is divided in terms of support and opposition for this 
proposal that is circulating. I believe that--you heard me put 
in earlier the resolution from the county commission. I believe 
the vote was three to two; three in support and two in 
opposition there.
    Could you give us a view, a balanced view of the opposition 
and support in your community for this proposal that is out 
there?
    Ms. Papen. Well, I will try, Mr. Chairman and Congressman. 
I think that with a three/two vote, that is certainly not 
strong opposition. I think you have a sort of balance that is 
going on there.
    Also, out of our 10 local Dona Ana County State 
Representatives, six of us have written a letter to Secretary 
Norton requesting her to not grant this. So you have the county 
commission on the one side saying three to two, and then you go 
on the other side and you have six to four that is happening.
    So I think it is--I think you have some strong support from 
the community of Anthony, which is about 7,000 people who live 
there. I think they are looking for some more jobs and better 
jobs. The group that wants to put this in has had some job 
fairs down there which the Albuquerque Journal has called 
politicking, and not really looking for people who want jobs 
because it has not been even approved, and it would be several 
years before it would probably be up and running, but sort of 
getting a list of people who have come to the job fairs and 
putting that down as support for the casino. I think it is 
support for jobs, not a support for the casino.
    And so I think the communities, I think a lot of the 
religious communities are opposing this. Certainly a lot of the 
people with the tracts, a lot of my farmers, I have a lot of 
farmers in my district who raise alfalfa, and depend a 
livelihood on this, as well as a lot of the horse farms have 
come in, tremendous horse farms we have all over our valley, 
and they have been there and have certainly a vested interest 
in the property there and making their livelihood.
    Also, $40 million worth of promises were done out of the 
revenue sharing from this venture to give to the county before 
they made this vote to support it. So if you have $40 million 
sitting on the table as part of revenue sharing, I think that 
you have to look at this maybe with a little bit different--
maybe a jaundiced eye.
    And so I do support Anthony. I do support having jobs. I 
think we need them. I think we need to look at it, but I think 
when we have a tribe like the Perimongos from Tortugas, which 
are not a federally recognized tribe, but do have ancestral 
ties to this land, as well as our own Mescalero Apaches, who 
have walked there, Geronimo, and all of the things there. They 
have ancestral ties to this land. The Jemez have no ancestral 
ties to this land.
    And so I think that this is the wrong thing to do, and I 
know people have--at least I know the groups say, well, I am 
supporting this because my daughter has race horses. That is 
strictly a hobby for them. They have a Toyota agency, they 
support their own lives, they support their horses and they 
very rarely win. So it is not about that. It is about what is 
fair.
    Mr. Tom Udall. Senator Papen, thank you very much for that 
summary down there of what is going on.
    I have had people tell me that there have been polls in 
Anthony or the surrounding community on this. Have there been 
any in terms of the support of the public? Have you seen any 
public polls done by the papers or any of the research 
institutes at the university or anything like that in terms of 
supporting the proposal or opposition to the proposal?
    Ms. Papen. Mr. Chairman, Congressman Udall, I believe they 
have done some polls down in Anthony where they have done the 
job fairs, and this sort of thing. They do have some support 
for that. And I go down almost to Anthony--come around and 
surround Anthony, so I have nine Colonas in my district, and 
people who live in Colonas, of course, are looking for jobs. So 
I think there have been some polls that show certainly support 
for it.
    I do not--to my knowledge, there has not been a countywide 
poll that has been done that shows support for this endeavor. I 
think it is more a localized support in the community of 
Anthony where it will be, maybe Anthony Barino area where it 
would be put, and it is right--you know, it is right on the 
Texas line, so that whole issue of--I think some of the 
Anthony--Anthony itself is divided in two communities. Half of 
the community is in Texas and half of it is in New Mexico. So I 
think the people who live in Anthony on Texas and New Mexico 
side, there is opposition, and strong opposition in Anthony. I 
think there is certainly some support for it happening in 
Anthony.
    Mr. Tom Udall. Thank you, Senator Papen. And Mr. Chairman, 
I very much appreciate your letting me run over a little bit. I 
also appreciate the testimony of the California supervisors, 
and I do not have anything further.
    The Chairman. I want to thank this panel for your testimony 
and for your answers to the questions. There may be further 
questions though that Committee members have, and those will be 
submitted to you in writing. If you could answer those in 
writing so that they could be included as part of the hearing 
record, it would be appreciated.
    I know that this is a tough issue to deal with, and it is 
something that this committee has looked at over the past 
several months, and we will continue to move forward.
    I believe that having an open process where you try to 
listen to everybody and try to include that in the legislation 
is the right way for legislation to be drafted, and that is 
what we are attempting to do with this legislation. So I 
appreciate all of the witnesses that we had today, all of the 
comments.
    If there are further comments that people have that did not 
have the ability to testify today, those can be submitted in 
writing and they will be included as part of the hearing 
record.
    If there is no further business before the Committee, the 
Committee stands adjourned.
    [Whereupon, at 1:15 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
